<html>
<title> - H.R. 1054, H.R. 2213, H.R. 3433, AND H.R. 3537</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
            H.R. 1054, H.R. 2213, H.R. 3433, AND H.R. 3537

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                      Tuesday, September 22, 2009

                               __________

                           Serial No. 111-36

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
52-366PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON INSULAR AFFAIRS, OCEANS AND WILDLIFE

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Jeff Flake, Arizona
    Samoa                            Doug Lamborn, Colorado
Neil Abercrombie, Hawaii             Robert J. Wittman, Virginia
Frank Pallone, Jr., New Jersey       John Fleming, Louisiana
Gregorio Sablan, Northern Marianas   Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Bill Cassidy, Louisiana
    Islands                          Doc Hastings, Washington, ex 
Diana DeGette, Colorado                  officio
Ron Kind, Wisconsin
Lois Capps, California
Carol Shea-Porter, New Hampshire
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                











                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 22, 2009......................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Broun, Hon. Paul C., a Representative in Congress from the 
      State of Georgia, Prepared statement of....................    44
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina, Prepared statement of.........     5
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin, Prepared statement on H.R. 1054..............    85
        Prepared statement on H.R. 2213..........................    85
    Wittman, Hon. Robert J., a Representative in Congress from 
      the State of Virginia, Prepared statement of...............    76
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................     3

Statement of Witnesses:
    Crystal, Howard M., Partner, Meyer Glitzenstein and Crystal..    16
        Prepared statement of....................................    17
        Response to questions submitted for the record...........    20
    Cutchin, Lisa D., Teacher, St. John Regional Catholic School.    72
        Prepared statement of....................................    73
    Daulton, Michael, Legislative Director, National Audubon 
      Society....................................................    61
        Prepared statement of....................................    62
    Gould, Rowan, Ph.D., Deputy Director, Fish and Wildlife 
      Service, U.S. Department of the Interior...................     6
        Prepared statement of....................................     8
        Response to questions submitted for the record...........    10
    Markarian, Michael, Chief Operating Officer, The Humane 
      Society of the United States...............................    21
        Prepared statement of....................................    23
        Response to questions submitted for the record...........    28
    Moritz, William E., Ph.D., Director of Conservation, Safari 
      Club International Foundation, and Acting Director of 
      Governmental Affairs, Safari Club International............    34
        Prepared statement of....................................    36
    Oerter, Roger E., Major, USAF, Retired.......................    30
        Prepared statement of....................................    31
        Letter to Hon. Don Young submitted for the record on H.R. 
          1054...................................................    32
        Response to questions submitted for the record...........    33
    Schmidt, Paul R., Assistant Director for Migratory Birds, 
      Fish and Wildlife Service, U.S. Department of the Interior.    49
        Prepared statement of....................................    50
        Response to questions submitted for the record...........    53
    Schroeder, Darin, Vice President of Conservation Advocacy, 
      American Bird Conservancy..................................    67
        Prepared statement of....................................    69
    Sutherland, Scott A., Director of Governmental Affairs, Ducks 
      Unlimited..................................................    56
        Prepared statement of....................................    57
Additional materials supplied:
    Berlew, Jeff, Angola, Indiana, Letter submitted for the 
      record on H.R. 1054........................................    79
    Box, James M., Bloomfield, Iowa, Letter submitted for the 
      record on H.R. 1054........................................    80
    Decker, Tim and Jan, Apple Valley, California, Letter 
      submitted for the record on H.R. 1054......................    81
    Flocken, Jeff, Washington, D.C., Office Director, on behalf 
      of the International Fund for Animal Welfare, Statement 
      submitted for the record on H.R. 1054......................    82
    Humane Society of the United States, Outreach by Hunting 
      Group on Polar Bears submitted for the record..............    84
    Kooistra, Tom, Letter submitted for the record on H.R. 1054..    86
    Kreider, Ron, Lancaster, Pennsylvania, Letter submitted for 
      the record on H.R. 1054....................................    86
    Leedy, Ethel Doris, Delta Junction, Alaska, Letter submitted 
      for the record on H.R. 1054................................    87
    Martell, James R., Glenns Ferry, Idaho, Letter submitted for 
      the record on H.R. 1054....................................    88
    Mazur, James, Sheridan, Wyoming, Letter submitted for the 
      record on H.R. 1054........................................    89
    Sevor, Jeffrey J., DMD, Letter submitted for the record on 
      H.R. 1054..................................................    90
    Stallings, Ted, Letter submitted for the record on H.R. 1054.    90
    Steiner, Larry R., Adirondack-Catskill Chapter, Safari Club 
      International, Letter submitted for the record on H.R. 1054    92
    Vander Esch, Darwin J., Email submitted for the record on 
      H.R. 1054..................................................    93
    Walters, Tim, Letter submitted for the record on H.R. 1054...    94
                                     



LEGISLATIVE HEARING ON H.R. 1054, TO AMEND THE MARINE MAMMAL PROTECTION 
ACT OF 1972 TO ALLOW IMPORTATION OF POLAR BEAR TROPHIES TAKEN IN SPORT 
 HUNTS IN CANADA BEFORE THE DATE THE POLAR BEAR WAS DETERMINED TO BE A 
THREATENED SPECIES UNDER THE ENDANGERED SPECIES ACT OF 1973; H.R. 2213, 
 TO REAUTHORIZE THE NEOTROPICAL MIGRATORY BIRD CONSERVATION ACT; H.R. 
    3433, TO AMEND THE NORTH AMERICAN WETLANDS CONSERVATION ACT TO 
 ESTABLISH REQUIREMENTS REGARDING PAYMENT OF THE NON-FEDERAL SHARE OF 
 THE COSTS OF WETLANDS CONSERVATION PROJECTS IN CANADA; AND H.R. 3537, 
 THE JUNIOR DUCK STAMP CONSERVATION AND DESIGN PROGRAM REAUTHORIZATION 
                              ACT OF 2009.

                              ----------                              


                      Tuesday, September 22, 2009

                     U.S. House of Representatives

          Subcommittee on Insular Affairs, Oceans and Wildlife

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Christensen, Kratovil, 
Young, Wittman and Chaffetz.
    Also Present: Representative Broun of Georgia.

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE IN CONGRESS 
                           FROM GUAM

    Ms. Bordallo. Good morning, everyone. The legislative 
hearing by the Subcommittee on Insular Affairs, Oceans and 
Wildlife will now come to order.
    The House Subcommittee on Insular Affairs, Oceans and 
Wildlife meets today to hear testimony on four bills. Our first 
panel will focus on H.R. 1054
    H.R. 1054 is legislation to amend the Marine Mammal 
Protection Act of 1972 to allow individuals who hunted polar 
bears in Canada prior to the listing of those bears under the 
Endangered Species Act to import their trophies to the United 
States.
    In response to a Court ordered deadline on May 15, 2008, 
the U.S. Department of the Interior listed polar bears as 
threatened under the ESA, triggering an automatic designation 
as a depleted species under the MMPA and preventing any further 
importation of polar bear products into the United States.
    After the polar bear was first proposed for listing under 
the ESA in January of 2007, the Fish and Wildlife Service began 
an outreach and education campaign to alert hunters that a 
prohibition would be placed on trophy imports should a listing 
occur. Still, approximately 40 hunters were apparently unable 
to import their bears prior to the May 15 deadline. At issue is 
whether that importation should now be allowed.
    Our second panel will testify on three bird conservation 
bills, H.R. 2213, to reauthorize the Neotropical Migratory Bird 
Conservation Act; H.R. 3433, to amend the North American 
Wetlands Conservation Act; and H.R. 3537, the Junior Duck Stamp 
Conservation and Design Program Reauthorization Act of 2009.
    Although the health status of several important migratory 
bird populations continues to decline, some bird populations, 
especially waterfowl and other wetland-dependent bird species, 
appear to be stable, if not growing. While not all credit for 
this achievement can be directed to these bird habitat 
conservation programs alone, it is safe to say that, in their 
absence, our ongoing efforts to recover and conserve migratory 
bird populations in North America would be much more 
challenging.
    I look forward to hearing from our witnesses concerning 
these bills. Moreover, I would like to hear what we in the 
Congress should do to ensure that these three programs remain 
vital elements in our strategy to conserve the diversity and 
abundance of our migratory bird resources.
    The Chairwoman now recognizes Mr. Young, who is Ranking 
Member from Alaska, for his opening statement.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
          Subcommittee on Insular Affairs, Oceans and Wildlife

    The House Subcommittee on Insular Affairs, Oceans and Wildlife 
meets today to hear testimony on four bills.
    Our first panel will focus on H.R. 1054, legislation that amends 
the Marine Mammal Protection Act to allow individuals who hunted polar 
bears in Canada prior to the listing of those bears under the 
Endangered Species Act, to import their trophies to the United States. 
In response to a court-ordered deadline, on May 15, 2008, the U.S. 
Department of Interior listed polar bears as threatened under the ESA, 
triggering an automatic designation as a depleted species under the 
MMPA and preventing any further importation of polar bear products into 
the United States.
    After the polar bear was first proposed for listing under the ESA 
in January 2007, the Fish and Wildlife Service began an outreach and 
education campaign to alert hunters that a prohibition would be placed 
on trophy imports should a listing occur. Still, approximately 40 
hunters were apparently unable to import their bears prior to the May 
15th deadline. At issue, is whether that importation should now be 
allowed.
    Our second panel will testify on three bird conservation bills: 
H.R. 2213, to reauthorize the Neotropical Migratory Bird Conservation 
Act; H.R. 3433, to amend the North American Wetlands Conservation Act, 
and H.R. 3537, the Junior Duck Stamp Conservation and Design Program 
Reauthorization Act of 2009.
    Although the health status of several important migratory bird 
populations continues to decline, some bird populations, especially 
waterfowl and other wetland-dependent bird species, appear to be 
stable, if not growing. While not all credit for this achievement can 
be directed to these bird habitat conservation programs alone, it is 
safe to say that in their absence our ongoing efforts to recover and 
conserve migratory bird populations in North American would be much 
more challenging.
    I will look forward to hearing from our witnesses concerning these 
bills. Moreover, I would like to hear what we in the Congress should do 
to ensure that these three programs remain vital elements in our 
strategy to conserve the diversity and abundance of our migratory bird 
resource.
                                 ______
                                 

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. Madam Chairwoman, thank you for scheduling this 
hearing today on H.R. 1054, which would allow 41 hunters with 
legally taken polar bear trophies in Canada to import their 
trophies into the U.S. after paying the required permit fee, 
which is approximately $1,000 per bear. The intent of this bill 
is very specific; to allow only those 41 hunters with legally 
taken polar bear trophies taken prior to the May 15, 2008, 
listing to bring those trophies into the United States.
    Congress amended the Marine Mammal Protection Act of 1994 
to allow U.S. hunters to import polar bear trophies from 
Canada. We did that. This Committee did it. The Act requires 
the Fish and Wildlife Service to review the status of polar 
bear populations in Canada and, after conducting their review, 
to create a list of approved, stable and healthy polar bear 
populations. Following this process, U.S. hunters would only be 
allowed to import trophies from those approved populations.
    Thirteen of the 19 polar bear populations are under the 
jurisdiction of Canada. Canada has one of the best management 
programs, using state-of-the-art scientific practices to manage 
its populations. Out of those 13 populations, only six are 
considered to be approved populations by the Fish and Wildlife 
Service.
    The worldwide population of polar bears, Madam Chairwoman, 
is currently estimated at 23,000 bears. I have a press release 
from the 1970s where the U.S. Fish and Wildlife Service is 
heralding the stability of the polar bear population with an 
estimate of 20,000 bears. That was 1970. Now we have 23,000.
    Here we are 32 years later, and the population is still 
above 20,000 polar bears. Given the dire prediction for polar 
bears over the next 100 years, one might be surprised that the 
polar bear has weathered ever-warming trends, including the 
most recent one in the last 50 years. Instead of seeing a huge 
decline in population as is predicted for the population over 
the next 100 years, the polar bear population has stayed stable 
since 1970.
    I do not want to digress into reasons why the Endangered 
Species Act listing of the polar bear was wrong. That is not 
the focus of this hearing. However, I do want to stress that 
the prohibition of bringing these trophies in the U.S. is not 
providing any conservation value to the Canadian polar bear 
population. In fact, if we allow these trophies to be imported, 
we can raise much needed funds for conservation activities for 
the shared U.S.-Russian polar bear population.
    There will be detractors today, as there were in 1994, who 
are opposed to amending the MMPA to allow the importation of 
polar bear trophies from Canada, referring to the language as a 
loophole. I have seen the ads. I think they are terribly 
misleading and, frankly, dishonest.
    In 1970, many marine mammal populations faced numerous 
threats. The MMPA was very effective in restoring those many 
marine mammal populations to healthy or historic levels. 
Unfortunately, the Act does not discriminate between healthy 
marine mammal populations and those still in need of 
rebuilding. Robust populations of marine mammals are treated 
like they are on the verge of extinction.
    While the 1994 amendments did not address this issue, the 
Democrats controlled Congress, specifically those enlightened 
Members of the Merchant Marine and Fisheries Committee, had the 
foresight to understand a sustainable use of resources and 
conservation activities were not mutually exclusive. The 
Committee developed strict requirements to ensure the 
protection of the polar bear populations in Canada, while 
allowing for the importation of sport-hunted polar bear 
trophies.
    The idea of incentives to give value to a natural resource 
was very new at the time. A similar program was developed for 
African communities to protect big game resources in Africa 
using the same incentive structure. These programs have proven 
their worth and have been very successful.
    There will always be a sector of our population that 
believes we should not kill animals. However, we need to keep 
in mind that there are still areas in the world that rely on 
natural resources around them and still subsist on these 
resources. Some may like to believe that if U.S. hunters are 
prohibited from importing their trophies, U.S. polar bear 
hunting will end. That is far from the truth.
    In addition, it is important to remember that these polar 
bear sport hunts in Canada support small, remote native 
villages in Canada. Hunters pay up to $50,000 for a hunt itself 
and will leave with only the hide of the bear. The native 
village benefits again from the hunt by retaining all the meat 
and the monetary value that is taken. Most of the Canadian 
polar bear populations are healthy and well managed. Sport 
hunting activities provide important incentives to support 
remote native villages and important conservation programs in 
Canada, the U.S. and Russia.
    Finally, let me again be clear. There is no conservation 
value in a dead bear that is held in cold storage in Canada for 
over a year. Those who legally hunted and harvested these polar 
bears fully complied with U.S. and Canadian laws in place at 
the time. In most instances, these hunts were years in 
planning, and savings were set aside to book this once-in-a-
lifetime experience.
    You will hear today from one of our witnesses, Major Roger 
Oerter of Vail, Arizona. Major Oerter is a veteran; not one, 
but 10 military deployments during his Air Force career. During 
his distinguished service, the Major time and again risked his 
life for the security of this nation. He is now asking this 
Subcommittee for the right to import his legally obtained polar 
bear trophy into the U.S. It seems to me that this is the least 
we can do for this hero warrior who has sacrificed for his 
country. He ought to be allowed to bring his trophy in.
    Madam Chairwoman, I have a number of letters from those 
hunters affected by the May 15 listings who have their polar 
bear trophies in Canada, and I am requesting action on H.R. 
1054 to allow them to import their property. I ask unanimous 
consent to submit these letters at the hearing and any 
additional letters I receive prior to the hearing record close.
    Thank you, Madam Chairwoman, for having this hearing.
    Ms. Bordallo. No objection. So ordered.
    [The information submitted for the record can be found at 
the end of this hearing.]
    Ms. Bordallo. I thank the gentleman from Alaska for his 
opening remarks, and I would now like to recognize our first 
panel of witnesses to testify.
    But before I do that, those standing in the back, we have 
chairs all around on the lower level here if you would like to 
be seated. It may be a long hearing.
    Mr. Young. Madam Chairwoman, if I may at this time? Could I 
submit Mr. Brown's statement for the record at this time too?
    Ms. Bordallo. No objection. So ordered.
    [The prepared statement of Mr. Brown follows:]

            Statement of The Honorable Henry E. Brown, Jr., 
       Ranking Republican Member, Committee on Natural Resources

    Madam Chairwoman, today, our Subcommittee will conduct a hearing on 
several legislative measures affecting Canadian polar bears, 
neotropical migrants and migratory waterfowl.
    The first bill was introduced by the distinguished former Chairman 
of the House Resources Committee, The Honorable Don Young of Alaska. It 
is my understanding that this bill, H.R. 1054, would allow 44 Americans 
to import their polar bear trophies into the United States which were 
legally harvested prior to the listing of this species as threatened 
under the Endangered Species Act.
    The second bill, H.R. 2213, would extend and more than triple the 
authorization for the Neotropical Migratory Bird Conservation Act. 
During the past nine years, this Act has been remarkably successful. In 
fact, the Fish and Wildlife Service has approved nearly 1,200 grant 
proposals to assist some of the 341 neotropical bird species. The 
Congress has already appropriated over $30 million for neotropical 
grants which compares quite favorably with the $64 million that has 
been provided to the other five Multinational Species Conservation 
Funds over the past twenty years. Nevertheless, this Act has earned an 
extension beyond September 30, 2012.
    The third bill, H.R. 3433, has been introduced by our distinguished 
colleague Congressman Rob Wittman of Virginia. It will amend the North 
American Wetlands Conservation Act to require that at least 50 percent 
of the non-federal share of projects in Canada be paid for by Canadian 
non-governmental entities. I believe this is an appropriate change in 
our federal law.
    Finally, we will hear testimony on H.R. 3537, a bill to extend the 
extremely popular Junior Duck Stamp Conservation and Design Program 
Act. I was pleased to join with Congressman Solomon Ortiz in 
introducing this measure.
    The Junior Duck Stamp Program was developed twenty years ago, it 
was first authorized sixteen years ago and thousands of students have 
benefitted from the conservation curriculum and the opportunity to 
participate in the nationwide art contest. I am pleased to report that 
Mr. Weston DeWolff a 15-year old student at the Charleston County 
School of the Arts was this year's ``Best of Show'' winner for the 
State of South Carolina.
    I congratulate him for his artistic efforts in drawing such a 
beautiful picture of a male and female mallard duck and strongly 
support extending this program so that thousands of additional students 
can participate in this contest in the future.
    Madam Chairwoman, I want to join with you in welcoming our 
distinguished witnesses and I look forward to hearing their testimony.
    Thank you, Madam Chairwoman.
                                 ______
                                 
    Before we introduce the witnesses, I would like to thank my 
colleagues, Donna Christensen from the Virgin Islands seated 
down there. She has another appointment, so she has joined us 
for a few minutes. From the Virgin Islands.
    We also have Congressman Chaffetz from Utah and Mr. Wittman 
from Virginia. Thank you, gentlemen.
    Our first group of witnesses, Dr. Rowan Gould, Deputy 
Director for Operations, United States Fish and Wildlife 
Service; Mr. Howard M. Crystal, Meyer Glitzenstein and Crystal; 
Mr. Michael Markarian, Chief Operating Officer, Humane Society 
of the United States; Mr. Roger Oerter; and Dr. William Moritz, 
Director, Department of Science-Based Conservation Programs and 
Research, Safari Club International.
    I want to thank you all for coming this morning, and as we 
begin, gentlemen, we are on a time constraint here with the 
Committee, and I would note for the witnesses that the red 
timing light on the table will indicate when five minutes have 
passed and your time has concluded. We would appreciate your 
cooperation in complying with these limits, but be assured that 
your full written statement will be included for the record.
    So we will begin with Dr. Gould. Please begin.

 STATEMENT OF DR. ROWAN GOULD, DEPUTY DIRECTOR FOR OPERATIONS, 
            UNITED STATES FISH AND WILDLIFE SERVICE

    Dr. Gould. Chairwoman Bordallo and Members of the 
Subcommittee, I am Rowan Gould, Deputy Director of the U.S. 
Fish and Wildlife Service. I appreciate the opportunity to 
appear before the Subcommittee to testify on H.R. 1054.
    My testimony will focus on the legal framework that has 
guided the Service regarding the importation of the polar bear 
under the Marine Mammal Protection Act and effects of the 
Endangered Species Act listing. In addition, I will highlight 
outreach the Service conducted to inform hunters of the 
potential impact of the ESA listing on their ability to import 
sport-hunted polar bear trophies.
    The polar bear was listed as threatened under the ESA on 
May 15, 2008, primarily due to loss of sea ice habitat caused 
by climate change. If the polar bear was protected only under 
the ESA, the Service would have continued to allow the import 
of sport-hunted polar bear trophies from Canada. However, the 
polar bear is also protected under the MMPA, which has its own 
legal requirements for the importation of marine mammals.
    Until the polar bear was listed under the ESA, the MMPA 
provided for the import of certain polar bear trophies from 
approved populations in Canada. However, any marine mammal 
listed as threatened or endangered under the ESA is considered 
depleted under the MMPA, and consequently the MMPA prevents the 
import of sport-hunted polar bear trophies.
    The Service conducted outreach efforts on the potential 
impact of an ESA listing on the import of sport-hunted polar 
bear trophies. We attempted to inform all potential applicants 
that a decision on the listing was imminent and that if the 
species was listed further imports would be prohibited. Given 
that the permitting process can take between 50 and 90 days, 
the Service attempted to provide as much information as 
possible to potential hunters as quickly as possible.
    The Service also worked closely with the Canadian 
Management Authority for importation of the Convention on 
International Trade of Endangered Species, CITES, to ensure 
permittees had accurate information about obtaining the 
required Canadian CITES export permit.
    On the day the polar bear was listed under the ESA, the 
Service had 43 permit applications for trophies from approved 
populations for which a final decision had not been made on 
whether or not to issue a permit. Many of these applications 
had already been published in the Federal Register, but the 
required 30-day comment period was still open or just recently 
closed.
    Other applications had only recently been received and the 
notice had either not been published or had been only recently 
published in the Federal Register. In addition to these 
individuals, it is possible that other U.S. hunters had taken 
bears from approved populations prior to the listing date, but 
had not yet applied to the Service for the required import 
permits.
    Prior to the listing of the polar bear under the ESA, the 
Service applied the provisions of the MMPA to allow the import 
of sport-hunted polar bear trophies legally harvested from 
approved populations in Canada. Following the ESA listing of 
the species, the Service has likewise adhered to the MMPA 
provisions, thereby prohibiting additional imports of sport-
hunted polar bear trophies from Canada.
    We recognize that there were a number of hunters who both 
applied for permits and successfully completed their polar bear 
hunts prior to the May 15, 2008, listing. We also recognize 
that by Court order the Service's final decision to list the 
polar bear under the ESA went into effect immediately whereas 
such decisions normally take effect 30 days after the 
publication date of the final listing decisions. The ESA 
listing triggered an immediate change in the status of the 
polar bear under the MMPA such that polar bear trophies could 
no longer be imported into the United States.
    The Administration does not oppose legislation allowing 
those hunters who both applied for a permit and completed their 
legal hunt within an approved polar bear population prior to 
the ESA listing to import their polar bear trophies, provided 
that the hunter is required to submit proof that the bear was 
legally harvested in Canada from an approved population.
    The Department does not support any broader change to the 
MMPA that would allow additional sport-hunted polar bear 
trophies to be supported beyond those where hunters submitted 
their import permit applications and completed their hunt prior 
to the ESA listing. Therefore, the Department does not support 
H.R. 1054 as currently written because it would allow the 
import of polar bear trophies regardless of whether the hunter 
had applied for the permit prior to the ESA listing.
    Madam Chairwoman and Members of the Subcommittee, thank you 
for the opportunity to testify on H.R. 1054. We look forward to 
continuing to work with the Subcommittee on this issue, and I 
would be happy to answer any questions.
    [The prepared statement of Dr. Gould follows:]

   Statement of Rowan Gould, Deputy Director, U.S. Fish and Wildlife 
         Service, U.S. Department of the Interior, on H.R. 1054

Introduction
    Chairwoman Bordallo and Members of the Subcommittee, I am Rowan 
Gould, Deputy Director of the U.S. Fish and Wildlife Service (Service), 
within the U.S. Department of the Interior (Department). I appreciate 
the opportunity to appear before the Subcommittee today to testify on 
H.R. 1054, which would amend the Marine Mammal Protection Act (MMPA) of 
1972 to allow importation into the United States of polar bear trophies 
taken in sport hunts in Canada before May 15, 2008, the effective date 
of listing the polar bear as a threatened species under the Endangered 
Species Act (ESA) of 1973.
    Today my testimony will focus on the legal framework that has 
guided the Department and the Service regarding the importation of the 
polar bear under the MMPA and effects of the ESA listing. In addition, 
I will highlight the outreach that the Service conducted to inform 
hunters of the potential impact of an ESA listing on their ability to 
import sport hunted polar bear trophies.
    The Department recognizes that there were a number of hunters who 
both applied for permits and successfully completed their polar bear 
hunts prior to the May 15, 2008 listing. We also recognize that, by 
court order, the Service's final decision to list the polar bear under 
the ESA went into effect immediately, whereas such decisions normally 
take effect 30 days after the publication date of the final listing 
decision. The ESA listing triggered an immediate change in the status 
of the polar bear under the MMPA such that polar bear trophies could no 
longer be imported into the United States. If the ESA listing had taken 
effect 30 days after the publication date, as is normally the case, 
some of these hunters may have had the opportunity to import their 
trophies before the listing took effect.
    The Administration does not oppose legislation allowing those 
hunters who both applied for a permit and completed their legal hunt of 
a polar bear from an approved population prior to the ESA listing to 
import their polar bear trophies, provided that the hunter is required 
to submit proof that the bear was legally harvested in Canada from an 
approved population prior to the effective date of the ESA listing. The 
Department does not support any broader changes to the MMPA that would 
allow additional sport-hunted polar bear trophies to be imported beyond 
those where hunters submitted their import permit application and 
completed their hunt prior to the ESA listing. Therefore, the 
Department does not support H.R. 1054 as currently written because it 
would allow the import of polar bear trophies regardless of whether the 
hunter had applied for the permit prior to the ESA listing.
Legal Framework for Importing Sport-hunted Polar Bear Trophies
    The polar bear was listed as threatened under the ESA on May 15, 
2008, primarily due to ongoing and predicted loss of sea-ice habitat 
caused by climate change. If the polar bear was protected only under 
the ESA, the Service could have continued to allow the import of sport-
hunted polar bear trophies from Canada. This could have been 
accomplished either by including a provision in the special rule issued 
for this species under section 4(d) of the ESA authorizing such imports 
or by applying the provisions of section 9(c)(2) of the ESA, which 
would have allowed sport-hunted polar bear trophies to be imported for 
personal use by the hunter without additional ESA authorization (as 
long as the trophy was imported with a Canadian export permit issued 
under the Convention on International Trade in Endangered Species of 
Wild Fauna and Flora (CITES) and all other requirements of law were 
met).
    However, the polar bear is also protected under the MMPA, which has 
its own legal requirements, separate and distinct from those of the 
ESA, relative to the importation of marine mammals. The MMPA 
establishes a federal responsibility, shared by the Secretaries of the 
Interior and Commerce, for the management and conservation of marine 
mammals. The Secretary of the Interior, through the Service, protects 
and manages polar bears, sea and marine otters, walruses, three species 
of manatees, and dugongs.
    Until the polar bear was listed under the ESA, section 104(c)(5) of 
the MMPA had provided for the import of certain polar bear trophies 
from approved populations in Canada. However, any marine mammal listed 
as threatened or endangered under the ESA is considered ``depleted'' 
under section 3(1)(C) of the MMPA, and consequently, sections 
101(a)(3)(B) and 102(b)(3) of the MMPA prevent the import of sport-
hunted polar bear trophies.
    The Service has interpreted the existing grandfather clause 
(section 104(c)(5)(D) of the MMPA), as continuing to authorize the 
issuance and use of permits that allow the import of polar bears 
legally harvested in Canada prior to February 18, 1997. As of May 15, 
2008, when the ESA listing took effect, except for those trophies that 
qualify under this grandfather clause, any permit previously issued 
under section 104(c)(5) could no longer be used to import a sport-
hunted polar bear trophy, and no new permits could be issued or 
additional imports allowed under that section.
Outreach to Polar Bear Hunters on the Potential Impact of an ESA 
        Listing
    Once the proposed rule to list the polar bear as threatened was 
published in January 2007, the Service conducted extensive outreach 
efforts on the potential impact of an ESA listing on the import of 
sport-hunted trophies. Hunters were advised that, although the Service 
was able to authorize the importation of polar bear trophies taken in 
Canada under the provisions of section 104(c)(5) of the MMPA while the 
species was proposed for listing, the Service would not be able to 
continue to authorize imports under this section of the MMPA if and 
when the listing became final. The Service wanted hunters to be fully 
aware of the fact that if the polar bear were listed, then hunters 
would no longer be able to import their sport-hunted trophies.
    Beginning in January 2008, the Service addressed a large number of 
telephone and e-mail communications on this issue, including inquiries 
from hunters, Canadian outfitters and taxidermists, and the media. The 
Service attempted to inform all potential applicants that a decision on 
the listing was imminent and that, if the species was listed, further 
imports would be prohibited. During the 2008 Convention of Safari Club 
International, the Service also provided information at the Convention 
regarding the impacts of a potential listing on the importation of 
sport-hunted polar bear trophies.
    Under the MMPA, the process for reviewing applications for the 
issuance of import permits requires publication of a notice of receipt 
of an application in the Federal Register and allowance of a 30-day 
public comment period. In addition, once a U.S. import permit is 
issued, the Canadian Management Authority must issue a CITES export 
permit. Given that the permitting process can take between 50 and 90 
days, the Service attempted to provide as much information as possible 
to potential hunters, as quickly as possible. The Service also worked 
closely with the Canadian CITES Management Authority to ensure 
permittees had accurate information about obtaining the required 
Canadian CITES export permit.
    On May 5, 2008, the Service attempted to contact those individuals 
who had already been issued a permit to import a trophy, but had not 
already done so, to inform them of a court decision and the potential 
that an ESA listing might go into effect on or before May 15. 
Permittees were informed that trophies must be imported before the 
listing's effective date.
Status of Pending Polar Bear Trophy Import Permit Applications
    On the day the polar bear was listed under the ESA, the Service had 
44 permit applications pending for which a final decision had not been 
made on whether or not to issue a permit. Notice of many of these 
applications had already been published in the Federal Register, but 
the required 30-day comment period was still open or just recently 
closed. Other applications had only recently been received and the 
notice had not yet been published in the Federal Register. In addition 
to these individuals, it is possible that other U.S. hunters had taken 
bears from an approved population prior to the listing date, but had 
not yet applied to the Service for the required import permits; in the 
absence of applications for them, the Service cannot state how many 
additional bears were taken by U.S. hunters prior to the effective date 
of the ESA listing.
    With the exception of one permit application that qualified for 
import under the grandfather clause, all applications that were 
received prior to the listing of the polar bear under the ESA were for 
bears taken from populations that had previously been approved for 
importation.
Conclusion
    In summary, prior to the listing of the polar bear under the ESA, 
the Service applied the provisions of the MMPA to allow the import of 
sport-hunted polar bear trophies legally harvested from approved 
populations in Canada. Following the ESA listing of the species, the 
Service has likewise adhered to the MMPA provisions thereby prohibiting 
additional imports of sport-hunted polar bear trophies from Canada.
    Madame Chairwoman and Members of the Subcommittee, thank you for 
the opportunity to testify on H.R. 1054. We look forward to continuing 
to work with the Subcommittee on this issue. I would be happy to answer 
any questions.
                                 ______
                                 

   Response to questions submitted for the record by Dr. Rowan Gould

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  One of the findings that must be made under section 104(c)(5)(A) of 
        the Marine Mammal Protection Act (MMPA) before the import of 
        polar bears from Canada can be authorized is that ``Canada has 
        a sport hunting program based on scientifically sound quotas 
        ensuring the maintenance of the affected population stock at a 
        sustainable level.''
    If polar bear stocks in Canada are declining for reasons 
independent of sport hunting, which appears to be the case for at least 
some of the approved populations, and these declines are expected to 
continue and worsen in the foreseeable future, how can the U.S. Fish 
and Wildlife Service (Service) support a determination that any 
additional removals from these populations are sustainable?
    With the listing of the polar bear under the Endangered Species Act 
(ESA), the status of the species changed to ``depleted'' under the 
Marine Mammal Protection Act (MMPA). As a depleted species, the 
provisions of section 104(c)(5)(A) can no longer be used to import 
sport hunted trophies. The Service, therefore, is no longer required to 
make the finding under section 104(c)(5)(A) of whether Canada has a 
sport hunting program that is based on scientifically sound quotas. If, 
in the future, there is a change in the MMPA that would allow trophies 
from a depleted population to be imported under section 104(c)(5)(A), 
the Service would need to re-evaluate its previous findings to 
determine how the ongoing and anticipated declines in polar bear 
populations are being addressed by the Canadian authorities in the 
development of hunting quotas.
2.  Section 104(c)(5)(C) of the MMPA directed the Service to conduct a 
        ``scientific review'' of the impact of allowing polar bear 
        imports from Canada within two years of enactment of the 1994 
        Amendments and to cease issuing such permits if the Service 
        determined that such a permit ``is having a significant adverse 
        impact on polar bear stocks. When it published regulations 
        implementing section 104(c)(5) in 1997, the Service indicated 
        that it would conduct this review once the regulations had been 
        in place for two years.
    Has the Service ever conducted such a review? If so, we would 
appreciate receiving a copy of the report. If not, does the agency ever 
intend to conduct the required review? Given that these polar bear 
populations are facing significant threats from climate change, 
wouldn't such a review would be particularly timely?
    The report, required under the MMPA, was intended to evaluate the 
impact of sport hunting on polar bear populations and, if the Service 
determines that there is an adverse impact, to suspend importations of 
hunting trophies. Prior to the ESA listing, the Service began the 
process of drafting a report. While an initial draft of the report was 
completed, the Service did not finalize it due to ongoing work on the 
review of populations from which polar bear trophies could be imported 
under 104(c)(5)(A). With the listing of the polar bear under the ESA 
and the subsequent change of the species status to ``depleted'' under 
the MMPA, the Service can no longer allow the import of trophies under 
section 104(c)(5)(A). Therefore, the value of completing the report is 
significantly reduced and for this reason, is a low priority for the 
FWS at this time. In addition, the evaluation that was conducted when 
considering whether the species should be listed has generated a 
significant volume of information that would need to be evaluated in 
light of the report's requirements. If, in the future, there is a 
change in the MMPA that would allow trophies from a depleted population 
to be imported under section 104(c)(5)(A), finalizing the report could 
become a higher priority. At that time, the Service would need to 
reconsider the draft report as written and incorporate the new 
information obtained during the listing process and most current 
information available, before the report could be finalized.

3.  If H.R. 1054 is enacted, this would be the second time that the 
statute has been amended to allow the importation of polar bear 
trophies from Canada that otherwise did not meet the requirements of 
section 104(c)(5) of the MMPA. Each time, the proponents of the 
legislation have argued that it does not make any difference from a 
conservation perspective because the bears are already dead. While this 
might be true at any given instant, doesn't passing these bills 
repeatedly give U.S. hunters an incentive to take additional bears 
despite import prohibitions with the expectation that they will be 
allowed to import their trophies at a later date, because it does not 
make any difference--the bears are already dead?

   What assurance do we have that if we allow the imports that would be 
approved by this bill, that other hunters will not be encouraged to 
engage in sport hunting in Canada despite the current import ban with 
the expectation that they will receive similar treatment in the future? 
Has the Service taken any actions to make it clear that additional 
imports would not be allowed or supported by the agency?

    The Service has repeatedly stated that with the listing of the 
polar bear under the ESA and the change in the status of the species 
under the MMPA, permits would not be issued for the importation of 
trophies that were taken on or after May 15, 2008. In addition, as 
indicated at the September 22 hearing, the Service does not support 
amending the MMPA to allow imports of polar bears from Canada other 
than those that were legally taken and for which a permit application 
had been submitted prior to May 15, 2008. The Service will continue to 
inform the public, in writing or in public forums like the Safari Club 
International annual convention, that permits cannot be issued for the 
import of trophies.
4.  The statutory deadline for publishing the final Endangered Species 
        Act (ESA) rule was January 9, 2008. Assuming that the Service 
        had made a final decision in accordance with the law and had 
        published the final rule on January 9, 2008, wouldn't the 
        typical thirty-day notice period have expired on February 10, 
        2008? Would all hunters have been required to import their 
        trophies by that date?
    Yes. If the Service had published a final rule listing the polar 
bear under the ESA on January 9, 2008, with an effective date of 
February 10, 2008, trophies would have had to be imported by February 
10, 2008 to be in compliance with the MMPA.
5.  On January 7, 2008 the Service announced that final rule would be 
        published no later than February 7, 2008. After failing to 
        comply with the statutory deadline, the Service then failed to 
        comply with the February deadline the agency itself had set. 
        How many of the 40+ permit applications that were pending on 
        the day the listing was finalized--May 15th--were submitted 
        after the February deadline for a listing decision that had 
        been set by the Service?
    All of the permit applications that were pending on the day the 
listing was finalized were received by the Service after February 7, 
2008.
6.  When Judge Wilken ordered the Department of Interior to publish the 
        final listing rule by May 15, 2008, she waived the thirty-day 
        notice or ``grace period'' under the Administrative Procedure 
        Act because, in her opinion, ``affected parties will have had 
        adequate notice that publication was forthcoming,'' 
        particularly given the Service's announcement on January 7, 
        2008 that a listing would be coming within 30 days. Do you 
        agree with the judge that affected parties had adequate notice? 
        If not, what more should the Service have done?
    The Service did not file any objection or appeal the judge's 
decision and, of course, complied with her decision. The Service made 
significant efforts to inform interested parties of the consequences of 
a listing decision, if the Service made such a determination, well in 
advance of the listing.
7.  According to your testimony, if the ESA listing had taken effect 30 
        days after the May 15, 2008 publication date, some of the 40+ 
        permit applications that were pending may have been approved 
        and the hunters may have had the opportunity to import their 
        trophies before the listing took effect. You also testified 
        that the permitting process can take between 50 and 90 days. 
        Given that time line, how many of the pending applications 
        could actually have been approved with an extra 30 days? Please 
        explain based on the dates that permits were submitted.
   For instance, would any permit applications submitted after April 
        28th--the date that the Court required you to make a final 
        decision by May 15th--have had enough time to be approved?
    If the ESA listing had taken effect 30 days after the May 15, 2008, 
publication date, the Service would have been able to issue 20 of the 
pending permits. Of these 20 permits, seven hunters would have had 
approximately three weeks to import their trophies; five hunters would 
have had about two weeks; and eight hunters would only have had two 
days to import their trophies. However, the issuance of a U.S. permit 
would not have guaranteed that the trophies could have been imported in 
time. In addition to the U.S. import permit, the hunters would also 
have had to have a valid Canadian Convention on International Trade in 
Endangered Species (CITES) export permit, which has taken up to six 
weeks to process. None of the permit applications submitted after April 
28, 2008, would have had time to be approved, and the trophies 
imported, with an extra 30 days.
8.  The Service administers several statutes that have bans on imports 
        under certain circumstances, such as the Lacey Act. Under those 
        statutes, doesn't the ban on imports generally apply regardless 
        of when the animal was killed?
    Yes, if there were a prohibition to import under a statute, the 
prohibition would not be affected based upon when the specimen was 
removed from the wild.
9.  Did the Service conduct outreach to individual hunters and the 
        hunting community to inform them about the possible ESA 
        listing? Please describe these efforts.
    Once the proposed rule to list the polar bear as threatened was 
published in January 2007, the Service conducted extensive outreach 
efforts on the potential impact of an ESA listing on the import of 
sport-hunted trophies. At the 2007 Convention of Safari Club 
International, hunters were advised that, although the Service was able 
to authorize the importation of polar bear trophies taken in Canada 
under the provisions of section 104(c)(5) of the MMPA while the species 
was proposed for listing, we would not be able to continue to authorize 
imports under this section of the MMPA if and when the listing became 
final. The Service wanted hunters to be aware of the risk that they 
would not be able to import their trophies if the polar bear was listed 
under the ESA.
    Beginning in January 2008, the Service received and responded to a 
large number of telephone and e-mail communications on this issue, 
including inquiries we received from hunters, Canadian outfitters and 
taxidermists, and the media. We informed potential applicants that a 
decision on the listing was probably imminent and that, if the species 
was listed, further imports could not be authorized under the MMPA. The 
Service also provided this outreach during the 2008 Convention of 
Safari Club International. Interested individuals, such as potential 
hunters and the media, were informed that under the MMPA, the process 
for reviewing applications for the issuance of import permits requires 
publication of a notice of receipt of an application in the Federal 
Register and allowing a 30-day public comment period. In addition, once 
a U.S. import permit is issued, the Canadian Management Authority must 
issue a CITES export permit. The permitting process can take between 50 
and 90 days, depending on whether any complications arise. Given these 
requirements, the Service provided as much information to potential 
hunters as possible, so that they would be aware of the possibility of 
being unable to import their trophies if and when the species became 
listed under the ESA. We also worked closely with the Canadian CITES 
Management Authority to ensure permittees had accurate information 
about obtaining the required Canadian CITES export permit.
10.  Was the process for this ESA listing longer than required by law, 
        even given the fact that there was no thirty-day notice period? 
        How much longer was the process to list the polar bear?
    The proposed rule to list the polar bear as a threatened species 
under the ESA was published in the Federal Register on January 9, 2007 
(72 FR 1064). The final rule to list the polar bear was published in 
the Federal Register on May 15, 2008 (73 FR 28212). The time to 
complete the final rule was a little over 16 months. The statutory time 
frame for completing a final rule under the ESA is 12 months. The polar 
bear final listing rule was delayed due to the complexity of the data 
and the analyses required to ensure that the ultimate decision was 
based on the best available scientific and commercial data. The time 
that it took to complete the final rule to list the polar bear was not 
influenced by the ultimate effective date of the rulemaking. The 
completion of the final rule and the resulting effective date were 
directed by a court order.
11.  If there are species listed under the ESA in other parts of the 
        world which sustain sport hunts, and for which trophies can be 
        imported into the U.S., are any of them also species protected 
        by the MMPA?
    Other trophy species listed under the ESA are not protected under 
the MMPA.
12.  During the September 22nd hearing, Representative Don Young stated 
        that ``Fifteen years ago there were 20,000 polar bears and now 
        there are 23,000.'' Is this correct? What is the official 
        estimate of the IUCN Polar Bear Specialist Group (PBSG)?
    The IUCN's Polar Bear Specialist Group (PBSG) reported a worldwide 
population of polar bears to be between 21,470 and 28,370 in 1993 
(Proceedings of the Eleventh Working Meeting of the IUCN/SSC Polar Bear 
Specialist Group, 1995), the current worldwide estimate reported by the 
PBSG is thought to be between 20,000 and 25,000 animals (http://
pbsg.npolar.no/en/status).
13.  Section 104(c)(5)(A)(i) of the MMPA requires the Service to find 
        that Canada's sport hunting program is consistent with the 
        Agreement on the Conservation of Polar Bears. Under Article III 
        of the Agreement, polar bears may be taken for various 
        purposes, including'' (d) by local people using traditional 
        methods in the exercise of their traditional rights and in 
        accordance with the laws of that Party,'' and ``(e) whenever 
        polar bears have or might have been subject to taking by 
        traditional means by its nationals.'' Upon signing the 
        Agreement, Canada issued a declaration stating that it 
        interpreted those provisions'' as permitting a token sports 
        hunt based on scientifically sound settlement quotas as an 
        exercise of the traditional rights of the local people.''
    In the final rule published in 1997, the Service declined to 
specify what portion of the overall hunt of polar bears in Canada it 
would consider to be a ``token'' sport hunt. The Subcommittee would 
appreciate having the following information so that we can make our own 
assessment of whether Canada is living up to its declaration that only 
a token sport hunt would be authorized.
    For each of the management units from which trophy imports have 
been approved by the Service under section 104(c)(5) of the MMPA, 
please provide the total number of polar bears taken by native or sport 
hunters during each calendar year since 1994, and the proportion that 
was taken by sport hunters.
    Currently, the Service does not have this information available in 
its files. The Canadian government, either at the Federal or Provincial 
level, would most likely collect this information as part of its 
management program. We have sent an inquiry to the Canadian authorities 
requesting this information, but have not received a response from them 
at this time.
Questions from Ranking Republican Member Henry E. Brown, Jr. (R-SC)
1.  Does the Service believe the Canadian government conducts a 
        scientifically sound polar bear management program?
    Under 104(c)(5)(A),the Service must determine that Canada has a 
sport hunting program that is based on scientifically sound quotas that 
ensures the maintenance of sustainable populations. With the listing, 
the Service is no longer issuing permits under this section and 
therefore does not need to make a determination on whether Canada has a 
scientifically sound polar bear management program. In the final ESA 
listing rule, the Service expressed some concerns about the current 
harvest levels for some polar bear populations, but found that the 
impacts from sport hunting or harvest were not threats to the species 
throughout its range. We concluded that, in general, national and local 
management regimes established for the sustainable harvest of polar 
bears are adequate. However, one concern with Canada's management 
program is the interval between surveys of each management unit, which 
is on the order of 15-20 years. The scientific soundness of the program 
could be undermined when it is based on dated information, particularly 
given the ongoing and predicted habitat changes, within the polar 
bear's range. We recognize that the management of polar bears in Canada 
is evolving and applaud them in their efforts in working with other 
range countries to address quota levels of shared stock.
2.  While the Marine Mammal Protection Act does not allow the Service 
        to use the import authority any more due to the ESA listing, 
        has that changed the status of any of the approved polar bear 
        populations in Canada? Are the 6 populations that were approved 
        populations prior to the May 15thlisting still considered to be 
        approved populations by the USFWS?
    The populations listed under the Service's regulations at 50 CFR 
18.30 are still approved populations under that section of our 
regulations. However, these regulations are not operative because 
section 104(c)(5)(A)of the MMPA is no longer available to allow for the 
import of sport hunted trophies from Canada.
3.  Did the Service at any time tell hunters that they should not go on 
        a hunt due to an imminent ESA listing?
    The Service did not explicitly tell U.S. hunters that they should 
not hunt bears in Canada. However, it did advise hunters of the risk 
that they might not be able to import those trophies into the United 
States. At the 2007 Convention of Safari Club International, hunters 
were advised that, although the Service was able to authorize the 
importation of polar bear trophies taken in Canada under the provisions 
of section 104(c)(5) of the MMPA while the species was proposed for 
listing, we would not be able to continue to authorize imports under 
this section of the MMPA if and when the listing became final. The 
Service wanted hunters to be aware of the risk that they would not be 
able to import their trophies if the polar bear was listed under the 
ESA.
    Beginning in January 2008, the Service informed potential 
applicants that a decision on the listing was imminent and that, if the 
species was listed, further imports could not be authorized under the 
MMPA. The Service also provided this outreach during the 2008 
Convention of Safari Club International. Interested individuals, such 
as potential hunters and the media, were informed that under the MMPA, 
the process for reviewing applications for the issuance of import 
permits requires publication of a notice of receipt of an application 
in the Federal Register and allowing a 30-day public comment period. In 
addition, once a U.S. import permit is issued, the Canadian Management 
Authority must issue a CITES export permit. The permitting process can 
take between 50 and 90 days, depending on whether any complications 
arise. Given these requirements, the Service provided as much 
information to potential hunters as possible, so that they would be 
aware of the possibility of being unable to import their trophies if 
and when the species became listed under the ESA. It was up to 
individual hunters to decide whether they would be able to complete the 
importation process before a listing went into effect.
4.  Does the Service agree with the other witness' testimony that the 
        hunters who took legal bears between January and May 15, 2008 
        were hunting in ``bad faith''?
    The Service does not take into consideration the motivations under 
which individuals choose to carry out personal hunts when considering 
import applications, including those motivations that led individuals 
to hunt in Canada between January and May 2008.
5.  What is the normal protocol for implementing an ESA listing? Is 
        there usually a 30 day, or longer, implementation delay prior 
        to the effective date of listings?
    The effective date of a final agency rulemaking is governed by the 
Congressional Review Act. Under this Act, a final rule becomes 
effective 30 days following delivery to Congress and the Government 
Accountability Office (GAO), unless otherwise noticed and explained in 
the final rule. As a practice, the Service indicates in its final rules 
that the effective date is 30 days following publication in the Federal 
Register, unless otherwise noticed and explained in the final rule. To 
ensure that we allow for the appropriate review time by Congress and 
GAO, we deliver the final rule to them in the time between delivery to 
the Federal Register for publication and publication itself. However, 
in the case of the polar bear final listing rule, the Service was 
directed by a court to publish the final rule by May 15,2008, and make 
the rule effective immediately, thereby eliminating the delay in making 
the final rule effective.
 6.  If it were not for the court order, which required an immediate 
        effective date of the listing, how long would the Fish and 
        Wildlife Service have given the hunters, who legally hunted a 
        polar bear prior to May 15th and applied for a permit, to bring 
        in their trophies?
    All trophies would have to be imported before the effective date of 
the ESA listing, whether the listing went into effect immediately upon 
publication or not. Even if the hunters had the required U.S. import 
permit and Canadian CITES export permit in hand, if the trophy was not 
imported before the effective date of the listing, the import would not 
have been allowed.
 7.  Are there species, listed as threatened under the ESA, in other 
        parts of the world which sustain sport hunts, where the 
        trophies can be imported into the U.S.?
    Under Section 9(c) of the ESA, any species that is listed as 
threatened under the ESA and Appendix II of CITES may be imported 
without an import permit being issued by the Service. While several 
species could fall under this section, the most common trophy species 
imported into the United States are red lechwe (Kobus leche), 
Hartmann's mountain zebra (Equus zebra hartmannae), and African 
elephants (Loxodonta Africana) from Botswana, Namibia, Zimbabwe, and 
South Africa (the Appendix-II populations). In addition, regulations 
promulgated under section 4 of the ESA (e.g., 'special rules'') allow 
for the importation of three other threatened species: argali (Ovis 
ammon) from Tajikistan, Mongolia, Kyrgyzstan; African elephant 
(Loxodonta africana) [Appendix I populations], and African leopard 
(Pantherapardus) from southern Africa.
 8.  While the polar bear is listed as depleted due to its threatened 
        status, is the world-wide polar bear population considered to 
        be below its optimum sustainable population level as defined in 
        the Marine Mammal Protection Act?
    The Service has not evaluated whether the world-wide polar bear 
population is considered to be below the ``optimum sustainable 
population'' (OSP) level as defined in the MMPA. The depleted status of 
a species under the MMPA can be established either by the species being 
listed under the ESA or if the species or population stock is 
determined to be below its OSP. Since the polar bear was listed under 
the ESA, the Service is not relying on an OSP determination to consider 
the species depleted under the MMPA.
    Additionally, Section 117 of the MMPA requires the Service and the 
National Marine Fisheries Service to prepare a Stock Assessment Report 
for each marine mammal stock that occurs in waters under U.S. 
jurisdiction. We recently made available draft reports for the southern 
Beaufort Sea polar bear stock and the Chukchi/Bering seas polar bear 
stock. The 90-day public comment period closed on September 16, 2009, 
and the Service is currently evaluating the comments that were 
received. Once the Service completes this evaluation we will make the 
final reports available.
 9.  Do you believe Traditional Native Knowledge is an integral part in 
        the management of polar bears?
    Yes. The Service recognizes the important role that Alaska Natives 
play in the conservation and management of polar bears and has worked 
consistently with this important stakeholder group to better understand 
the status of the species.
10.  Does the Fish and Wildlife Service have any polar bear trophies on 
        display in any of its buildings?
    The Service has seized unlawfully imported polar bear trophies, 
which were then forfeited to the U.S. government. Property of this type 
is typically retained by the Service for use in educating the public 
about wildlife conservation and illegal trade. As part of these 
educational efforts, polar bear trophies have been displayed in Service 
facilities. Based on the information provided by the Service's regions 
and programs, below is a list of the polar bear trophies on display in 
Service buildings. In addition, the Service has developed educational 
programs, such as Suitcase for Survival, that make polar bear parts and 
other wildlife products available to teachers, outreach specialists and 
similar professionals for use in teaching students and others about 
wildlife conservation.
    <bullet>  Full body upright polar bear mount on display at National 
Wildlife Visitor Center at Patuxent Research Refuge in Maryland.
    <bullet>  Polar bear rug on display 1-3 times a year at John Heinz 
National Wildlife Refuge at Tinicum in Pennsylvania.
    <bullet>  Polar bear mount on display at the Amherst, New York 
Office of Law Enforcement.
    <bullet>  Polar bear mount and polar bear rug on display in the 
Education Room at the National Wildlife Property Repository in Commerce 
City, Colorado.
11.  Please explain your specific concerns with H.R. 1054 and any 
        potential amendments that would make this bill acceptable to 
        the USFWS.
    As written, H.R. 1054 would allow any polar bear trophy legally 
hunted prior to the ESA listing from an approved population in Canada 
to be imported into the United States. As indicated in the Department's 
testimony, the Administration does not oppose legislation allowing 
those hunters who both applied for a permit and completed their legal 
hunt within an approved polar bear population prior to the ESA listing 
to import their polar bear trophies, provided that the hunter is 
required to submit proof that the bear was legally harvested in Canada 
from an approved population. The Department does not support any 
broader changes to the MMPA that would allow additional sport-hunted 
polar bear trophies to be imported beyond those where hunters submitted 
their import permit application and completed their hunt prior to the 
ESA listing. Therefore, the Department does not support H.R. 1054 as 
currently written because it would allow the import of polar bear 
trophies regardless of whether the hunter had applied for the permit 
prior to the ESA listing. The service looks forward to working with the 
Subcommittee on this issue.
12.  With your suggested amendments to H.R. 1054, is the Administration 
        willing to provide a SAP supporting the bill?
    As the Department stated in our testimony, the Administration does 
not oppose legislation allowing those hunters who both applied for a 
permit and completed their legal hunt of a polar bear from an approved 
population prior to the ESA listing to import their polar bear 
trophies, provided that the hunter is required to submit proof that the 
bear was legally harvested in Canada from an approved population prior 
to the effective date of the ESA listing. The Department does not 
support any broader changes to the MMPA that would allow additional 
sport-hunted polar bear trophies to be imported beyond those where 
hunters submitted their import permit application and completed their 
hunt prior to the ESA listing.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Gould, for your 
testimony.
    And now I would like to recognize Mr. Crystal. It is a 
pleasure to welcome you before the Subcommittee, and you are 
now recognized for five minutes.

           STATEMENT OF HOWARD M. CRYSTAL, PARTNER, 
                 MEYER GLITZENSTEIN AND CRYSTAL

    Mr. Crystal. Thank you, Chairwoman Bordallo and Members of 
the Subcommittee. Thank you for the opportunity to come this 
morning and testify on H.R. 1054.
    I am a partner at Meyer Glitzenstein and Crystal. My firm 
represents environmental and animal protection groups, and I am 
here this morning on behalf of the Humane Society of the United 
States, the International Fund for Animal Welfare and Defenders 
of Wildlife. These are groups that I represent in the pending 
litigation concerning the polar bear in Federal District Court.
    These groups represent millions of Americans who care about 
polar bears and other marine species, as well as the integrity 
of our nation's most vital animal and species protection 
statutes. The MMPA, the Marine Mammal Protection Act, and the 
ESA, the Endangered Species Act, are two such statutes. They 
were enacted decades ago to preserve and prevent the depletion 
and extinction of species like the polar bear. We oppose H.R. 
1054 because it sets a terrible precedent for these statutes, 
and it serves the interests of polar bear hunters at the 
expense of polar bear conservation.
    The principal argument you have heard today and will hear 
this morning is that those polar bears at issue are already 
dead and thus allowing their import will not harm any animals, 
let alone the species. This argument is flawed because the same 
is true of polar bears that were hunted after the species was 
listed under the ESA. The mere fact that the bears are already 
dead surely cannot justify this amendment.
    Limiting the scope of the amendment to polar bears killed 
before the species was listed or to hunters who had submitted 
their applications before the species was listed does not 
address this concern. In our view, the cutoff date for import 
permits should be the date of the listing when the expert 
agency designated the species as threatened under the ESA and 
it became a depleted species under the MMPA. Only that kind of 
bright line rule makes sense.
    The ban on imports is a principal conservation tool that 
the agencies use and that this country has to impact the 
treatment of species in other countries. We cannot prohibit the 
take of polar bears in other countries. We can, however, 
prohibit the import of species. The species was listed under 
the ESA as a threatened species. It is only appropriate now 
that we bring into effect the existing regulatory scheme which 
bans their imports.
    In addition, if we pick a different line and, as proposed 
by this amendment, allow imports, even though the species has 
already been listed, there is no reason that it will end here. 
As I mentioned, I represent groups in the pending litigation 
over the listing of the polar bear that is pending in Federal 
Court right now. Those groups are arguing that the species 
should not have been listed as a threatened species.
    If they lose those cases, then we may be here in the future 
over the question of whether or not, as a result of the species 
finally being settled as listed, people who killed polar bears 
in 2009 should be allowed to import their polar bears at that 
time. Again, the bright line rule should be when the species 
was listed, not some future date as is proposed here.
    In sum, we believe the only appropriate line to draw is the 
date of the listing and since the existing statutory scheme 
bans imports as of that date they should be prohibited 
regardless of when the polar bear was killed.
    Thank you for the opportunity to testify, and I am 
certainly going to answer any questions.
    [The prepared statement of Mr. Crystal follows:]

     Statement of Howard M. Crystal, Meyer Glitzenstein and Crystal

    I appreciate the opportunity to testify on H.R. 1053, which 
proposes an amendment to the Marine Mammal Protection Act (MMPA) of 
1972. I am a partner with the public-interest law firm Meyer 
Glitzenstein and Crystal, which has litigated cases on behalf of a wide 
range of national and grassroots conservation and animal protection 
organizations, including Sierra Club, Defenders of Wildlife 
(Defenders), Humane Society of the United States (HSUS), International 
Fund for Animal Welfare (IFAW), Ocean Conservancy, Center for 
Biological Diversity, and Save The Manatee Club. With regard to the 
conservation of the polar bear, we are representing IFAW, Defenders and 
HSUS in the Multi-District Litigation (MDL) currently pending before 
the federal district court for the District of Columbia. In that 
litigation the Safari Club International, Conservation Force, and 
others are asking the court to find that the Department of the 
Interior's Fish and Wildlife Service (FWS) may grant polar bear imports 
permits under the MMPA despite the agency's 2008 finding that the polar 
bear is a threatened species under the Endangered Species Act (ESA).
 THE MARINE MAMMAL PROTECTION ACT AND ITS RELATIONSHIP TO THE 
        ENDANGERED SPECIES ACT
    Before providing some comments on the Amendment proposed by 
Congressman Young, it is important to put the amendment into some 
historical context. In enacting the MMPA in 1972, the House of 
Representatives explained:
        Recent history indicates that man's impact upon marine mammals 
        has ranged from what might be termed malign neglect to virtual 
        genocide. These animals, including whales, porpoises, seals, 
        sea otters, polar bears, manatees and others, have only rarely 
        benefitted from our interest; they have been shot, blown up, 
        clubbed to death, run down by boats, poisoned, and exposed to a 
        multitude of other indignities, all in the interests of profit 
        or recreation, with little or no consideration of the potential 
        impact of these activities on the animal populations involved.
    H.R. Rep. No. 92-707 (1971). Based on these findings, and declaring 
that ``certain species and population stocks of marine mammals are, or 
may be, in danger of extinction or depletion as a result of man's 
activities,'' Congress passed the MMPA to ensure that these species 
``not be permitted to diminish beyond the point at which they cease to 
be a significant functioning element in the ecosystem of which they are 
a part.'' 16 U.S.C. Sec. 1361(1) and (2).
    To accomplish this objective, the MMPA imposes a moratorium on the 
taking and importation of marine mammals, id. Sec. 1371; see also id. 
Sec. 1372(b), and establishes a scheme under which these activities may 
be permitted by the agency. For the import of species such as the polar 
bear, the principal authority for the agency to issue such permits is a 
provision allowing imports ``for purposes of scientific research, 
public display, or enhancing the survival or recovery of'' the species. 
Id. Sec. 1371(c).
    In 1994, Congress amended the MMPA to permit the import of polar 
bear body parts taken in sport hunts in Canada where certain conditions 
are met, including the approval of hunting for certain polar bear 
populations. Pub. L. No. 103-238, Sec. 5 (1994).
    The MMPA also has always provided special protection for a species 
designated as ``depleted'' under the statute. 16 U.S.C. Sec. 1362(1). 
Of particular relevance here, MMPA Section 102(b) provides that, 
irrespective of the polar bear import provision or any other permit 
authority, once a species is designated as ``depleted'' import permits 
may only be issued ``for scientific research, or for enhancing the 
survival or recovery of a species or stock....'' Id. Sec. 1372(b)(3).
    The 1972 statute defined a ``depleted'' species, inter alia, as one 
that ``has declined to a significant degree over a period of years,'' 
or ``has otherwise declined and that if such decline continues...such 
species would be subject to the provisions of the'' ESA. See Pub. L. 
No. 92-522, Sec. 3(1). In 1981, that definition was expanded to include 
``any case in which...a species or population stock is listed as an 
endangered species or a threatened species under'' the ESA. Pub. L. No. 
97-58, Sec. 1 (1981) (emphasis added). As the House Report on this 
amendment explained, this change ``recognized that species that are 
listed under the Endangered Species Act are, a fortiori, not at their 
Optimum Sustainable Population and, therefore, should be considered 
depleted.'' H.R. Rep. No. 97-228, at 16 (1981).
THE 2009 AMENDMENT
    In May 2008 the FWS listed the polar bear as a threatened species 
under the ESA throughout its range. 73 Fed. Reg. 28,212 (May 15, 2008). 
In listing the species the Service explained that, prior to 1973, the 
polar bear was declining due to ``severe overharvest'' that occurred in 
light of ``the economic or trophy value of their pelts.'' Id. at 
28,238. While the subsequent cessation in large-scale hunting provided 
some protection to the species, the Service found that other threats 
have continued to cause population declines, including climate change-
induced reductions in sea ice; reduced prey availability; and continued 
overharvest in certain areas. Id. at 28,255-28,292. In light of these 
threats, the Service concluded that the polar bear is likely to become 
an endangered species ``within the foreseeable future,'' and 
consequently listed the species as threatened under the ESA. Id. at 
28,238. Moreover, while the agency has the authority under certain 
circumstances to limit a species' protection to certain discrete 
portions of its range, the FWS determined that the species was 
threatened throughout its range, including the polar bear populations 
in Canada.
    Pursuant to MMPA Section 3(1), by virtue of the ESA listing the 
polar bear became a ``depleted'' species under the MMPA. 16 U.S.C. 
Sec. 1362(1). This, in turn, triggered MMPA Section 102(b)'s 
proscription on polar bear import permits, limiting them to those 
issued for scientific research or enhancement of survival purposes. Id. 
Sec. 1372(b). Accordingly, because the species is threatened with 
extinction, the FWS may no longer allow trophy hunters to kill polar 
bears in Canada and import their body parts into the United States.
    The proposed amendment would circumvent this existing regulatory 
scheme, authorizing the FWS to issue import permits for polar bears 
killed from previously approved populations in Canada up until the date 
the species was listed under the ESA. The amendment should be rejected 
for both legal and policy reasons.
    The amendment fundamentally undermines the critical relationship 
between the protections that species presently receive under the ESA 
and the MMPA. Under the MMPA, Congress recognized that a species may be 
``depleted''--thereby warranting a ban on imports--even before it 
becomes so imperiled that it requires listing under the ESA. Indeed, a 
species can be designated as depleted simply because it is below its 
``optimum sustainable population,'' 16 U.S.C. Sec. 1362(1)(A)--which is 
the ``number of animals that will result in the maximum productivity of 
the population or the species.'' Id. Sec. 1362(9) (emphasis added).
    Under this amendment, however, although the polar bear is now 
listed under the ESA, it will not be uniformly treated as depleted 
under the MMPA. Instead, the FWS will continue to allow certain 
recreational hunters to import their polar bear trophies into this 
country.
    The fact that the amendment is limited to those polar bears killed 
before the species was listed does not change this fact. The ban on 
imports of imperiled species is a critical tool by which the United 
States can impact the treatment of those species in other countries. 
Certainly, hunters who wish to bring their trophies into this country 
will have significantly less incentive to participate in a sport hunt 
if that import is prohibited. The import ban also sends an important 
signal to our conservation partners in other countries, helping to 
generate efforts that might improve the species' status so that imports 
may once again be permitted.
    Allowing continued imports of polar bears, by contrast, sends 
exactly the wrong signal. The polar bear has become a poster child for 
species' conservation in a world rapidly changing due to human impacts. 
To allow sport-hunters to bring polar bear body parts into this country 
after the expert agency has decided that the species is threatened with 
extinction broadcasts that the protection of the species is not that 
important, and that the interests of sport-hunting take precedence over 
the interests of the long-term protection of the polar bear.
    In this regard, it is also critical to recognize that nothing 
dramatic happened to the polar bear's on-the-ground condition in May 
2008. The species was not imperiled the day after the listing, but in 
fine health the day before. Instead, as the Service recognized in 
listing the species, the polar bear faces ongoing and long-term threats 
to its existence. Therefore, from a conservation perspective there is 
no principled basis to distinguish between polar bears killed before 
the listing and those killed afterwards. In short, now that the species 
is listed imports of trophies should be prohibited, regardless of when 
the species was killed.
    The fact that the listing became effective on the date it was 
published in the Federal Register, and not after a thirty day ``grace 
period'' as is often the case, also does not support allowing imports 
of sport-hunting trophies after the species was listed. As a federal 
district court judge explained when she rejected the sport-hunter's 
argument that a special exception should be made for hunters who had 
submitted import applications for bears killed prior to the listing, 
sport-hunters ``assumed the risk that they would be unable to import 
their trophies'' when they chose to engage in sport-hunting despite the 
fact that the species was under consideration for listing under the 
ESA. Center for Biological Diversity v. Kempthorne, No. 08-1339 (N.D. 
Cal. July 11, 2008). Moreover, most, if not all, of the hunters who 
submitted import applications before the listing could not have 
obtained an import permit within the grace period in any event, given 
the notice and comment process involved in obtaining such a permit.
    It is also crucial to appreciate that this amendment is a stark 
departure from earlier amendments allowing these imports. While 
Congress has twice amended the statute to allow imports of polar bears 
killed years earlier, at neither time was the species listed under the 
ESA and depleted under the MMPA. Moreover, while hunters certainly knew 
the species was likely to be listed--therefore banning imports--this 
amendment would allow hunters who killed a polar bear just weeks, or 
even days, before the listing to bring their trophies into this 
country. Congress should not support the perverse incentives created by 
such an approach. Indeed, particularly if Congress passes this 
amendment, hunters will assume that if they continue to hunt polar 
bears in Canada despite the ESA listing, provisions will be made to 
allow their importation in the future.
    This brings me to the pending litigation. The ESA listing is 
presently being challenged in multiple lawsuits pending in federal 
court for the District of Columbia, including by sport-hunting groups. 
This litigation is yet another reason that the proposed amendment is 
both ill-conceived and ill-timed.
    If Congress passes this amendment, and then the plaintiffs lose the 
pending litigation and the court upholds the listing, we could well be 
here again in a few years. At that time, sport-hunters might seek an 
amendment allowing the import of trophies for polar bears killed before 
the judicial opinion was issued. Their argument then, much like their 
argument now, would be that when they went on their hunts in 2009, the 
species' status was ``uncertain'' because of the litigation. Because 
they believed the listing should and would be set aside, they would 
argue, they should not be penalized by not allowing their trophies to 
be imported. Moreover, they would also argue, since the polar bears 
killed in 2009 are already dead, allowing their import would not impact 
the conservation of the species. The fact that passing the amendment 
today allows that argument in the future simply highlights why the 
amendment makes no sense now, just as it will make no sense then. In 
short, the only reasonable line to draw for imports is the one already 
drawn by the existing regulatory scheme: banning sport-hunted imports 
at the time the species is listed.
    Finally, if the sport-hunting groups prevail in the current 
litigation, the amendment under consideration today would not be 
necessary. If the species were no longer listed as threatened, it would 
no longer be designated as depleted, and the original polar bear import 
provision would go back into effect, barring some other legislative 
development.
    Alternatively, the sport-hunting groups are also arguing to the 
court that the polar bear import provision remains in effect despite 
the listing. If they prevail on this alternative argument, imports 
would once again be permitted on that basis. In light of these 
possibilities, it is at the very least premature for Congress to 
consider this amendment at this time.
CONCLUSION
    Through the interplay between the ESA and the MMPA, Congress has 
already struck a balance between the conservation needs of marine 
species such as the polar bear and the other interests, including those 
of sport-hunters. We urge Congress not to upset that balance by 
permitting sport-hunters who have gone to Canada to kill polar bears to 
continue to import their body parts into this country, despite the fact 
that the FWS has determined that the species is threatened with 
extinction throughout its range, including Canada. Thank you for the 
opportunity to submit these comments.
                                 ______
                                 

 Response to questions submitted for the record by Howard M. Crystal, 
                     Meyer Glitzenstein and Crystal

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  If we were to enact H.R. 1054, how would that affect the 
        relationship between the ESA and the MMPA?
    Enacting H.R. 1054 would undermine the relationship between the two 
statutes, because it would allow the import of species that have been 
listed under the ESA. At present, once a species is listed under the 
ESA it is designated as ``depleted'' under the MMPA, which brings the 
import ban into effect. Enacting H.R. 1054 will create a loophole 
whereby ESA listed species can be imported under the MMPA, even though, 
by virtue of the ESA listing they have become designated as 
``depleted'' under the MMPA.
2.  In your testimony you state that the ban on imports of imperiled 
        species is a critical tool by which the United States can 
        impact the treatment of those species in other countries. Would 
        you please expand upon that comment?
    Contrary to the premise of several of the questions I was asked at 
the hearing, U.S. law does not govern the activities of individuals in 
other countries, including Canada. If a U.S. citizen travels to Canada 
and kills a polar bear, he is breaking no U.S. law, regardless of the 
species' status under the MMPA and the ESA. That is why the question 
whether the hunters who will benefit from H.R. 1054 violated any laws 
in killing polar bears is a non-sequitur: it violated no U.S. law to 
kill those bears when they died before the species was listed, and it 
violates no U.S. law to kill a polar bear in Canada today.
    It is precisely for this reason that the power of the U.S. to 
prohibit the import of species into this country is so important. As a 
threshold matter, U.S. hunters are much less likely to participate in a 
polar bear hunt in Canada if importing their trophy is prohibited. But 
even beyond that, an import ban also sends an important signal to our 
conservation partners in other countries concerning the plight of a 
species and our Nation's commitment to assist the species' survival and 
recovery--which in turn can generate concrete efforts to improve the 
species' status so that imports may once again be permitted.
    Allowing trophy imports of an ESA-listed species, by contrast, 
sends exactly the wrong signal, broadcasting to our conservation 
partners that, despite the ESA listing, the protection of the polar 
bear is not that important to the U.S., and that the interests of 
sport-hunting take precedence over the interests of the long-term 
protection of the polar bear.
3.  Dr. Moritz testified that the 40+ permit holders in question ``lost 
        the ability to import their personal property due to the 
        arbitrary decision of the federal government, and this bill 
        will do one thing...provide relief from this taking.'' Do you 
        agree with this statement?
    No I do not, because it is based on several false premises. First, 
while the polar bears killed in Canada may be the personal property of 
the hunters, there is no principle in domestic or international law 
suggesting that being denied the right to import something constitutes 
an unlawful taking of property. The U.S. bans all sorts of products and 
items from import, and certainly those bans are not unlawful or 
inappropriate simply because the importer owns the property. Indeed, 
states ban imports of certain materials--such as non-native fruits--and 
certainly may do so without any takings issue.
    Second, there is nothing arbitrary about either the decision to 
protect the polar bear under the ESA, or the import ban that is in 
effect under the MMPA as a result of the listing. In any event, the 
legality of the listing and import ban are presently pending before a 
federal court, and thus, at minimum, if the alleged ``arbitrary'' 
listing is the basis for H.R. 1054, at the very least Congress should 
await resolution of the litigation before deciding whether to enact a 
large loophole in the existing regulatory scheme for the polar bear.

4.  Is a federal administrative action considered a taking if the 
affected party had full knowledge of the pending regulatory change?

    As explained in my answer to question 3, such action is not a 
``taking'' regardless of the affected parties' knowledge, so long as 
there is a reasonable basis for the underlying regulatory change, as 
there certainly is here. However, I do agree that the fact that all of 
the hunters were well aware of the possibility that the polar bear 
would be listed--and thus that imports would be banned--further 
demonstrates that they have no basis to complain about being treated 
unfairly. They hunted a polar bear at the risk that the import would be 
prohibited, and nothing about their conduct justifies the special 
treatment they seek with H.R. 1054.
5.  Some argue that since these 40+ bears are already dead, we should 
        just let them be imported. What did you mean when you testified 
        that from a conservation perspective, there is no principled 
        basis to distinguish between polar bears killed before the 
        listing and those killed afterwards?
    As I mentioned above, under U.S. law the legality of killing polar 
bears in Canada did not change with the ESA listing. Only the legality 
of importing trophies changed. Therefore the proponents' claim that 
H.R. 1054 is appropriately limited to polar bears killed before the ESA 
listing is another red herring, for, from a conservation perspective, 
those bears are just as valuable as the many bears that were killed 
after the species was listed. In other words, if the fact that the 40+ 
bears at issue are already dead justifies their import, then no import 
permit should ever be denied, because in all cases the polar bear for 
which the import is sought will already be dead.
6.  You testified that allowing these imports will set bad precedents 
        and provide incentives for more bears to be killed despite the 
        ESA listing and the MMPA designation as depleted. Can you 
        elaborate on this, particularly in light of the many pending 
        lawsuits?
    If this bill passes, U.S. hunters will know that they can travel to 
Canada and kill polar bears, after which Congress will provide a 
special exemption allowing them to import their trophies. Indeed, the 
primary argument the hunters are making here is that they should not be 
punished for the uncertainty that surrounded the species' conservation 
status prior to the listing. But the listing remains somewhat uncertain 
due to the pending litigation. Therefore, if Congress passes H.R. 1054 
we may be considering another loophole next year when the litigation is 
resolved. Such a bill would consider whether hunters who killed polar 
bears in early 2010 may import their trophies, since, they will claim, 
they had assumed the Court would set aside the listing, and it is only 
once the litigation was resolved that the import ban became ``final,'' 
in their view. The very fact that those hunters can make exactly the 
same arguments then as these hunters can make now highlights the bad 
precedent that would be set by passing this bill.
7.  Following up on that point, do you think H.R. 1054 could have 
        implications for other laws enforced by the Service?
    I do think that H.R. 1054 will undermine the Service's ability to 
enforce laws designed to protect international wildlife. Again, 
protection of species in other countries depends critically on those 
countries' commitment and participation in conservation efforts. If the 
U.S. is in the business of creating special exemptions for sport-
hunters, I think that will seriously undermine our credibility with 
other nations, and therefore our ability to protect species in those 
countries.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Crystal, for your 
analysis of this bill's legal impact.
    And now I would like to recognize Mr. Markarian. Would you 
please begin your testimony?

STATEMENT OF MICHAEL MARKARIAN, CHIEF OPERATING OFFICER, HUMANE 
                  SOCIETY OF THE UNITED STATES

    Mr. Markarian. Madam Chairwoman, Members of the 
Subcommittee, thank you for the opportunity to be here today. 
Madam Chairwoman, I would specifically like to thank you for 
your tremendous leadership on wildlife issues and all the good 
work done by your Subcommittee this year.
    The Humane Society of the United States, on behalf of its 
11 million supporters across the country, strongly opposes H.R. 
1054. We believe this legislation is misguided and would roll 
back polar bear conservation efforts and set a dangerous 
precedent for gutting the protections provided under the Marine 
Mammal Protection Act and the Endangered Species Act.
    We have submitted written testimony, but I want to limit my 
verbal remarks to a couple narrow issues, and one which we 
believe is an important factor in this debate is that the 
hunters who are seeking to import their trophies, the 40 or 41 
individuals, had adequate notice for about 16 months that this 
listing was pending and the hunters were well aware of the 
risks of spending their own dollars to engage in these hunts, 
and they were well aware that there was a chance they would not 
be able to import their trophies. They took that risk. It was 
their own choice.
    As we heard, the Service proposed to list the polar bear in 
January 2007. The listing became final in May of 2008, so that 
is a 16 month period where trophy hunters who were interested 
in seeking a polar bear knew that this was a potential. They 
knew what risk they were taking when they decided to travel 
north and spend their own money to hunt polar bears.
    It wasn't just the U.S. Fish and Wildlife Service that was 
advising hunters of this proposed listing; it was the hunting 
groups themselves. The largest hunting organizations for months 
were warning their members that this was coming down the pike. 
The Conservation Force organization in its December 2007 
newsletter stated:
    ``American hunters are asking us whether they should even 
look at polar bear hunts in light of the current effort by the 
U.S. Fish and Wildlife Service to list the species as 
threatened. The listing, you will recall, will trigger 
provisions in the Marine Mammal Protection Act banning all 
polar bear trophy imports to the U.S. The bottom line is no 
American hunter should be putting hard, nonreturnable money 
down on a polar bear hunt at this point.''
    The following month they repeated the warning to their 
members. ``We feel compelled to tell you that American trophy 
hunters are likely to be barred from importing bears they take 
this season.'' And then in March of 2008 they repeated the 
stern warnings once again. ``Make no mistake, there is still a 
real possibility the polar bear is going to be listed.'' And 
then a month later in April they repeated the warning. ``No 
already permitted bears would be allowed into the U.S. after 
May 15.'' End of story.
    It went on and on and on. The Safari Club International 
warned its members as well. ``If some or all of the polar bear 
populations are listed, the FWS has indicated that imports of 
trophies from any listed populations would be barred as of that 
date regardless of where in the process the application is.''
    Hunters heard from Conservation Force, they heard from 
Safari Club International, they heard from the U.S. Sportsmen's 
Alliance that this was likely to occur, so they should not have 
been surprised. Madam Chairwoman, we are going to submit these 
newsletters for the record so that the Subcommittee has them.
    The U.S. Fish and Wildlife Service was warning hunters. 
They attended the Safari Club International convention in 2007 
and then again in 2008 to talk to hunters about the proposed 
listing and to let them know what was happening in the process, 
so no one can claim that they were not warned, that they were 
surprised by this listing in May of 2008, because they had been 
hearing about it for 16 months.
    Madam Chairwoman, I think the best indicator was the surge 
in polar bear trophy imports that occurred in 2007 because most 
hunters knew what was coming, and in 2007 we saw 112 polar bear 
trophies imported, more than a doubling of the previous year's 
number, which was 52, and the year before that, which was 60, 
so most hunters knew what was at stake. They knew what they had 
to do.
    Now, we may say it is problematic when a species is merely 
proposed for listing under the Endangered Species Act that all 
of a sudden there is a surge in killing that species, but that 
is what the hunters were expected to do. They knew what they 
had to do in order to get in early, get in their polar bear 
hunt, get under the wire and make sure that their trophy was 
imported.
    For the 41 individuals who are now claiming that they are 
seeking relief from Congress, it is really just the result of 
poor planning on their part, and we should not allow the 
Endangered Species Act and the Marine Mammal Protection Act 
protections to be weakened just because a few dozen individuals 
did not plan properly.
    So we oppose this legislation. We strongly urge the 
Subcommittee to reject it, and we thank you for your time.
    [The prepared statement of Mr. Markarian follows:]

       Statement of Michael Markarian, Chief Operating Officer, 
         The Humane Society of the United States, on H.R. 1054

    I am Michael Markarian, chief operating officer of The Humane 
Society of the United States, and I want to thank you, Chairwoman 
Bordallo, and members of the Subcommittee for the opportunity to 
testify in opposition to H.R. 1054, a bill to amend the Marine Mammal 
Protection Act of 1972 to allow importation of certain polar bear 
trophies taken in sport hunts in Canada. On behalf of The HSUS, the 
nation's largest animal protection organization, and our more than 11 
million supporters, we strongly oppose this legislation, which would 
roll back polar bear conservation efforts and set a dangerous precedent 
for gutting the protections provided under the Marine Mammal Protection 
Act and the Endangered Species Act.
Overview of the Threats to Polar Bears
    The polar bear has been protected in the U.S. since 1972, when the 
Marine Mammal Protection Act (MMPA) was passed, which prohibited the 
killing of and trade in all marine mammals, including the hunting or 
importation of sport-hunted polar bears. Unfortunately, in 1994 the 
trophy hunting lobby tore a loophole in the MMPA, allowing more than 
900 sport-hunted polar bear trophies to be imported into the U.S. from 
Canada since 1997.
    In May 2008, the polar bear was listed as ``threatened'' under the 
Endangered Species Act (ESA) and from that point on the MMPA prohibited 
all importation of sport-hunted polar bears into the U.S., as polar 
bears are now considered ``depleted'' under that statute. These bears 
are under serious threat from global climate change and should not be 
forced to contend with systematic pressure from trophy hunters to roll 
back long-sought protections.
Melting Sea Ice
    A decline in polar bear numbers in recent years has been linked to 
the retreat of sea ice--a critical hunting ground for polar bears--and 
its formation later in the year. Warming temperatures also break up sea 
ice earlier, and this trend is expected to continue. The Arctic Climate 
Impact Assessment reported in 2004 that the covering of summer ice in 
the Arctic has shrunk by 15 to 20 percent in the past 30 years and that 
decline is expected to accelerate. Further predicted reductions of 10 
to 15 percent of annual sea ice and 50 to 100 percent of summer sea ice 
in the next 50 to 100 years present a considerable threat to the 
species.
    Melting ice has forced bears to swim longer distances to obtain 
food, which may exhaust them, leading to drowning, and it has resulted 
in a decreased prey base. Polar bears have been forced ashore before 
they have had time to build up sufficient fat stores, resulting in 
thinner, stressed bears, decreased reproductive rates, and lower 
juvenile survival rates.
    Some scientists believe that in five years the Arctic may be ice 
free during the summer.
Pollutants
    The Arctic is also considered a ``sink'' for environmental 
contaminants, including heavy metals and organochlorines, which are 
carried northward in rivers, oceans and air currents. These toxins are 
accumulated at higher levels along the food chain and researchers have 
found high levels of pollutants in polar bears, which can severely 
compromise the animals' health and reproductive capacity. The lead 
author of a study recently published in the Journal of Zoology, which 
details the problem of polar bears becoming smaller due to these 
environmental threats, stated that polar bear is ``one of the most 
contaminated individuals in the world.''
Starvation and Cannibalism
    There are increasing reports of starving polar bears in the Arctic 
attacking and feeding on one another. In 2006, a new study by American 
and Canadian scientists reviewed three examples of polar bears preying 
on each other. One incident was documented in 2004 in Alaska, in which 
a male polar bear broke into the den of a female polar bear and killed 
her shortly after she gave birth. During 24 years of research in 
northern Alaska's southern Beaufort Sea region and 34 years in 
northwest Canada, the researchers had never before seen incidents of 
polar bears stalking, killing and eating other polar bears. One of the 
researchers stated, ``It's very important new information. It shows in 
a really graphic way how severe the problem of global warming is for 
polar bears.''
Population Declines
    The over-hunting of adult polar bears can cause a catastrophic 
crash in their population. Well over half of the polar bear populations 
are either of unknown, severely reduced, or declining status. The 
International Union for Conservation of Nature (IUCN) Red List of 
Threatened Species cites ``a potential risk of over-harvest due to 
increased quotas, excessive quotas or no quotas in Canada and Greenland 
and poaching in Russia.'' According to the results of a 2009 meeting of 
the Polar Bear Specialist Group, part of the IUCN, of the 19 discrete 
polar bear populations worldwide, only one, in the Canadian high 
Arctic, is increasing, while eight are declining. Three populations 
appeared to be stable, while seven are too poorly monitored to know 
their status. The previous meeting in 2005 concluded that only five 
populations were in decline at that time.
    According to the U.S. Geological Survey, the world's population of 
20,000 to 25,000 polar bears will decline sharply as their habitat 
continues to shrink. As their habitat melts, polar bears will struggle, 
lead shorter lives, produce fewer or no offspring, and the survival 
rate of their offspring will be reduced. Steven Amstrup of the USGS 
stated, ``Our results have demonstrated that as the sea ice goes, so 
goes the polar bear.'' He stated that polar bears in their southern 
range will die off first as sea ice melts, as they are forced to come 
ashore earlier in the year, facing food shortages before they have 
stored enough fat to last through the season.
Hunters Were Well Aware of the Risks to Trophy Imports
    The trophy hunters who claim they were harmed by the threatened 
listing had sufficient warning that the polar bear might be listed and 
that their trophy import applications might be denied. The U.S. Fish 
and Wildlife Service (USFWS) proposed to list the polar bear in January 
2007, triggering an ESA requirement that the USFWS finalize the listing 
by January 2008--and the entire process was highly publicized. The 
actual listing did not occur until months later, in May 2008.
    In fact, most if not all of the 41 polar bear trophies that would 
be affected by H.R. 1054 were shot in bad faith, since the dates of the 
sport hunts occurred in late 2007 or early 2008--after the agency and 
hunting groups provided ample warning that trophy imports might soon be 
barred.
Case Pending in Federal Court
    This very issue of whether to allow sport-hunted polar bear trophy 
imports has been raised and is now being considered by a federal court. 
In 2008, as part of the litigation over USFWS's listing decision, 
several hunting groups asked a federal court to order the USFWS to 
allow the importation of trophies of bears killed prior to the ESA 
listing. Judge Wilken of the Northern District of California denied the 
request on procedural grounds. Judge Wilken specifically noted that 
hunters had fair warning of the impending ESA listing and ``assumed the 
risk...they would be unable to import their trophies'' by continuing 
with their hunts. The same issue is now before the D.C. District Court.
    The USFWS, under the Bush Administration, argued strongly in court 
against requiring the agency to allow polar bear imports. The 
government responded to the hunters' request by noting that allowing 
importation would severely undermine current MMPA provisions. The MMPA 
specifically prohibits the importation of any ``depleted'' animal, 
regardless of when the animal was taken.
    The government's brief in the case noted, ``As a result of the 
polar bear's depleted status under the MMPA, no importation of polar 
bear trophies from Canada is permitted...The Court should decline to 
order Defendants to grant special permission for the import of polar 
bear trophies...''
    The agency added, ``Therefore, when [the USFWS] issued the final 
rule listing the polar bear as threatened under the ESA with an 
immediate effective date, the polar bear automatically gained depleted 
status under the MMPA as of May 15, 2008. Because the polar bear now 
has depleted status under the MMPA, the statute specifically precludes 
importation of polar bears or polar bear parts except for scientific 
research purposes, photography for educational or commercial purposes, 
or enhancing the survival or recovery of the species. See id. 
Sec. 1371(a)(3)(B). Importation of sport-hunted trophies under Section 
1374(c)(5) is not included in the list of allowable exceptions.''
    The USFWS also noted that allowing the importation of sport-hunted 
polar bear trophies from Canada ``would be inappropriate'' because the 
agency would have to go back and process applications for some pre-
listing trophies, which ``would be burdensome for [the agency], and 
confusing for the regulated community.'' Further, the USFWS explained 
that, in order to allow importation, the agency would have to withdraw 
and amend the listing rule, which ``would be inequitable'' given the 
substantial time and resources the agency spent finalizing the rule. If 
H.R. 1054 is enacted, the USFWS may indeed need to amend the listing 
rule to clarify the status of polar bear trophies killed prior to 
listing, requiring yet more agency resources.
Repeated Warnings by Hunting Groups
    Even the largest hunting organizations warned their members 
repeatedly, ensuring that trophy hunters who shot polar bears prior to 
their listing under the ESA were given more than sufficient notice 
about the impending listing. Conservation Force, a group leading the 
campaign to allow the importation of additional sport-hunted polar bear 
trophies into the U.S., repeatedly issued stern, unambiguous warnings 
to its members. In the group's December 2007 newsletter, which was e-
mailed to members in November, nearly six months before the species was 
listed, it stated:
    ``American hunters are asking us whether they should even look at 
polar bear hunts in light of the current effort by the U.S. Fish & 
Wildlife Service to list this species as threatened. The listing, 
you'll recall, will trigger provisions in the Marine Mammal Protection 
Act banning all polar bear trophy imports to the US,'' and that even 
though it was unclear what the final outcome would be, ``[t]he bottom 
line is, no American hunter should be putting hard, non-returnable 
money down on a polar bear hunt at this point. Also, Americans with 
polar bear trophies still in Canada need to get them home soon or risk 
losing them...the threat to polar bear hunting is real and imminent.'' 
<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Conservation Force. ``The Hunting Report'' Newsletter. December 
2007. Volume 27, Number 12. Page 9.
---------------------------------------------------------------------------
    In Conservation Force's newsletter the following month, members 
were adamantly warned: ``It may be the end of the world as we know it'' 
and ``the end of the modern world in which we live.'' <SUP>2</SUP> 
Members were also warned that ``we feel compelled to tell you that 
American trophy hunters are likely to be barred from importing bears 
they take this season. Moreover, there is a chance that bears taken 
previous to this season may be barred as well. American clients with 
polar bear trophies still in Canada or Nunavut need to get those bears 
home.'' <SUP>3</SUP>
---------------------------------------------------------------------------
    \2\ Conservation Force. ``The Hunting Report'' Bulletin. January 
2008. Volume 28, Number 1. Page 2.
    \3\ Conservation Force. ``The Hunting Report'' Extra Bulletin. 
January 9, 2008.
---------------------------------------------------------------------------
    In March, Conservation Force warned its members: ``Make no 
mistake...there is still a real possibility the polar bear is going to 
be listed.'' <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Conservation Force. ``The Hunting Report'' Extra Bulletin. 
March 6, 2008.
---------------------------------------------------------------------------
    In April, Conservation Force told its members, ``Many hunters have 
forgone their hunts rather than risk that the bear may be listed and 
trophy imports will probably be prohibited to all hunters who don't 
have a permit in hand before the effective date of the final listing 
rule.'' <SUP>5</SUP> In a bulletin titled ``Grim News For Polar Bear 
Hunters,'' Conservation Force stated that ``[t]he bottom line here is, 
the service is widely expected to list some or all of the polar bear 
populations as threatened next month, and that will stop all imports of 
those listed immediately.'' After Conservation Force personally called 
the USFWS, it was confirmed that ``No already-permitted bears would be 
allowed into the U.S. after May 15. End of story. As for unpermitted 
bears, the news was even more bleak. At this point, there was no time 
to even get a permit.'' <SUP>6</SUP>
---------------------------------------------------------------------------
    \5\ Conservation Force. ``The Hunting Report'' Bulletin. April 
2008. Volume 28, Number 4. Page 1.
    \6\ Conservation Force. ``The Hunting Report'' Extra Bulletin. 
April 29, 2008.y
---------------------------------------------------------------------------
    Safari Club International members were informed about the potential 
listing in no less than eight different newsletters sent from the 
organization, 
<SUP>7</SUP><SUP>,</SUP><SUP>8</SUP><SUP>,</SUP><SUP>9</SUP><SUP>,</SUP>
<SUP>10</SUP><SUP>,</SUP><SUP>11</SUP><SUP>,</SUP><SUP>12</SUP><SUP>,</SUP>
<SUP>13</SUP> including one that stated, ``If some or all of the polar 
bear populations are listed, the FWS has indicated that imports of 
trophies from any listed populations would be barred as of that date, 
regardless of where in the process the application is.'' <SUP>14</SUP> 
The U.S. Sportsmen's Alliance also informed its members in at least one 
of its newsletters. <SUP>15</SUP>
---------------------------------------------------------------------------
    \7\ Safari Club International. ``SCI Action Alert'' E-mail. 
September 21, 2007.
    \8\ Safari Club International. ``In the Crosshairs'' E-mail 
bulletin. October 4, 2007.
    \9\ Safari Club International. ``In the Crosshairs'' E-mail 
bulletin. October 19, 2007.
    \10\ Safari Club International. ``In the Crosshairs'' E-mail 
bulletin. October 23, 2007.
    \11\ Safari Club International. ``In the Crosshairs'' E-mail 
bulletin. January 7, 2008.
    \12\ Safari Club International. ``In the Crosshairs'' E-mail 
bulletin. February 22, 2008.
    \13\ Safari Club International. ``In the Crosshairs'' E-mail 
bulletin. April 17, 2008.
    \14\ Safari Club International. ``In the Crosshairs'' E-mail 
bulletin. April 29, 2008.
    \15\ U.S. Sportsmen's Alliance. ``On Target'' e-mail newsletter. 
October 31, 2007.
---------------------------------------------------------------------------
    After being given more than a year of notice from the USFWS and 
warnings from various hunting organizations, some chose to either book 
a hunt in the few months prior to the listing, or chose to wait to 
submit an application to import their trophies even after the species 
was listed. These individuals did so at their own risk.
    In fact, the number of polar bear trophies imported into the U.S. 
rose dramatically in advance of the listing--to 112 trophies in 2007, 
more than doubling the previous year's number of 52 imports. The 
hunting groups were urging people to get their polar bears before the 
listing took effect, and that's clearly what most hunters did. These 
last few bears killed simply represent poor planning on the part of a 
few hunters who didn't listen, when most of their counterparts knew 
what was coming and rushed in to get their bears. It's a self-inflicted 
problem, and now they're crying over spilt milk.
H.R. 1054 Would Harm Polar Bear Conservation Efforts
    H.R. 1054 is essentially an attempt by trophy hunters to repeat 
history and amend the MMPA to allow the importation of sport-hunted 
polar bear trophies, as they did 15 years ago. The original Act of 1972 
barred the importation of all marine mammal parts, including polar 
bears--the same law that prohibits American citizens from bringing 
whale meat back from Japan or seal fur back from Canada. But the trophy 
hunters and their congressional allies successfully punched a gaping 
loophole through the law in 1994, and opened the door to polar bear 
heads and hides.
    And they made the same arguments back then that they're making now. 
Law-abiding hunters shot their polar bears legally in Canada, they 
said, and the trophies were just sitting in storage, so it wouldn't 
hurt just to let them transport those already-dead bears across the 
border. The problem was that this policy change opened the floodgates 
to more and more American trophy hunters trekking north to get the 
prized bear--many of them competing for the Safari Club's ``Bears of 
the World'' award--and in that decade and a half, more than 900 polar 
bear trophies were imported from Canada.
    Now that the polar bear has been listed as a threatened species, 
the ban on imports has been restored. But trophy hunters are making the 
same tired argument that they made in 1994. H.R. 1054 is being cast as 
a private relief measure to help 41 hunters bring in their personal 
trophies, but in reality the legislation would roll back a federal 
policy and provide even more incentive for American trophy hunters to 
accelerate the killing of species with pending ESA listing decisions 
and, when import of the trophies are barred, make the same personal 
appeal to Congress over and over again.
Importing Trophies is Inconsistent with Conservation
    Further, although the MMPA generally prohibits the importation of 
depleted species, the law provides specific procedures for importing 
these animals. A depleted species may be imported if the importation is 
likely to ``enhance'' the species' survival by ``contribut[ing] 
significantly to...increasing distribution'' of animals. Congress 
crafted this narrow exception to ensure that only importations that 
actually benefit species are permitted. If trophy hunters are allowed 
to circumvent this process, Congress's carefully limited exceptions are 
rendered meaningless.
    The U.S. does not allow sport hunting of polar bears in Alaska, and 
only Alaskan natives are allowed to hunt these bears for subsistence. 
American trophy hunters cannot legally shoot polar bears at home, and 
should not be encouraged to add to the mortality of polar bears in 
other countries. Only a few dozen Americans participate in the trophy 
hunting of Canadian polar bears. The millions of sportsmen and gun 
owners in the U.S. are not impacted by this issue.
    The MMPA had barred the import of sport-hunted polar bear trophies 
between 1972 and 1994, and that ban has now been restored. The MMPA 
does not allow trophy imports of walruses, whales, or other marine 
mammals. It would be inconsistent with American conservation law to 
allow the importation of polar bear trophies.
    Additionally, trophy hunting is harmful to the survival of polar 
bears. Polar bears rely on high adult survivorship to maintain 
populations. Sport hunters target the largest and most fit animals and 
are not always able to distinguish females from males in the field. 
These animals may be critical to ensuring the survival of polar bear 
populations under stress from climate change and habitat degradation. 
Before the passage of the MMPA, sport hunting was identified as the 
primary or sole cause of polar bear population declines in places such 
as Alaska. Once sport hunting was prohibited in the U.S., some 
populations began to recover.
    Commercial hunting is an incentive for higher polar bear mortality. 
An American trophy hunter pays about $35,000 for a polar bear hunt in 
Nunavut. Because the sport hunts are highly lucrative, Canadian 
wildlife managers may feel pressure to increase quotas beyond 
sustainable levels. In 2005, Nunavut increased hunting quotas by 29%, 
despite concerns expressed by polar bear researchers that the increase 
in take could be harmful to the populations.
    Finally, there is no evidence that money charged for polar bear 
hunting permits is essential to local communities or wildlife 
conservation. An August 2005 article in the Nunatsiaq News, a Nunavut 
newspaper, concluded that ``most of the [financial benefits from sport 
hunts] never reach Inuit hands, and when they do, those earnings vary 
substantially from community to community.'' Even if a portion of the 
money went to polar bear conservation, it is still unsustainable for 
sport hunters to kill a species that is threatened by climate change 
and vanishing habitat. Saving these bears will not come from money 
derived from killing them, but from eliminating the financial 
incentives to increase the quotas and from protecting their habitat.
    And even if the 41 sport-hunted polar bear trophies affected by 
H.R. 1054 somehow aided polar bear conservation efforts, which is 
unlikely, there would be no additional conservation value by allowing 
their importation. Denying these imports would not lead to a refund for 
hunters, who knew the financial risks they were taking when they paid 
to shoot the bears.
CITES Protection
    The USFWS is considering submitting a proposal to protect polar 
bears from international trade at next year's meeting of the Parties to 
the Convention on International Trade in Endangered Species of Wild 
Fauna and Flora (CITES). The proposal would transfer the polar bear 
from CITES Appendix II, which allows regulated international commercial 
trade, to Appendix I, which prohibits all international commercial 
trade in the listed species. The purpose of CITES is to prevent over-
exploitation of species through international trade.
    The Appendix I designation would mean that countries agree to 
prohibit international trade for primarily commercial purposes and thus 
ensure that international trade will not contribute to the ongoing 
decrease in polar bear numbers. The announcement that the USFWS is 
seriously considering submitting this proposal illustrates the fact 
that the polar bear is seriously threatened with extinction and 
affected by international trade, and that recent protections granted 
under the ESA should not be stripped away.
    The USFWS should be praised for listing this important and 
imperiled species under the ESA. Now that the agency is considering a 
proposal to move polar bears from Appendix II to Appendix I of CITES, 
it's time to give polar bears greater protection, not less.
Conclusion
    In summary, the passage of H.R. 1054 would reward a few dozen 
individuals who gambled at their own risk, and attempted to game the 
system knowing that the door would soon be closed to polar bear trophy 
imports, as it was previously for more than two decades. The ESA and 
MMPA protections should not be subverted simply to pacify a handful of 
trophy hunters who, with full knowledge that the species would likely 
be listed because of serious threats to its survival, chose to ignore 
all warnings from the U.S. government, animal protection organizations 
and hunting groups, and pursue a bearskin rug for their trophy room. 
It's a self-inflicted problem, yet they are asking Congress for a 
government bail-out.
    We shouldn't allow the importation of threatened or endangered 
species trophies just because they're stockpiled in a warehouse and the 
animals have already been killed. Whether its elephant ivory or polar 
bear pelts, each time we allow trade in these protected species, we 
resuscitate the market for these items, increase the incentive for 
poaching and sport hunting, and make it harder for law enforcement to 
crack down on trafficking in wildlife contraband. Thus, even if these 
41 trophies in question don't harm polar bear populations since the 
animals are already dead, the cumulative impacts of shooting more and 
more bears, putting the trophies in storage, and continuing to ask 
Congress to allow imports over and over again, are severe and set a 
dangerous precedent.
    Congress should resist the temptation to interfere with the ongoing 
legal cases the trophy hunters themselves chose to initiate, and should 
reject this same pattern of behavior that was used to amend the MMPA in 
1994 and allow the commercial killing of hundreds of polar bears for 
trophies. Allowing imports, driven by personal stories, has always been 
the tack of the trophy hunting groups and it's precisely what has 
allowed all of this killing by Americans to occur. Congress should send 
a strong message that this behavior will not be tolerated and that 
imperiled species deserve protection. In order for the MMPA protections 
and ESA listings to have meaning, we strongly urge the Subcommittee to 
reject H.R. 1054.
                                 ______
                                 

 Response to questions submitted for the record by Michael Markarian, 
      Chief Operating Officer, Humane Society of the United States

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  Isn't sport hunting good for conservation? Won't people protect a 
        species to ensure it's always available for sport hunting and 
        to protect the income they derive from it?
    This has not been true historically for polar bears. In the 1950s 
and 1960s, as Dr. Moritz of the Safari Club testified, polar bears 
numbered perhaps as low as 5,000 animals. This was because of sport 
hunting--due to their ecology and high juvenile mortality, polar bears 
as a species require high adult survivorship to maintain their numbers 
and the sport hunter's preference for targeting large, full-grown 
robust bears (most likely the very bears the population needs to 
survive environmental perturbations such as pollution and climate 
change) caused a catastrophic crash in population. The 1973 
International Agreement on the Conservation of Polar Bears was largely 
a result of this situation. After sport hunting ended in most countries 
(and declined in Canada), the polar bear population began to recover. 
More recently, at least one population, M'Clintock Channel, was being 
over-hunted by sport hunters (not by subsistence hunters) until the 
population reached such a low level that managers finally responded by 
lowering the quota.
    Regardless of whether or not sport hunting is ``good'' for 
conservation for other species, which is highly debatable, not all 
species are alike. For polar bears, sport hunting has been a 
significant contributor to declines in the past. Today, polar bear 
sport hunting is so lucrative for commercial outfitters that there is a 
huge incentive to apply strong pressure on managers to maintain 
unsustainably high quotas (as occurred in M'Clintock Channel), which is 
not good for polar bear conservation.
    Moreover, we have seen no evidence that money charged for polar 
bear hunting permits is essential to local communities or wildlife 
conservation. An August 2005 article in the Nunatsiaq News (http://
www.nunatsiaq.com/archives/50826/news/nunavut/50826_12.html), a Nunavut 
newspaper, concluded that ``most of the spoils never reach Inuit hands, 
and when they do, those earnings vary substantially from community to 
community.'' The funds are pocketed by commercial outfitters, and spent 
on transportation, hunting gear, and other incidentals--not spent on 
conservation.
    Simply put, sport hunting of polar bears and the commercial trade 
in polar bear parts must cease altogether if the polar bear is to 
survive the multitude of threats it faces, including the loss of 
essential sea ice habitat.
2.  Hunting groups say that polar bear numbers are increasing. How can 
        both sides of this debate make such diametrically opposed 
        statements about the polar bear population?
    According to the IUCN Polar Bear Specialist Group (and also Dr. 
Moritz's testimony), the official estimate of the world's population of 
polar bears is 20,000-25,000 (see http://pbsg.npolar.no/en/status/). At 
its most recent meeting in July 2009, the PBSG concluded that eight of 
the twelve polar bear populations with data sufficient to estimate 
trends were declining, three were stable, and only one was believed to 
be increasing. The remaining seven populations (there are a total of 
nineteen recognized in five countries) are of unknown status--they are 
data deficient. (See http://pbsg.npolar.no/en/meetings/press-releases/
15-Copenhagen.html.) The claim that polar bear numbers are increasing 
is made ONLY by the trophy hunting community, and not by reputable 
scientists. Resource managers, the scientific community, the 
conservation community, and even many Native representatives do not 
make this claim and the numbers used by trophy hunting groups have no 
basis in the scientific literature. In other words, the rhetoric from 
Safari Club and other groups isn't sound science, it just sounds like 
science.
    If we took the trophy hunters' claims on face value, since Canada 
is the only country that allows sport hunting of polar bears, the other 
four countries that have polar bear populations must be doing very 
poorly since they do not allow sport hunting. This logic, of course, is 
absurd. However, the PBSG continues to express serious concern for the 
polar bear's future, the U.S. Fish and Wildlife Service considers the 
science to add up to a ``threatened'' status and a proposal for 
increased protection through CITES, and even Natives (including those 
who have said recently that they believe there are more bears out 
there) are beginning to worry about the bear's future (and their own, 
for that matter). The only debate about the status of polar bears is 
inside the halls of the Safari Club--no one else is debating this 
question.
    Regardless of the cause of the polar bear's low population numbers 
in the 1950s and 1960s, to compare today's population to the one from 
50 years ago leaves out the middle of the story. Polar bear recovery 
from the sport hunting collapse probably peaked in the 1980s-1990s. 
Since then, there has been a second decline, believed by scientists to 
be due to the effects of global warming (e.g., sea ice retreat), 
pollution (which hits polar bears hard, as they are top predators and 
toxins magnify up the food chain), and other habitat degradation. So 
there are more bears today than there were in the 1950s, but FEWER 
bears today than there were in the 1980s-1990s. Scientists do not know 
how great the decline has been yet, because counting polar bears (see 
above) is not simple or precise.
3.  In his testimony, Dr. Moritz stated that this bill is not about the 
        future of polar bears, but only about these 40+ permits for 
        imports that were pending when the listing occurred. Do you 
        agree that there is no relationship between this bill and the 
        future conservation of polar bear populations?
    H.R. 1054 is essentially an attempt by trophy hunters to repeat 
history and amend the MMPA to allow the importation of sport-hunted 
polar bear trophies, as they did 15 years ago. The original Act of 1972 
barred the importation of all marine mammal parts, including polar 
bears--the same law that prohibits American citizens from bringing 
whale meat back from Japan or seal fur back from Canada. But the trophy 
hunters and their congressional allies successfully punched a gaping 
loophole through the law in 1994, and opened the door to polar bear 
heads and hides.
    And they made the same arguments back then that they're making now. 
Law-abiding hunters shot their polar bears legally in Canada, they 
said, and the trophies were just sitting in storage, so it wouldn't 
hurt just to let them transport those already-dead bears across the 
border. The problem was that this policy change opened the floodgates 
to more and more American trophy hunters trekking north to get the 
prized bear--many of them competing for the Safari Club's ``Bears of 
the World'' award--and in that decade and a half, more than 900 polar 
bear trophies were imported from Canada.
    Now that the polar bear has been listed as a threatened species, 
the ban on imports has been restored. But trophy hunters are making the 
same tired argument that they made in 1994. H.R. 1054 is being cast as 
a private relief measure to help 41 hunters bring in their personal 
trophies, but in reality the legislation would roll back a federal 
policy and provide even more incentive for American trophy hunters to 
accelerate the killing of species with pending ESA listing decisions 
and, when import of the trophies are barred, make the same personal 
appeal to Congress over and over again.
    The problem, of course, is the cumulative impact of these repeated 
requests. Whether it's elephant ivory or polar bear pelts, each time we 
allow trade in a protected species, we resuscitate the market for these 
items, increase the incentive for poaching and sport hunting, and make 
it harder for law enforcement to crack down on trafficking in wildlife 
contraband. Trophy hunters are encouraged to kill more threatened and 
endangered species and just keep them in storage until their 
congressional allies can provide a government bail-out.
                                 ______
                                 
    Ms. Bordallo. I thank you very much, Mr. Markarian, for 
your testimony.
    And now I would like to recognize Mr. Oerter. Please begin.

               STATEMENT OF MAJOR ROGER OERTER, 
                    U.S. AIR FORCE, RETIRED

    Major Oerter. Madam Chairwoman, Members of the Committee, I 
am here today as a voter and a citizen who suffered a taking of 
my property because of Federal regulatory action. I appreciate 
the opportunity today to tell my story.
    I was a Major on active duty with the U.S. Air Force in 
2007 when I decided to pursue the hunt of a lifetime, a polar 
bear. I took out a home equity line of credit on my home and 
booked the hunt for late April of 2008. This hunt, which 
remains entirely legal under Canadian law, was to be a 
retirement present to myself.
    Though I could ill afford a trip of such expense, I 
rationalized it as a once-in-a-lifetime luxury following a 29 
year military career. The hunt costs have totaled over $41,000 
thus far, nearly half of my 2008 annual military salary, but a 
figure for which I was willing to go into debt as I have always 
wanted to experience and enjoy one of the world's few remaining 
adventures, a dogsled hunt north of the Arctic Circle.
    Besides the adventure, I knew that my participation in this 
hunt would help conserve the bear population and provide sorely 
needed funds to the Inuit people. I was elated to have success 
on this arduous and challenging hunt on the 1st of May, having 
seen 39 bears in 10 days. I hope you understand I wanted to 
bring home my bear to create a taxidermy mount as a memento of 
this amazing experience, so I arranged for its transport back 
to the United States before leaving Canada.
    I had submitted my paperwork to the U.S. Fish and Wildlife 
Service for the mandatory 30-day review when the Interior 
Department listed the polar bear as threatened under the 
Endangered Species Act. As a result of their decision, I am now 
banned from importing this legally harvested polar bear into 
the U.S. under the Marine Mammal Protection Act. With that, I 
basically lost my investment in this trip.
    While I will never lose the experience, the polar bear 
mount, which would have been my lasting trophy, cannot happen 
under current laws, and this regulation effectively confiscated 
my polar bear. Right now the bear hide and skull are in cold 
storage in Edmonton. I can't throw good money after bad by 
having the taxidermy work done in Canada, and yet the longer 
the hide sits unmounted in storage the greater risk that the 
hide will be ruined.
    I find it distressing that the government required me to 
abide by a 30-day review period before importation, but itself 
instantaneously changed its import policy. As a veteran of 10 
contingency deployments during my Air Force career, including 
Operation Southern Watch four times, Joint Forge/Joint Guardian 
once, Enduring Freedom Philippines twice and Iraqi Freedom 
three times, I am asking you to support enactment of H.R. 1054.
    This simple bill will do only one thing. It will allow me 
and the other similarly affected polar bear hunters in this 
country to import the bears we legally hunted. It will not 
change the ESA listing, and it will not allow future bear 
imports. It will simply restore my property to my possession.
    I ask you to support efforts to lift the restriction on 
polar bear importation at the very least. It makes no sense in 
regards to conservation or science. In the long run, the bears 
will suffer as the Canadian Government will still issue 
permits, but with no monetary value attached to them the Inuits 
will have no incentive to take only mature males as is 
currently done. The hunting will be solely for subsistence, and 
females will be taken more often.
    This issue is not about hunting. It is a simple matter of 
returning property that was effectively taken by regulatory 
action. I made an enormous investment in my polar bear 
expedition, and the government has effectively stripped me of 
my property. This is a deeply personal issue that has had an 
enormous impact on me. I sincerely hope you will consider, co-
sponsor, and support enactment of H.R. 1054.
    Finally, I would like to thank the Dallas Safari Club in 
assisting me in my effort to testify today and appreciate the 
position the club has taken to help move this legislation 
forward.
    Madam Chairwoman, thank you once again for the opportunity 
to tell my story to the Committee. I appreciate your careful 
consideration of this legislation. Thank you.
    [The prepared statement of Major Oerter follows:]

           Statement of Roger E. Oerter, Major, USAF, Retired

    Madam Chairwoman, Members of the Committee, I am here today as a 
voter and a citizen who has suffered a taking of my property because of 
federal regulatory action. I appreciate the opportunity today to tell 
my story.
    I was a Major on active duty with the U.S. Air Force in 2007 when I 
decided to pursue the hunt of a life time--the polar bear. I took out a 
home equity line of credit on my home and booked a hunt for late April, 
2008. This hunt, which remains entirely legal under Canadian law, was 
to be a retirement present to myself. Though I could ill afford a trip 
of such expense, I rationalized it as a once-in-a-lifetime luxury 
following a 29-year military career.
    The hunt costs have totaled over $41,000 (thus far), nearly half of 
my 2008 annual military salary, but a figure for which I was willing to 
go into debt; as I've always wanted to experience and enjoy one of the 
world's few remaining adventures--a dog-sled hunt north of the Arctic 
Circle. Besides the adventure, I knew that my participation in this 
hunt would help conserve the bear population and provide sorely needed 
funds to the Inuit people.
    I was elated to have success on this arduous and challenging hunt 
on the 1st of May, having seen 39 bears in ten days. I hope you 
understand, I wanted to bring home my bear to create a taxidermy mount 
as a memento of this amazing experience. So I arranged for its 
transport back to the United States before leaving Canada. I had 
submitted my paperwork to the U.S. Fish and Wildlife Service for a 
mandatory 30-day review period when the Interior Department listed the 
polar bear as ``threatened'' under the Endangered Species Act (ESA). As 
a result of their decision, U.S. hunters are now banned from importing 
these legally-harvested polar bears into the U.S. under the Marine 
Mammal Protection Act. With that, I basically lost my investment in 
this trip. While I'll never lose the experience, the polar bear mount 
which would have been my lasting trophy cannot happen under current 
laws, and this regulation effectively confiscated my polar bear. Right 
now, the bear hide and skull are in cold storage in Edmonton. I can't 
throw good money after bad by having the taxidermy work done in Canada, 
and yet the longer the hide sits unmounted in storage, the greater the 
risk that the hide will be ruined. I find it distressing that the 
government required me to abide by a 30-day review period before 
importation, but itself instantaneously changed its import policy.
    As a veteran of ten contingency deployments during my Air Force 
career, including Operations SOUTHERN WATCH (4 times), JOINT FORGE/
JOINT GUARDIAN (1), ENDURING FREEDOM-PHILIPPINES (2) and IRAQI FREEDOM 
(3); I am asking you support enactment of H.R. 1054. This simple bill 
will do only one thing--it will allow me and the other 42 similarly 
affected bear hunters in this country to import the bears we legally 
hunted. It will not change the ESA listing. It will not allow future 
bear imports. It will simply restore my property to my possession.
    I ask you to support efforts to lift the restriction on polar bear 
importation at very least. It makes no sense in regards to conservation 
or science. In the long run the bears will suffer, as the Canadian 
government will still issue permits, but with no monetary value 
attached to them, the natives will have no incentive to take only 
mature males, as is currently done. The hunting will be solely for 
subsistence, and females will be taken more often.
    This issue is not about hunting. It's a simple matter of returning 
property that was effectively taken by regulatory action. I made an 
enormous investment in my polar bear expedition and the government has 
effectively stripped me of my property. This is a deeply personal issue 
that has had an enormous impact on me. I sincerely hope you will 
consider, co-sponsor, and support enactment of H.R. 1054.
    I would like to thank the Dallas Safari Club in assisting me in my 
effort to testify today and appreciate the position the Club has taken 
to help move this legislation forward.
    Madam Chairwoman, thank you once again for the opportunity to tell 
my story to the Committee. I appreciate your careful consideration of 
this legislation.
                                 ______
                                 
    [A letter submitted for the record by Roger E. Oerter, Major, USAF, 
Retired, follows:]

September 2009

The Honorable Don Young
US House of Representatives
2111 Rayburn HOB
Washington, DC 20515

Dear Representative Young:

    I would like to again thank you personally for introducing H.R. 
1054, amending the Marine Mammal Protection Act of 1972 to allow for 
the importation of legally-harvested polar bears taken before 15 May, 
2008. To assist in this effort, I would like to retell my story.
    I was a Major on active duty with the U.S. Air Force in 2007 when I 
heard that polar bear hunting could soon close due to political 
posturing by opponents of sport hunting. Because I anticipated that 
once closed, polar bear importation would not reopen in my lifetime; I 
took out a home equity line of credit on my home and booked a hunt for 
late April, 2008. This hunt was to be a retirement present to myself, 
as I could ill afford a trip of such expense; but I rationalized it as 
a once-in-a-lifetime luxury following a 29-year military career.
    The hunt costs have totaled over $41,000 (thus far), nearly half of 
my 2008 annual salary, but a figure for which I was willing to go into 
debt; as I'd never get another chance to enjoy one of the world's few 
remaining adventures--a dog-sled hunt for bear north of the Arctic 
Circle. Besides the adventure, I knew that my participation in this 
hunt helped conserve the bear population and provided sorely needed 
funds to the Inuit people. Yet to protect myself against loss should 
importation policy change, I talked to the outfitter often leading up 
to my departure date. He said he would allow me to cancel up until the 
day I left if laws or policies were enacted preventing my bringing the 
bear back to the US. Nobody I talked to envisioned that legally-taken 
bears wouldn't be grandfathered after any change.
    I took my bear from the Lancaster Bay population on the 1st of May, 
having seen 39 bears in ten days. I had started the paperwork with U.S. 
Fish and Wildlife Service for the 30-day review period when they made 
their decision to suspend importation of already-taken bears. With that 
decision, I basically lost my investment in this trip. While I'll never 
lose the experience, the polar bear mount which would have been my 
lasting trophy cannot happen under current laws. Right now, the bear 
hide and skull are in cold storage in Edmonton. I can't throw good 
money after bad by having the taxidermy work done in Canada, and yet 
the longer the hide sits unmounted in storage, the greater the risk 
that the hide will be ruined. I feel betrayed by a government that 
requires a 30-day review, but can itself act instantly.
    As a veteran of ten contingency deployments during my Air Force 
career, including Operations SOUTHERN WATCH (4 times), JOINT FORGE/
JOINT GUARDIAN (1), ENDURING FREEDOM-PHILIPPINES (2) and IRAQI FREEDOM 
(3), I implore you to continue your efforts to lift the restriction on 
polar bear importation at very least. It makes no sense in regards to 
conservation or science. The Inuit village of Grise Fiord will suffer. 
In the long run, so will the bears, as the Canadian government will 
still issue permits, but with no monetary value attached to them, the 
natives will have no incentive to take only mature males, as is 
currently done. If it helps, feel free to cite me as an example as you 
try to secure co-sponsors and support in the U.S. Congress to right 
this wrong.

Sincerely and respectfully yours,

Roger E. Oerter, Major, USAF, retired
                                 ______
                                 

Response to questions submitted for the record by Roger Oerter on H.R. 
                                  1054

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  On September 21, 2008, the U.S. Fish and Wildlife Service (Service) 
responded to a Freedom of Information Act (FOIA) request submitted by 
the International Fund for Animal Welfare. In it the Service reports 
receiving a call from you on April 17, 2008 informing them that you 
would depart for your polar bear sport hunt on April 22, 2008 and that 
your hunt was scheduled for April 24th through May 8th. The Service 
states that it informed you that a final decision on whether to list 
the polar bear under the ESA was imminent and that they could not 
guarantee that they could process your permit request in time to import 
the trophy if a final decision were announced to list the polar bear. 
Records show that the Service also told you that if the polar bear were 
listed, all trophies would have to be imported by the effective date of 
the listing regardless of whether you had received a permit to import 
the trophy. Did the Service inform you that if the listing went into 
effect no future trophy imports would be allowed?

    Madam Chairwoman, the short answer is, ``No.'' The U.S. Fish & 
Wildlife Service Division of Management Authority sent me a letter 
outlining what I needed to do to import my bear before I went on the 
hunt. In this letter, they informed me of the proposal to list the 
polar bear as ``threatened.'' The very next sentence read, ``IF polar 
bears are listed, this may impact your ability to import your trophy.'' 
(The capitalized emphasis is in the original correspondence from the 
Division of Management Authority, while the italicized emphasis is 
mine.) So, this is hardly the absolute, carved-in-stone context that I 
infer from your question. In fact, I was advised that the decision on 
listing was imminent, but the USFWS would not advise me to cancel my 
hunt (which I had the option from the outfitter to do, at no penalty to 
me). What I was told was that, ``We can't guarantee that we can process 
your permit request in time to import the trophy IF a final decision is 
announced to list the polar bear.'' (Again, ``IF'' is capitalized for 
emphasis in their letter.) The correspondence went on to say, ``If 
listed, all trophies will have to be imported by the effective date of 
the listing (typically 30-days (sic) from publication of the final 
decision) regardless of whether you have received a permit to import 
the bear.'' (Italicized emphasis added.) So, I was not only given no 
absolutes, but I was led to believe that it would take some time to go 
from announcement to publication of the listing decision, and that even 
after it was published, I would have 30 days or perhaps more to get the 
bear imported. They even told me to fill out the import permit 
application ahead of time, leaving blank the date the bear was 
harvested, so that the 30-day review period would start, which I did. I 
was told to get the harvest date in to USFWS as soon as possible, which 
I also did--the day I returned to the US. Then, the application could 
be fast-tracked through as soon as the review period was complete.
2.  The FOIA response also says that the Service received a voice mail 
        message from you on May 7, 2008, indicating that your hunt was 
        successful and that you had taken a bear on May 1st. According 
        to the Service, you also left a voice mail message on the 8th, 
        seeking guidance about: 1) what to submit in order for permit 
        application to be considered complete; and 2) information about 
        how the court decision would affect the import of your trophy. 
        Service staff returned your call on May 9, 2008 and informed 
        you of the April 28, 2008 U.S. District Court order requiring 
        the Service to publish the final decision on listing the polar 
        bear under the ESA on or before May 15th, Service records show, 
        and that the decision would become immediately effective on the 
        publication date. Service staff say they told you that although 
        the Service didn't yet know what that final decision would be, 
        if the decision were to list polar bears, all polar bear 
        trophies would have to be imported by the effective date 
        because under the MMPA, polar bears would be considered 
        ``depleted'' if listed under the ESA, and the MMPA provision 
        that allows for the import of polar bear trophies would no 
        longer apply.
    Did the Service tell you that since you hunted your polar bear on 
        May 1, 2008, and that the court-ordered deadline was May 15, 
        they would not be able to process your permit request in time 
        to import the trophy if a final decision were announced to list 
        the polar bear?
    No. And at that time, it would have mattered little, as the bear 
was already dead. The lead-in paragraph to this question shows that I 
was exercising due diligence in this matter. The voice mail on the 8th 
was intended to confirm that I had done everything in my power to 
ensure the requirements for importation were met, to prevent from 
happening exactly what has happened: my bear sitting in cold storage in 
Canada, where it will deteriorate over time. And again, I was under the 
impression that an announcement date on May 15th didn't necessarily 
equate to a publication date.
3.  Your import permit application was complete on May 12, 2008, three 
        days before the court-order deadline for the listing decision. 
        Given the fact that the application still would have to go 
        through the clearance process, would need to be sent to the 
        Federal Register for a 30-day comment period, did the Service 
        explain to you that it would not be possible to approve the 
        import of your trophy by May 15, 2008?
    No. I was still under the impression that since I had filled out 
the import permit ahead of time, at the recommendation of USFWS 
Division of Management Authority, my 30-day comment period was 
underway. And actually, I assumed my permit application was completed 
on May 7th, the day I informed USFWS of the date of actual harvest of 
the bear (the only piece of information missing in the application.) 
This is the first time I've heard that it was not complete until the 
12th.
                                 ______
                                 
    Ms. Bordallo. I thank you, Mr. Oerter, and especially for 
your military service to our country.
    Next we have Dr. Moritz, who is recognized to testify for 
five minutes. Please begin.

  STATEMENT OF WILLIAM MORITZ, PH.D, DIRECTOR, DEPARTMENT OF 
 SCIENCE-BASED CONSERVATION PROGRAMS AND RESEARCH, SAFARI CLUB 
                         INTERNATIONAL

    Dr. Moritz. Good morning. My name is Dr. William Moritz, 
Director of Conservation for Safari Club International 
Foundation and the Acting Director of Government Affairs for 
Safari Club International.
    I have a Bachelor's degree in Fisheries and Wildlife 
Biology, a Master's degree in Fish and Wildlife Management and 
a Doctorate in Zoology. I have worked in the field of wildlife 
research and management for over 20 years prior to accepting my 
current professional position.
    Safari Club International protects the freedom to hunt and 
promotes wildlife conservation worldwide. SCIF promotes, funds 
and manages worldwide programs dedicated to wildlife 
conservation, outdoor education and humanitarian services. 
Thank you for allowing me to testify today on their behalf.
    Madam Chair, the most important point that we would like to 
make to this Subcommittee is that the question before the 
Subcommittee is not the future of polar bears. It is only about 
whether approximately 42 bears that were legally harvested by 
U.S. citizens under the legal framework established by local 
communities, the Government of Canada, and the polar bear range 
states should be allowed into the United States and thereby 
provide over $40,000 for polar bear research and management.
    Canada, the United States and other range state governments 
will continue extensive efforts to conserve and manage the 
polar bear, including, but not limited to, the development of 
and compliance with international agreement and domestic laws. 
Multinational agencies and committed governments are already 
dedicating significant resources to manage the polar bear and 
to ensure its long-term sustainability. These efforts have 
resulted in positive impacts to the polar bear, including 
rebounding from possible population lows, as low as 5,000 bears 
40 years ago, to today's population estimate of 20,000 to 
25,000.
    We should not lose focus on the purpose of H.R. 1054. The 
issue today is whether a small number of harvested bears hunted 
legally before the polar bear was listed as threatened should 
be allowed to be imported. The obvious fact underlying the bill 
to allow the import of already harvested polar bears is that 
the bears are dead. No legislation will make them live again.
    The harvest of these animals provided important income to 
local native communities, which encouraged the communities to 
value the polar bear even more and to better accept science-
based quotas on the appropriate levels of sustainable take. In 
addition to much needed income, the animals provided meat and 
employment to local communities to ensure native people will be 
able to continue their way of life. Under U.S. law, allowing 
the importation through permits will generate over $40,000 in 
fees for much needed research on polar bears. This money will 
be in addition to the more than $900,000 in import fees 
generated since 1997.
    This bill is not about climate change, even though some may 
try to tell you that it is only about climate change. This bill 
is not about the future hunting of polar bears. That question 
will be left for another day. This bill will not affect the 
population of polar bears at all.
    This amendment is simple, straightforward and totally 
unrelated to climate change and the future of polar bear 
hunting. H.R. 1054 will allow approximately 42 citizens to 
bring their legally harvested polar bears into the United 
States and to contribute much needed revenue to polar bear 
conservation. These citizens lost the ability to import their 
personal property due to the arbitrary decision of the Federal 
government.
    This bill will do one thing and one thing only. It will 
provide relief from this taking. We strongly urge the 
Subcommittee to support H.R. 1054. Thank you.
    [The prepared statement of Dr. Moritz follows:]

 Statement of Dr. William E. Moritz, Director of Conservation, Safari 
Club International Foundation, Acting Director of Governmental Affairs, 
                Safari Club International, on H.R. 1054

    Good morning. My name is Dr. William Moritz, Director of 
Conservation for Safari Club International Foundation (SCIF) and acting 
Director of Governmental Affairs for Safari Club International (SCI). I 
have a Bachelors' degree in Fisheries and Wildlife Biology, a Masters 
degree in Fish and Wildlife Management, and a Doctorate in Zoology. I 
worked in the field of wildlife research and management for over 20 
years. SCI protects the freedom to hunt and promotes wildlife 
conservation worldwide. SCIF funds and manages worldwide programs 
dedicated to wildlife conservation, outdoor education and humanitarian 
services. Thank you, Chairwoman Bordallo, for allowing me to testify 
today on their behalf.
    Madam Chair, the most important point that we would like to make to 
the Committee is that the question before the subcommittee is not the 
future of polar bears, it is only about whether approximately 42 polar 
bears that were legally harvested by U.S. citizens under the legal 
framework established by local communities, the government of Canada, 
and the polar bear range states in the 1973 international agreement on 
conservation of polar bears, should be allowed into the United States 
and thereby provide over $40,000 for polar bear research. Canada, the 
United States, and other range state governments will continue 
extensive efforts to conserve and manage the polar bear, including but 
not limited to the development of and compliance with international 
agreements and domestic laws. Multinational agencies and committed 
governments are already dedicating significant resources to manage the 
polar bear and to ensure its long-term sustainability. These efforts 
have resulted in positive impacts to the polar bear, including 
rebounding from possible population numbers as low as 5,000 bears 30-40 
years ago to today's population of 20,000-25,000. Freeman, et al. 2006, 
at page 21.
    The issue today is only whether a small number of harvested bears 
hunted legally before the polar bear was listed as threatened should be 
allowed to be imported. The obvious fact underlying the bill to allow 
the import of already harvested polar bears is that the bears are dead, 
no legislation will make them live again. The harvest of these animals 
provided important income to local native communities, which encouraged 
the communities to value the polar bear even more and to better accept 
science-based quotas on the appropriate levels of sustainable take. In 
addition to much needed income, the animals provided meat and 
employment to local communities to ensure native people will be able to 
continue their way of life. Under U.S. law, allowing the importation 
through permits will generate over $40,000 in fees for much needed 
research on polar bears. This money will be in addition to the more 
than $900,000 in import fees generated since 1997.
    This bill is not about climate change even though some may try to 
tell you that it is only about climate change. This bill is not about 
future hunting of polar bears, that question will be left for another 
day. This bill will not affect the population of polar bears at all. 
This amendment is simple, straightforward and totally unrelated to 
climate change and future of the polar bear.
    It will allow approximately 42 citizens to bring their legally 
harvested polar bears into the United States and to contribute much 
needed revenue to polar bear conservation. These citizens lost the 
ability to import their personal property due the arbitrary decision of 
the federal government, and this bill will do one thing and one thing 
only--it will provide relief from this taking. We strongly urge the 
Subcommittee to support H.R. 1054.
    Key points:
    1.  Polar bears harvested in Canada are taken under a legal 
framework established by the government of Canada and approved under an 
international agreement governing polar bear conservation worldwide. 
Based on scientific knowledge, including local ecological knowledge, 
Canada routinely sets quotas for polar bear harvests to be sustainable.
    2.  Prior to May 15, 2008, the date the U.S. Fish and Wildlife 
Service listed the polar bear as threatened worldwide and imposed an 
import ban, U.S. hunters could import polar bear trophies from six 
populations in Canada approved by the FWS as having a sustainable and 
well-managed conservation and hunting program.
    3.  Foreign sport hunters, including U.S. hunters, do not increase 
polar bear mortality from hunting. These hunters use ``tags'' assigned 
to local native communities based on these scientifically-determined 
quotas. If the tags were not used for sport hunting, they would be used 
for subsistence.
    4.  By bringing much needed cash to these remote native communities 
(U.S. hunters generally spent between $30,000-50,000 per hunt), U.S. 
hunters in particular helped encourage the local communities to support 
science-based polar bear management efforts in Canada.
    5.  Under U.S. law, import permits provide important conservation 
program funding of $1000 per permit. In the last 13 years, almost $1 
million dollars has been contributed to research. The permits sought 
for bears taken before the import ban went in effect would add over 
$40,000 to current efforts in polar bear research.
                                 ______
                                 
    Ms. Bordallo. I thank you very much, Dr. Moritz.
    We will now recognize Members for any questions that they 
may wish to ask, alternating between the Majority and the 
Minority and allowing five minutes for each Member.
    At this time I ask unanimous consent to allow Congressman 
Paul Broun, the gentleman from Georgia, to sit and participate 
in this hearing. Hearing no opposition, so ordered.
    I have some questions for Dr. Gould. There are many pending 
lawsuits related to the listing decision and the import 
prohibition. In one filing, the plaintiffs claim that the 
Department misled the hunting community by leading them to 
believe that the listing would not stop the import of trophies. 
I just want a yes or a no. Is this accurate?
    Dr. Gould. No.
    Ms. Bordallo. OK. Along these lines, I would like to get 
the fuller extent of the Fish and Wildlife Service's outreach 
efforts following the publication of the proposed listing on 
January 9, 2007. Could you please provide brief answers to the 
following questions:
    One, following the January 9, 2007, listing proposal did 
the Service send staff to the Safari Club International's 
annual conventions in both January 2007 and 2008, and what did 
the staff tell people regarding the proposed listing?
    Dr. Gould. We did provide people for both of those 
conventions, 2007 and 2008. We indicated to folks that a 
decision was imminent on listing the polar bear. There was no 
indication whether the decision would be either positive or 
negative.
    Ms. Bordallo. Thank you. Another question I have. In your 
testimony you said that in January 2008 the Fish and Wildlife 
Service's Division of Management Authority fielded a large 
number of telephone and email communications on this issue, 
including inquiries from hunters, Canadian outfitters and the 
media. What did you tell them regarding the proposed listing?
    Dr. Gould. That a decision was imminent on whether we were 
going to list the polar bear or not. Again, there was no 
indication of whether there was going to be a positive or 
negative finding. It would have been inappropriate for us to 
opine at that time.
    Ms. Bordallo. And you also said that on May 5, 2008, 
Service staff attempted to call those individuals who had 
already been authorized to import a trophy, but may not have 
done so, to inform them that an ESA listing might go into 
effect on or before May 5, 2008. Did all of these permit 
holders succeed in importing their bears?
    Dr. Gould. No, they did not. There were 43 I believe 
permits outstanding. Forty-one are where there was legally 
taken bears in approved areas that had applied for permits that 
had completed their hunts before May 15, but we don't know if 
anybody----
    If I am answering your question, we don't know if other 
people we called had--there were five pending at the time, but 
beyond that we do not know if there were other people that had 
legally taken bears, but had not submitted permits by that 
period of time.
    Ms. Bordallo. Thank you. And then one other question for 
the record. What other outreach efforts did the Service conduct 
between January 2007 and the May 15, 2008, listing decision?
    Dr. Gould. Listing the decision?
    Ms. Bordallo. Yes. Listing decision.
    Dr. Gould. Oh.
    Ms. Bordallo. I am sorry.
    Dr. Gould. There was an extensive comment period that was 
the result of the listing process for polar bear, so there was 
extensive public comment and there was extensive notification 
to both the environmental community, the other NGO's, other 
stakeholders that the listing process was moving forward.
    But again I have to always qualify that by saying Fish and 
Wildlife Service at no time before the decision was made 
indicated whether the decision was either pro listing or 
positive listing or a negative listing action.
    Ms. Bordallo. All right. Thank you. I have one minute left 
here, and I would like to ask a question to Mr. Crystal.
    Your testimony states that most, if not all, of the 40 or 
so hunters who had submitted permit applications before the 
listing on May 15, 2008, could not have obtained import permits 
even if the Judge ordered the customary 30-day delay in the 
effectiveness of the rule, given the notice and comment process 
involved in approving a permit application.
    As you heard earlier, the Service believes many could have 
been approved. Can you elaborate on why you do not agree with 
the Service on this point?
    Mr. Crystal. Yes, Madam Chairwoman. I will start by saying 
that the reason why, and I think this is critical to this 
issue, that the listing went into effect immediately, that was 
as part of this litigation that was going on about the listing 
of the polar bear and a decision was made to have the listing 
go into effect immediately.
    There still is pending litigation over that issue about 
whether the listing should have been effective immediately or 
whether the 30-day grace period should be in effect, and that 
is an issue, among many others, that still could be resolved in 
the litigation.
    Now, to answer your specific question, the regulatory 
scheme provides for a notice and comment period, some of which 
had started to take place, and there were Federal Register 
notices. It also provides for a hearing opportunity, so I think 
it overstates the case to suggest that it definitely would have 
been the case that these permits would have been granted. I 
think the best that can be said, given the existing regulatory 
scheme, is that it is unclear what would have happened as a 
result of a delay.
    And the existence of the immediate listing was a 
consequence of the litigation. The Judge made a ruling that it 
was appropriate for the species to be listed at that time. 
These same kind of arguments were made to the Court and the 
Court rejected them. It is an issue that is still pending and 
could be resolved there.
    Ms. Bordallo. Thank you very much. I now recognize the 
Ranking Member for any questions he may have.
    Mr. Young. Thank you, Madam Chairwoman.
    Dr. Gould, in your testimony you state the Administration 
does not oppose this legislation to allow those hunters that 
applied for a permit to import their trophies, but you go on to 
say the Administration does not support H.R. 1054 as currently 
written. What changes need to be made to the bill for the 
Administration to support the passage?
    Dr. Gould. We would like to work with the Subcommittee to 
specifically get language that does not lead to a person that 
took a bear that had not applied for a permit to be included in 
those list of folks that would receive their trophies. That is 
the only issue.
    Mr. Young. Dr. Gould, I thought my bill did that. If it did 
not, though, you can provide the language correctly that would 
only allow the 41 that had applied for a permit and yet were 
disallowed to import them. That is what you are saying?
    Dr. Gould. Yes, sir.
    Mr. Young. Well, I am sure the Chairwoman would work with 
you also. That is what my interest is in.
    Dr. Gould, again if it were not for the Court order which 
required an immediate effective date, to go back to the 
lawyers--I don't like lawyers; I want you to know that--how 
long would the Fish and Wildlife Service have given the hunters 
who legally hunted a polar bear prior to May 15 and applied for 
a permit to bring in the trophies?
    Dr. Gould. Normally we allow 30 to 60 days' grace period 
before an effective action under the ESA goes into effect when 
we make a listing decision, the final decision is made. In this 
case, as has been indicated, the Court ordered the immediate 
effect of the action on May 15, so therefore there was no grace 
period.
    Mr. Young. I appreciate that. Mr. Markarian, does your 
organization support hunting prior to the May 15 ESA listing?
    Mr. Markarian. Excuse me, sir?
    Mr. Young. Did you support hunting prior to the May 15 ESA 
listing?
    Mr. Markarian. Congressman, I think you know our position.
    Mr. Young. You don't support hunting.
    Mr. Markarian. We do not support the hunting of polar bears 
in the Arctic.
    Mr. Young. Do you support any hunting?
    Mr. Markarian. We are not against all hunting. We are 
against----
    Mr. Young. Which hunting do you support?
    Mr. Markarian. We are not against----
    Mr. Young. Which hunting do you support?
    Mr. Markarian. Subsistence hunting in your State of Alaska 
we have no problem with. We don't focus on hunting issues 
generally. We focus on inhumane and unsporting practices, and 
every bill we have ever supported dealt with practices that we 
believe----
    Mr. Young. The answer is you don't support hunting.
    Mr. Markarian. We are the Humane Society. We don't 
encourage people to hunt for fun, but we don't work on those 
practices.
    Mr. Young. Mr. Oerter, you had 10 tours of duty. How did 
you find time to participate in this bear hunt? Were you 
retired?
    Major Oerter. No, Congressman. I was a member of the Air 
Force's Combat Search and Rescue community. CSAR, as it is 
called, is a low density, high demand career in the Air Force. 
There are very few of us; but anywhere there are American 
troops in harm's way, we were required to be there.
    Because we are spread so thin, our tours of duty are 
generally a lot shorter than most. Where the Army goes for 18 
months or 15 months, we go for normally four to five months.
    Mr. Young. OK. How long did it take you to acquire your 
polar bear tag for the native village?
    Major Oerter. I started the process in January of 2007, and 
I went on the hunt the following year right before----
    Mr. Young. It took you about a year?
    Major Oerter. Yes.
    Mr. Young. OK. Good. Doctor, one of the things I am 
interested in is I mentioned in my opening statement 20,000 
bears in the year 1970 and now 23,000. What do you attribute to 
the growth in the polar bear population?
    Dr. Moritz. The careful management that range states have 
undertaken over the last 20, 30, 40 years has resulted in the 
increase in numbers.
    It is that sort of careful management and establishment of 
quotas, recognizing the sustainable use both by the local 
communities and by the hunters, to ensure that these 
populations are as well managed as they possibly can.
    Mr. Young. Now, if I may. I don't have much time left, but 
I am actually one of the few people in this room that ever 
killed a polar bear, in 1964; but what we have found is that if 
we have a value on the polar bear boar, the polar bear sow and 
cubs are not taken for subsistence because there is a value on 
the boar.
    That serves two purposes. It not only protects the sow and 
the cubs from human consumption; it also protects them from the 
boar itself because the boar will try to kill the cubs so that 
the sow goes into heat and they can have another cub, so 
actually the population has increased about 3,000 bears in 
Canada over where it was prior to the instigation of this 
management principle. That is just a little bit of information. 
I am sure you are aware of it.
    Dr. Moritz. Sure.
    Mr. Young. Thank you, Madam Chairwoman. My time is up.
    Ms. Bordallo. I thank the gentleman for his questions. Mr. 
Kratovil----
    Mr. Kratovil. No.
    Ms. Bordallo.--from Maryland has no questions. Then I would 
like to recognize the gentleman from Virginia, Mr. Wittman.
    Mr. Wittman. Thank you, Madam Chairwoman. I am going to go 
to Dr. Gould and just ask did the U.S. Fish and Wildlife 
Service at any time tell hunters prior to the imminent ESA 
listing that they shouldn't go on these polar bear hunts?
    I know you spoke a little bit about going to the Safari 
Club International convention and letting folks know about the 
imminence of the ESA listing, but was there any communication 
with folks pursuing hunts about saying that they shouldn't go 
on a hunt due to the imminence of a determination of the ESA 
listing?
    Dr. Gould. As I understand it from the folks I have talked 
to--of course, I am not privy to all conversations, but the 
folks that I have talked to that participated in the outreach--
they never at any point said you should not go on a hunt. They 
said that there was a listing action coming up. Should that 
action be positive for the bear then the imports of trophies 
would be affected.
    Mr. Wittman. Very good. Thank you, Dr. Gould.
    Major Oerter, thank you again for your service to our 
nation. We deeply, deeply appreciate that. Let me ask you. Did 
you have any type of communication from the U.S. Fish and 
Wildlife Service up until or after your hunt?
    Major Oerter. Yes. Yes, sir. Actually I had been in almost 
constant contact with the Division of Management Authority's 
policy specialist, and she had been telling me to get my permit 
application started even before I went on the hunt and then 
when I came back it would already be in the review process and 
all I would need to do is fill in the actual date that the bear 
was taken and I would get a jump start.
    From that point she said with a 30-day review period that 
will be plenty of time for these bears to get fast tracked 
through the system and get imported.
    Mr. Wittman. Were you ever notified then of the imminent 
ESA listing or ever told that you shouldn't go on the hunt or 
that there might be some issues there if you went on the hunt?
    Major Oerter. I was notified that the ESA listing might be 
forthcoming, but again if I get my process started now I will 
have time enough to import the bear, and it was only after the 
bear was down and I was back on duty that I was notified the 
date of the listing and that it was an immediate listing.
    Mr. Wittman. OK. Thank you, Madam Chairwoman. I yield back 
my time.
    Ms. Bordallo. I thank the gentleman from Virginia. Now we 
would like to recognize Mr. Chaffetz.
    Mr. Chaffetz. Yes. Thank you, Madam Chairwoman. I 
appreciate it.
    Ms. Bordallo. Go ahead.
    Mr. Chaffetz. And thank you all for being here. I 
appreciate your time and consideration.
    Mr. Markarian? Sorry. I am terrible with names, but 
Chaffetz. I am used to it getting slaughtered as well.
    Mr. Young. Better than being chaffed.
    Mr. Chaffetz. Yes, better than being chaffed. Yes. Exactly.
    Ms. Bordallo. So am I with my name.
    Mr. Chaffetz. Is there any doubt in your mind about the 40? 
We keep talking about the 41 trophies that were taken in my 
opinion legally. Would you dispute? Are they taken legally or 
illegally in your mind?
    Mr. Markarian. Well, I think the issue for us, Congressman, 
is whether----
    Mr. Chaffetz. It is just a yes/no question.
    Mr. Markarian. If they were taken legally in Canada, that 
doesn't mean they can be legally imported into the U.S.
    Mr. Chaffetz. OK. The question was whether they were taken 
legally under U.S. law, yes or no? My understanding is the 
answer is yes. Is there anything to refute that?
    Mr. Markarian. Under Canadian law. these were legally 
hunted bears in Canada.
    Mr. Chaffetz. Mr. Crystal? Same question.
    Mr. Crystal. Yes. The answer to your question is yes, and 
that is true today as well. A polar bear is killed today in 
Canada. The killing of the polar bear does not violate U.S. 
law.
    The import is the only restriction that we have that 
enables us to impact the treatment of polar bears in Canada. 
That is as true today as it was before the listing.
    Mr. Chaffetz. We are talking about polar bears that were 
taken before the enactment on May 15, 2008, because I think the 
legislation is very clear on page 2, line 17, with legally 
harvested by the person before May 15, 2008, and it goes on 
from there.
    What in your mind do you suggest we do with polar bears 
that were taken before that date while it was still legal based 
on U.S. law? What would you suggest we do with the trophies 
that are currently out there?
    Mr. Markarian. Congressman, I think the issue is that----
    Mr. Chaffetz. No, no. I am asking you the question and the 
issue. Don't change my question. I want you to answer my 
question.
    Mr. Markarian. What should we do with the trophies? The 
hunters who took those bears did so at their on risk. Those 
trophies are in storage.
    Mr. Chaffetz. Wait a minute. I am asking you about the 
existing trophies that are here in the United States. My 
understanding is that the Fish and Wildlife Service has polar 
bear trophies on display in their offices and whatnot. Do you 
think that is inappropriate?
    Mr. Crystal. The import of course of the polar bear, which 
is the question we are asking----
    Mr. Chaffetz. No. The question I am asking is the existing 
trophies. Do you think it is inappropriate for them to be on 
display?
    Mr. Crystal. I have no view one way or the other about 
whether it is inappropriate for them to be on display. I am 
sure that there is some permit associated with it. There are 
permits that one can obtain for both display and for import.
    But with regard to your question, though, to answer your 
question about the legal killing of the bears before the 
listing, again the key fact is the listing of the polar bear 
did not make killing bears in Canada illegal.
    Mr. Chaffetz. I understand that. I am trying to deal with--
--
    Mr. Crystal. It made the import illegal, which is the 
question here today.
    Mr. Chaffetz. Well, the question here today is what do we 
do with the gentleman as nice as Mr. Oerter here in being able 
to bring that trophy home; personal property of his and being 
able to bring that back to the United States.
    Mr. Crystal. I understand.
    Mr. Chaffetz. He paid for it. It was legal. It was lawful. 
I see no reason to stop doing that other than what you believe 
is a higher moral ground that you think you are on in trying to 
say no, no, no. We should cut that off immediately. I find that 
to be terribly unfair and selfish on your part.
    Mr. Crystal. Well, I think it is no different again from a 
hunter who goes today. Right now, there is a hunter in Canada--
there may be--who is killing a polar bear.
    Mr. Chaffetz. No. They are separate. They are different. 
No. I am talking about before May 15. You are changing dates on 
me.
    Mr. Crystal. Because the question from a fairness 
perspective as you are suggesting is because it is legal the 
import should be allowed, but what became illegal was the 
import of polar bears, and the question of whether the polar 
bear is threatened----
    Mr. Chaffetz. But the core question----
    Mr. Crystal.--or whether imports should be allowed is still 
pending in litigation.
    Mr. Chaffetz. The core question is what happened to those 
who legally brought permits under the law dealing with a date 
before May 15, 2008?
    Mr. Crystal. I understand. The answer to your question 
again, our view is that there should be a bright line rule. The 
date of the listing is the date it became defeated under the 
MMPA. Imports should be prohibited whether the bear was killed 
before or after. That should be the rule.
    Mr. Chaffetz. And I guess we simply disagree. I think 
trying to do so with some sort of moral authority is very 
selfish on your part. You have somebody who has legally, 
lawfully obtained something. It is their personal property.
    We have polar bears that are on display. I asked you 
earlier. Do you think that there is something wrong with polar 
bears that were killed at whatever point? Do you think it is 
wrong to have those on display? You are indifferent to that.
    Mr. Markarian. Congressman, if I may address your question 
of fairness briefly? You know, what about the fairness to the 
112 hunters who imported their trophies in 2007 because they 
did it right? They knew this was a potential listing coming 
down the pike. They sped up the process. They did what they 
were expected to do. They got in early.
    Why should we now change the rules and weaken the Marine 
Mammal Protection Act and the Endangered Species Act for a few 
people who didn't plan in advance?
    Mr. Chaffetz. Again, Madam Chair, just let me conclude on 
this thought. I know my time is up. Those permits are spread 
out over a course of time. They are not all just done in one 
big block.
    At the end of the day, thank you for your service, Mr. 
Oerter. I do hope that this legislation can right a wrong and 
allow the importation of these trophies that were taken in a 
very legal way with good intentioned Americans who were doing 
all the right things.
    Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentleman from Utah, and now I 
would like to recognize Mr. Broun, the gentleman from Georgia.
    Mr. Broun. Madam Chairwoman, I thank you and I thank the 
Committee for allowing me to come here to this hearing. I have 
a particular interest in this, Madam Chairwoman and Members of 
the Committee, because I was the Government Affairs Vice 
President of Safari Club International for a number of years, 
and if I could I would like unanimous consent that my opening 
statement be placed in the record.
    Ms. Bordallo. No objection. So ordered.
    [The prepared statement of Mr. Broun follows:]

Statement of The Honorable Paul C. Broun, a Representative in Congress 
                       from the State of Georgia

    Thank you, Chairwoman Bordallo and Ranking Member Brown for holding 
this important hearing today and allowing me to appear before this 
subcommittee. I appreciate the opportunity to hear testimony and ask 
questions from the witnesses today.
    I first became active in politics when I served as a volunteer 
advocate for Safari Club International, the world's largest pro-hunting 
and conservation organization. (Personalize welcome to Dr. Moritz from 
SCI). I also served for several years as the President of the Georgia 
Sport Shooting Association (the NRA state affiliate).
    I am an avid hunter. Safari Club International, The National Rifle 
Association, and Gun Owners of America are just some of the numerous 
sporting associations that I am a Life Member of. A full-body-mounted 
African lion and Kodiak grizzly bear are just a few of my prized 
trophies that visitors see when they come to my DC office.
    On May 15, 2008 Secretary Dirk Kempthorne declared polar bears 
threatened, or likely to become endangered in the future. U.S. Fish and 
Wildlife Service withdrew authorization to import hides from Polar 
bears killed in approved populations in Canada. Unfortunately, this 
included those already killed and awaiting a taxidermist mount.
    There are currently 41 trophies that were taken legally, prior to 
the May 2008 ESA listing. As a hunter, I know these hunts can cost 
close to $50,000. But this issue has nothing to do with hunting. It's a 
simple matter of returning property that was taken by wrongheaded 
regulatory action.
    The 41 polar bears that have been killed and are sitting in storage 
in Canada are not going to come back to life if the current ban stays 
in place. H.R. 1054 provides a reasonable grace period for hunters to 
arrange the importation of their trophies. Allowing these polar bear 
trophies to be imported will also bring in $40,000 of conservation 
money for the U.S.-Russia polar bear population.
    I am a proud co-sponsor of H.R. 1054 and thank Mr. Young for 
introducing this legislation. I'm just upset that I didn't think to 
introduce it first.
    Chairwoman Bordallo, thank you for calling this hearing. I look 
forward to hearing from our witnesses.
                                 ______
                                 
    Mr. Broun. Thank you, Madam Chair. Madam Chair, I worked on 
this issue for a number of years as the Government Affairs Vice 
President of Safari Club International before it finally got 
the change in the law in the Marine Mammal Protection Act and 
so this is something I worked on for a number of years, and I 
thank Dr. Moritz for his continued work in that regard and Dr. 
J.Y. Jones who furthered my work and finally got this listing 
changed in the Marine Mammal Protection Act.
    I have a number of questions that I would like to submit 
for the record if I could and ask for a written response from 
all the people.
    Ms. Bordallo. No objection. So ordered.
    Mr. Broun. OK. Thank you, Madam Chairwoman. I want to make 
a couple of statements.
    Number one is, Mr. Crystal and Mr. however you pronounce 
it. Sir, how do you pronounce your name?
    Mr. Markarian. Markarian.
    Mr. Broun. Markarian. I think it is quite evident to me and 
to all the Members here and anybody that is hearing this 
testimony that you are adamantly trying to stop hunting period, 
and that has been the Humane Society of the U.S.'s objective is 
to stop hunting and fishing. You all are trying very hard to 
promote that philosophy.
    The Major obtained a bear permit in a legal manner. He 
hunted in a legal manner in Canada. He had permission from our 
government to import that bear. Even though hunters--not only 
the Major, but other hunters--were informed there may be a 
change in the listing, you want to just be able to say there is 
a possible change and you want to stop hunting through that.
    By just filing a suit in Court, you want to stop hunting 
for all species by anybody except for subsistence hunters in 
Alaska and Canada, and that is totally wrong and is deplorable 
as far as I am concerned. You are utilizing the Courts to 
promote your agenda, which is to stop hunting and fishing. I 
think it is deplorable. You ought to be ashamed of yourselves 
for that, but I have a question to ask you.
    Mr. Markarian. Would you like a response?
    Mr. Broun. I want to go back to what Congressman Chaffetz 
was saying because neither one of you all have answered the 
question that he asked you, and I am going to ask you the same 
question.
    Before I ask the question, I want to say this. The Major 
and the other 40 people who obtained permits had a legal right 
up until May 15 to import those bears. Yes or no? Is that 
correct?
    Mr. Markarian. Congressman, can I----
    Mr. Broun. Yes or no?
    Mr. Markarian. Can I address your question about hunting?
    Mr. Broun. No, sir. Yes or no?
    Mr. Markarian. Because your----
    Mr. Broun. I have very limited time.
    Mr. Markarian. Congressman?
    Mr. Broun. Yes or no. Did they have a legal right up until 
May 15 to import those bears?
    Mr. Markarian. They had a legal right to take their own 
risk, to spend their own money.
    Mr. Broun. No, sir. Yes or no?
    Mr. Markarian. No.
    Mr. Broun. Did they have a legal right to import that bear 
prior to May 15?
    Mr. Markarian. They knew what was coming.
    Mr. Broun. No, sir. You are not answering my question. You 
did not answer Mr. Chaffetz's question. Yes or no? Did they 
have a legal right under U.S. law to import that bear up until 
May 15?
    Mr. Markarian. If they would have done it before May 15, 
which is what most hunters did. These guys did not plan 
properly.
    Mr. Broun. Well, the answer is yes. Is that correct?
    Dr. Crystal. If they had obtained a permit.
    Mr. Broun. They had the permit.
    Dr. Crystal. If they had obtained a permit.
    Mr. Broun. They had a permit to hunt the bear.
    Dr. Crystal. They didn't need a permit from the U.S. to 
hunt the bear. They needed a permit to import the bear.
    Mr. Broun. I know that.
    Dr. Crystal. They didn't have the permit before the 
listing.
    Mr. Broun. But they went through the Office of Scientific 
Authority to get the permit to import it.
    Dr. Crystal. That is correct.
    Mr. Broun. And it was legal up until May 15, and so the 
lawsuit that has been filed and the immediate closure of 
importation is a taking of their lawful, rightful property. Is 
that not correct?
    Mr. Crystal. That is not correct.
    Mr. Broun. It is correct.
    Mr. Crystal. Because the Humane Society is not a plaintiff 
in any lawsuit about the polar bear. The Humane Society is an 
intervenor defending lawsuits that have been brought by sport 
hunting groups who are raising the very issue that is before 
this Committee today. They are asking the Court to make a 
judicial determination to allow them to import polar bears. So 
you say it is shameful that we are bringing lawsuits to try and 
stop hunting, but we are not plaintiffs in lawsuits.
    Mr. Broun. No, sir. What I think is shameful is that you 
are using the Courts to further your philosophy of anti-hunting 
and anti-fishing, and that is what is shameful.
    Mr. Crystal. In the Courts we are defending the Fish and 
Wildlife Service's determination under the Bush Administration.
    Mr. Broun. Sir, it is my time. Please. The other thing is I 
want to go back to what Congressman Young said. I have been 
involved in wildlife management practices all over the world, 
and I just want to say for the record if we give a value to 
wildlife what happens is it stops the poaching, it stops the 
indiscriminate use of those species.
    I have worked on that for sheep in China, wild sheep, for 
wild sheep in Pakistan. It has worked in Africa, particularly 
in Namibia for elephant. By giving a value to the locals where 
they receive monetary value, some economic benefit from 
protecting those species, then the species are protected. They 
flourish and do much better. Stopping hunting is actually 
adverse to the species and causes the species to be 
indiscriminately killed by the locals.
    So U.S. Fish and Wildlife policy that stopped our practices 
in Pakistan and China that we were establishing has been 
adverse to the species and has harmed the species, and it is 
something that we have to change. We have to change that 
philosophy, Dr. Gould. Dr. Gould. I apologize, Doctor. I am a 
physician. I am called Mr., and so I apologize.
    But the thing is we have to look at proper management 
practices to help the species, and you guys with the Humane 
Society U.S., you all are doing everything to stop hunting and 
fishing, which is adverse and it is going to harm the species 
long term. I think that is deplorable. You are not looking at 
things in a wildlife management perspective and what is good 
for the species.
    With that, Madam Chair, my time is up and I appreciate your 
forbearance. Thank you, ma'am.
    Ms. Bordallo. I thank the gentleman from Georgia.
    I have a couple of quick questions here for this first 
panel. To you, Dr. Gould, you also testified that the 
permitting process can take between 50 and 90 days. Given that 
timeline, how many of the pending applications could have been 
approved with an extra 30 days?
    Dr. Gould. We don't know for sure obviously because you 
have to get corroborative documentation from Canada, but if 
everything is smoothly obtained and provided we could have 
provided all of those permit applications probably within that 
timeframe as long as they were able to provide the information 
that was required.
    Ms. Bordallo. All right, Doctor. I have a follow up 
question. For instance, would permit applications submitted 
after April 28, the date that the Court required you to make a 
final decision by May 15, have had enough time to be approved? 
Yes or no?
    Dr. Gould. The answer is likely no.
    Ms. Bordallo. All right. All right. Both you and Mr. 
Markarian stated that allowing these imports will set bad 
precedents and provide incentives for more bears to be killed 
despite the ESA listing and the MMPA designation as depleted. 
Can you elaborate on this particularly in light of the many 
pending lawsuits? Mr. Crystal?
    Mr. Crystal. Thank you, Madam Chairwoman. Again, the 
lawsuits challenge whether the species should have been listed 
as a threatened species, and I think that part has been 
overlooked a little bit here today because the Fish and 
Wildlife Service again in the prior Administration made a 
determination that the polar bear's conservation status is such 
that it should be designated as a threatened species in Canada 
and throughout the rest of this range.
    So, the concern is that if despite the listing, and as a 
result of which there is an import ban, the United States is, 
nonetheless, continuing to allow the import of polar bear 
trophies whenever the polar bear was killed, that sends a 
terrible signal to our conservation partners about our views 
about how polar bears should be treated, and it sets a terrible 
precedent because it opens the door to the same argument.
    Again, the principal argument we have heard today is the 
polar bears are already dead. It makes no difference whether we 
allow them in. But that is just as true for polar bears that 
were killed before the listing as it is for polar bears that 
were killed yesterday, so it does set a terrible precedent in 
that regard.
    Ms. Bordallo. I thank you very much for your answer to that 
question, and now I would like to recognize the Ranking Member, 
Mr. Wittman, for any questions he may have.
    Mr. Wittman. Thank you, Madam Chairwoman. I am going to 
yield my time to the gentleman from Georgia.
    Mr. Broun. I thank the gentleman for yielding. I just want 
to make a comment, and then I will yield the time back to Mr. 
Wittman.
    If we look at Kenya, they stopped all hunting for big game 
in Kenya. We have had more poaching, we have had more 
decimation of the animals in that country with no hunting than 
we did when there was value placed on all these animals. So the 
philosophy that Humane Society U.S. has of stopping hunting is 
not a conservation issue. It is a protectionist issue because 
of your perverse idea that hunting is bad for animals. It is 
not. Actually hunting helps animals.
    The conservation community, which I have spent literally 
thousands of my personal dollars in contributing and belonging 
to various organizations like Safari Club International and 
many others. The hunter is the only individual who puts their 
money where their mouth is and actually helps promote the 
species, promote good, healthy species and does what is 
necessary in true conservation.
    Protectionist organizations like HSUS and others actually 
harm species, and your philosophy of anti-hunting is totally 
going to long-term be disastrous to species all over this 
world. I feel very firmly about that. There is scientific 
evidence that my statement is factual.
    With that, Mr. Wittman, I thank you.
    Mr. Markarian. Congressman, I would like to respond to 
those points about the Humane Society.
    Mr. Wittman. I thank the gentleman from Georgia. Madam 
Chairwoman, I yield back the balance of my time.
    Ms. Bordallo. All right. Thank you very much. Before 
dismissing any of the members of the first panel, I just want 
to let you know that the Members will likely have a few more 
questions for the record. If you want to answer the gentleman, 
you can also place that on the record, in a timely manner. I 
would request that you answer any of their questions.
    All right. I want to thank you all very much for appearing 
before the Committee this morning. Thank you for your time and 
I thank the gentleman for serving in the Air Force for so many 
years. Thank you for your service to our country.
    And now I would like to recognize the second panel. Our 
witnesses on the second panel include Mr. Paul Schmidt, 
Assistant Director, Migratory Birds, United States Fish and 
Wildlife Service; Mr. Scott A. Sutherland, Director of the 
Governmental Affairs Office----
    Could I have order, please, in the room? Would you kindly 
take your conversations out in the hall, please? We have not 
concluded this hearing.
    All right. Our witnesses on the second panel, Mr. Paul 
Schmidt, Assistant Director, Migratory Birds, United States 
Fish and Wildlife Service; Mr. Scott A. Sutherland, Director of 
the Governmental Affairs Office, Ducks Unlimited; Mr. Michael 
Daulton, Legislative Director, National Audubon Society; Mr. 
Darin Schroeder, Vice President of Conservation Advocacy, 
American Bird Conservancy; and Ms. Lisa Cutchin, a teacher from 
the St. John Regional Catholic School in Maryland.
    I would like to thank the witnesses on the second panel. I 
thank you for your time and for coming here to testify before 
the Subcommittee.
    I would like to welcome Mr. Schmidt and thank him for 
appearing before the Subcommittee. As I mentioned for the 
previous panel, the red timing light on the table will indicate 
when your time has concluded.
    Be assured that your full written statement will be 
included into the record, so if you can consolidate your 
statement into five minutes or less we would appreciate it. 
Thank you very much. Dr. Schmidt, you can proceed.

STATEMENT OF PAUL SCHMIDT, ASSISTANT DIRECTOR, MIGRATORY BIRDS, 
                 U.S. FISH AND WILDLIFE SERVICE

    Mr. Schmidt. Thank you and good morning, Madam Chairwoman 
and Mr. Wittman. Thanks for the opportunity----
    Ms. Bordallo. Kindly close the door, please. Thank you.
    Mr. Schmidt. Thank you. Thanks for the opportunity to 
present the Service's views on these three important pieces of 
legislation. They are important to bird conservation and our 
efforts to inspire environmental stewards in our youth, and to 
build partnerships that are necessary for successful protection 
and conservation of migratory bird populations and their 
habitats.
    The Service supports H.R. 3537 reauthorizing the Junior 
Duck Stamp Program through 2015. This program is one of this 
nation's most successful government-sponsored environmental 
education and conservation programs. First authorized in 1994, 
the program continues to build strong partnerships with schools 
and young educational programs using proceeds from the stamp 
sales to provide materials and other support for environmental 
education.
    In addition to the annual contest held to select art 
featured on the stamp, the program features a science and art-
based curriculum designed to help teach wildlife and wetland 
conservation principles in grade schools across this country. 
In 2009, nearly 30,000 students throughout the country, 
including Washington, D.C. and our U.S. territories, submitted 
artwork to the contest and participated in the curriculum.
    The Service particularly supports this proposed 
streamlining in the legislation in requiring the reporting back 
to the Congress and the provision of the Secretary to have 
discretion to disburse funds where they are needed most. We 
want to thank Representative Ortiz for his leadership 
throughout this program's history and the support he has given 
to the Junior Duck Stamp Program.
    H.R. 2213 reauthorizes the Neotropical Migratory Bird 
Conservation Fund, also supported by the Fish and Wildlife 
Service. It would increase and extend authorizing 
appropriations through Fiscal Year 2015. In authorizing the 
Neotropical Migratory Bird Conservation Act in 2000, Congress 
provided a mechanism for coordinating and funding conservation 
of neotropical migratory birds and their habitats throughout 
Latin America, the Caribbean and North America.
    Modeled after other international programs, including the 
Multi-National Species Conservation Funds and the North 
American Wetlands Conservation Fund, the Act has recognized the 
need for international cooperation in these conservation 
efforts and established an effective and targeted matching 
grant program.
    Since receiving appropriations in Fiscal Year 2002, the 
program has made significant conservation progress. We have 
funded 296 projects throughout the United States, Latin America 
and the Caribbean with more than $30 million. In Fiscal Year 
2009, 124 grant proposals were received. We were able to fund 
36 of those proposals.
    While the statute currently requires a three to one match 
for all grant requests, meaning that partners must come up with 
$3 for every Federal dollar, they have contributed $135 million 
in matching funds, representing more than a three to one--in 
fact, a four to one--match.
    H.R. 2213 would allow the continuation of the very positive 
work already accomplished by this program, encourage more 
partners across the Western Hemisphere, leverage more dollars 
for conservation, complete more projects to benefit migratory 
birds that nest, winter and migrate through the United States.
    And finally H.R. 3413, which would amend the North American 
Wetlands Conservation Act to allow funds from Canada to count 
as nonFederal match for Canadian projects. Currently only U.S. 
funds can be considered as this nonFederal match for Canadian 
habitat projects under the Wetlands Act, limiting the number 
and scope of habitat projects in one of the most crucial 
habitats, the Prairie Pothole Region, which supports the vast 
majority of our nesting waterfowl that migrate to the United 
States.
    The North American Wetlands Conservation Act grants have 
been internationally recognized as a success story and support 
our partnership throughout this continent. Since 1990, 
thousands of partners have been involved in the Wetlands Act. 
In fact, almost 2,000 grant projects have been conducted and 
accomplished. More than a billion dollars in U.S. funds have 
been used in this program to leverage more than $2 billion 
private or state dollars for this program, delivering 25.5 
million acres of wetlands conservation throughout the country 
and beyond.
    The Service's Migratory Bird Program has two primary goals: 
1) To conserve and sustain healthy migratory bird populations 
and their habitats; and 2) To ensure the citizens of the United 
States continue to have opportunities to enjoy migratory birds.
    These three bills build upon, refine and enhance our 
current authorities to achieve our goals. We truly appreciate 
the leadership in this Committee relative to these three bills 
and the work you have done to date and look forward to 
answering any questions you might have. Thank you.
    [The prepared statement of Mr. Schmidt follows:]

 Statement of Paul R. Schmidt, Assistant Director for Migratory Birds, 
  U.S. Fish and Wildlife Service, U.S. Department of the Interior, on 
     H.R. 3537, Junior Duck Stamp Conservation and Design Program 
   Reauthorization Act of 2009; H.R. 2213, a Bill to Reauthorize the 
 Neotropical Migratory Bird Conservation Act; and H.R. 3433, a Bill to 
           Amend the North American Wetlands Conservation Act

    Chairwoman Bordallo, Ranking Member Brown, and Members of the 
Subcommittee, I am Paul Schmidt, Assistant Director for Migratory Birds 
for the U.S. Fish and Wildlife Service (Service). I appreciate the 
opportunity to appear before the Subcommittee today to testify on 
behalf of the Department of the Interior on three important pieces of 
legislation related to migratory birds: H.R. 3537, Junior Duck Stamp 
Conservation and Design Program Reauthorization Act of 2009; H.R. 2213, 
a bill to reauthorize the Neotropical Migratory Bird Conservation Act; 
and H.R. 3433, a bill to amend the North American Wetlands Conservation 
Act. The Department supports all three of these bills and greatly 
appreciates the Subcommittee's continued leadership and support for the 
conservation of the nation's migratory birds.
Introduction
    Migratory birds are among nature's most magnificent natural 
resources, and they play a significant ecological, economic and 
cultural role in the United States and around the globe. Like canaries 
in coal mines, birds are indicators of the health and quality of our 
environment. The Service's Migratory Bird Program has two primary 
goals: (1) to conserve migratory bird populations and their habitats in 
sufficient quantities to prevent them from being considered as 
threatened or endangered and (2) to ensure the citizens of the United 
States continue to have opportunities to enjoy migratory birds and 
their habitats. The Service pursues these goals in concert with a host 
of participating partners, both domestic and foreign. The Service also 
serves as the lead Federal agency responsible for protecting, managing 
and conserving the species of birds covered by four major treaties with 
Canada, Mexico, Russia, and Japan through their implementing 
legislation, the Migratory Bird Treaty Act of 1918.
    Birds are tremendous engines for local economies; each year 
millions of Americans watch birds in their backyards and on National 
Wildlife Refuges, National Parks, National Forests and other federal 
lands, as well as at state and local birding hot spots. In fact, the 
2006 Survey of Fishing, Hunting and Wildlife-Associated Recreation, 
conducted by the U.S. Fish and Wildlife Service in conjunction with the 
Federal census, showed that 48 million Americans watched birds, and 
wildlife watchers generated $122.6 billion in total industrial outputs.
    On March 19, 2009, Secretary Salazar announced the release of the 
State of the Birds 2009 Report, which shows that while a number of 
species are healthy or recovering, many are in decline. This report, a 
partnership product led by the Service and coordinated with the U.S. 
Geological Survey, the American Bird Conservancy, The Nature 
Conservancy, Cornell Lab of Ornithology, the National Audubon Society, 
and many other organizations, is the first of an annual and collective 
effort to monitor the health of our nation's birds, and will help us 
monitor the condition of their environments and the success of our 
conservation efforts. The State of the Birds 2009 Report is a part of 
what the Service envisions as a broader and more collaborative approach 
to conserving birds in order to enhance the protection of their 
habitats while helping these landscapes to be more resilient to climate 
change.
 H.R. 3537, Junior Duck Stamp Conservation and Design Program 
        Reauthorization Act of 2009
    The Federal Junior Duck Stamp Conservation and Design Program 
(Program) was authorized through the Junior Duck Stamp Conservation and 
Design Act of 1994 (Public Law 103-340), which was enacted on October 
6, 1994. The Act authorizes the Secretary of the Interior to carry out 
the Junior Duck Stamp Program, including conducting an annual art 
competition to create a stamp and licensing and marketing the stamp. 
The proceeds from these efforts are used to support conservation 
education programs, awards and scholarships for Junior Duck Stamp 
Program participants.
    In addition to the annual art contest for the design of the Stamp, 
the program features a science and art-based curriculum designed to 
help teach wetland and wildlife conservation principles, engaging 
children from kindergarten through high school by pairing science and 
the arts. The program's goal is to empower and encourage students to 
become conservation stewards who will work to conserve sustainable 
populations of migratory birds and many other wetland-dependent plants 
and animals.
    In 2009, nearly 28,000 students across the United States, including 
the District of Columbia and the territories, entered the contest, and 
thousands more participated in the curriculum. The 2009 national 
winning design of a wood duck entered by a 16-year-old student from 
Toledo, Ohio, now graces the eighteenth Junior Duck Stamp. In 2008, 
Junior Duck Stamp sales raised more than $172,000 for awards, 
environmental education activities throughout the U.S. and its 
territories, and Junior Duck Stamp marketing materials.
    H.R. 3537, reauthorizes the program, increases authorization for 
appropriations to $500,000 per year, removes limitations on the use of 
funds for administrative expenses and amends the Program's reporting 
requirements. The Department supports H.R. 3537 as it would enable the 
Service to more effectively implement the Junior Duck Stamp Program.
 H.R. 2213, The Neotropical Migratory Bird Conservation Act
    Through bilateral treaties with Canada, Mexico, Japan and Russia, 
and the Migratory Bird Treaty Act, the Service has responsibility for 
maintaining healthy populations of hundreds of native migratory birds, 
including 341 species that migrate from or through the United States to 
Latin America and the Caribbean and are covered by the Neotropical 
Migratory Bird Conservation Act.
    Migratory birds help control agricultural pests, pollinate many 
commercially valuable plants and provide bird-related recreational 
opportunities for millions of people. Unfortunately, many migratory 
bird species are declining as a result of habitat loss and degradation, 
particularly in the Caribbean and Latin America. The fact that many, if 
not most, neotropical migratory bird species have ``two homes''--the 
United States and a Caribbean or Latin American country--increases the 
challenges associated with conserving them.
    In authorizing the Neotropical Migratory Bird Conservation Act in 
2000, Congress provided a mechanism for coordinating and funding the 
conservation of neotropical migratory birds and their habitats 
throughout Latin America, the Caribbean and North America. Modeled 
after other international conservation programs including the 
Multinational Species Conservation Funds and the North American Wetland 
Conservation Act grants program, the Act recognized the need for 
international cooperation in these conservation efforts and established 
an effective and targeted matching grant program. The Service strives 
to implement the Act as a complement to other programs that seek to 
protect and restore neotropical migratory bird habitat in the United 
States.
    Administered by the Service's Migratory Bird Program, grants are 
awarded for projects that promote the long-term conservation of 
migratory birds through partnership. These projects protect and manage 
bird habitat, conduct research and monitoring, support law enforcement, 
and provide education and outreach.
    Since receiving appropriations in FY 2002, the Service has funded 
296 projects, throughout the United States, Latin America and Caribbean 
with more than $30 million. In FY 2009, 124 grant proposals were 
received and 36 were funded. While the statute currently requires a 3:1 
match for all grant requests, partners have contributed nearly $135 
million in matching funds, representing a match ratio of more than 4:1. 
As a result, the program has achieved significant on-the-ground 
results, including restoring island bird species in the Caribbean, 
protecting and reforesting 8,000 acres of wintering habitat for 
Neotropical migrants in Colombia, Ecuador and Peru, and studying the 
effects of bison on bird habitat diversity. The Neotropical Migratory 
Bird Conservation Act is helping the United States and our 
international partners address the threats to neotropical migratory 
birds and reduce the likelihood that they will need the protection of 
the Endangered Species Act.
    The Department supports H.R. 2213 to reauthorize the Neotropical 
Migratory Bird Conservation Act.
 H.R. 3433, A Bill To Amend the North American Wetlands Conservation 
        Act
    The North American Wetlands Conservation Act (NAWCA) is an 
internationally recognized conservation program that supports 
partnerships to conserve waterfowl and other wetland-associated 
migratory birds. Since 1990, more than 11,500 partners have been 
involved in 1,946 NAWCA grant projects. More than $1billion in grants 
has leveraged more than $2 billion in matching funds to affect 
approximately 25.5 million acres of wetlands and associated uplands 
across the continent.
    H.R. 3433 would amend NAWCA to allow up to 50 percent of the 
required ``non-federal'' match for projects in Canada to be composed of 
Canadian funds. Under current law, all such funds must be from U.S. 
sources, and Canadian funds contributed to NAWCA projects cannot be 
counted as part of the ``non-federal'' match. If this measure were 
enacted, Canadian projects would be able to reach their non-federal 
funding requirements.
    The Department supports H.R. 3433 and its proposed change to NAWCA 
as long as at least 50 percent of the ``non-federal match'' would still 
come from United States sources. The change in this historic 
conservation statute would better acknowledge the importance of the 
U.S. partnership with Canada and would be more consistent with the non-
U.S. funding match that is already allowed for Mexican NAWCA projects.
    NAWCA grants act as catalysts in bringing together partnerships to 
support wetland projects and leverage non-federal funding. Grants have 
brought together partners as diverse as conservation organizations; 
federal, state and local government agencies; and private industry, and 
thousands of private landowners. Partners have carried out projects in 
all 50 U.S. states, 12 Canadian provinces and territories, and 23 
Mexican states.
 Conclusion
    Protecting and conserving migratory birds is one of the primary 
public trusts held by the Service. The three programs being considered 
today have all greatly improved the Service's ability to meet our 
mission. The Junior Duck Stamp Program has enabled the Service to 
educate and encourage young Americans to step up to the plate as 
conservation stewards. The Neotropical Migratory Bird Conservation Act 
and the North American Wetlands Conservation Act have greatly enhanced 
our ability to protect birds and their habitat for future generations.
    We greatly appreciate your leadership, Chairwoman Bordallo and 
Ranking Member Brown, in enhancing and refining our statutory 
authorities to conduct this important work. We look forward to 
continuing to work with you to ensure that the diversity and health of 
the nation's native bird species are sustained.
                                 ______
                                 

    Response to questions submitted for the record by Paul Schmidt, 
                     U.S. Fish and Wildlife Service

Questions from The Honorable Henry E. Brown, Jr. (R-SC)
H.R. 2213:
1.  What are the major threats facing neotropical migratory birds? How 
        many neotropical migrants are currently listed on our 
        Endangered Species Act?
    The predominant threat to neotropical migratory birds is habitat 
loss and fragmentation in both migration stopover and wintering areas 
south of the U.S. border, and in breeding areas within the U.S. and 
Canada. Other major threats to these birds include predation from 
introduced animals; exposure to heavy metals and toxic chemicals; and 
collisions with communication towers, power lines and buildings.
    The populations of over a hundred migratory birds are declining 
within our hemisphere, some severely. Nine species are listed as 
endangered under the Endangered Species Act. An additional seven bird 
species are targeted by the Service as focal species and 121 are on the 
Service list of birds of conservation concern. Eleven of the 20 birds 
on Audubon's ``List of the Top 20 Birds in Decline'' are long-distance 
migrants that benefit from grants provided through the Neotropical 
Migratory Bird Conservation Act.
2.  The Fish and Wildlife Service has approved 296 of the 1,157 
        projects submitted to conserve neotropical migratory birds. 
        This represents about 25 percent of the overall total. What 
        distinguishes the approved projects from those that did not 
        obtain funding? Was it lack of sufficient federal resources or 
        what about other factors?
    Neotropical Migratory Bird Conservation Act (NMBCA) project 
proposals are evaluated, ranked and recommended by a review panel of 
Federal and State natural resource professionals with experience in 
bird conservation in the U.S., the Caribbean, and Latin America. Funded 
projects are those that make the best case for conservation activities 
during any grant cycle. Applicants' proposals usually involve working 
with priority species or habitats, studying important natural resource 
management-related issue, or providing a particularly high conservation 
value relative to the estimated cost. Other factors considered during 
the project selection process include habitat and population 
sustainability, threats to natural resources within the project area, 
and coordination among public and private organizations.
    The Service funds those projects submitted each year that have the 
best ability to meet the goals of the NMBCA within available funding.
3.  For the past five years, Congress has appropriated about $10 
        million dollars total for African and Asian elephants, rhinos, 
        tigers, Great Apes and marine sea turtles. In recent years, 
        neotropical birds has received about $5 million per year or 50 
        percent of the total amount appropriated. Since it is unlikely 
        that this overall figure will be dramatically increased in the 
        short-term, what is the justification for increasing the 
        authorization level for neotropical birds from $6 million in 
        FY'09 to $20 million in FY'15?
    Under the current authorization the Service funds as many of the 
highest priority neotropical migratory bird conservation projects as 
possible. In FY 2009, 124 grant proposals were received and 36 were 
funded. We recognize that it is likely we will not request the 
authorization ceiling amount proposed. Increasing the authorization 
ceiling does not require us to request that amount. Rather, it allows 
us the flexibility to request amounts higher than the current ceiling 
within our overall allocation as we examine Service priorities.
    Neotropical migratory birds encompass 345 species that either breed 
or migrate through the U.S. on their way north and then winter in Latin 
America or the Caribbean. Neotropical migratory birds are especially 
important because they reflect environmental conditions not just in the 
U.S. but across their migratory range. The same factors that make these 
birds important indicators of environmental health also make them more 
difficult to manage. Adequate breeding, wintering, stopover habitat, 
and environmental conditions must be available and this involves the 
active involvement of local resource managers and land owners as well 
as coordination and cooperation with governments and conservationists 
across the Western Hemisphere. Neotropical Migratory Bird Conservation 
Act funds can support local efforts in other countries while ensuring 
that the welfare of our birds is taken into account by local resource 
managers. Such funds also increase collaboration among scientists and 
managers searching for the best ways to manage these border-crossing 
species in an increasingly complex world.
    In FY 2010 Congress appropriated $5 million for the Neotropical 
Migratory Bird Conservation fund and $11.5 million for the 
Multinational Species account. Over the past 5 years (FY2006 - FY2010) 
the Multinational species account which covers those species listed 
above has grown from $6.4 million to $11.5 million, an increase of 
eighty percent (80%). Over the same period the Neotropical Migratory 
Bird Conservation fund has grown from $3.9 million to $5 million, a 
twenty-seven percent (27%) increase.
4.  One of the most endangered of all neotropical migratory birds is 
        the sandhill crane. Has the Fish and Wildlife Service reviewed 
        and funded any grant proposals to assist sandhill cranes, and 
        if so, what was the outcome of that conservation effort?
    At least seven funded projects totaling $1,176,301 of Neotropical 
Migratory Bird Conservation Act funds identified sandhill cranes as 
occurring within the project area and/or included them as a species 
that would benefit from the proposed project activities. These projects 
support a variety of landscape conservation measures, as well as 
promote neotropical bird conservation education, research and 
monitoring. A few examples of conservation outcomes benefitting 
sandhill cranes and other migratory birds includes:
    <bullet>  acquisition of approximately 750 acres of bird habitat in 
the Central Wisconsin Grasslands Conservation Area;
    <bullet>  restoration of approximately 249 acres of public 
grassland in Illinois, enhancement and management of critical pine/oak 
barrens grasslands in northwest Wisconsin;
    <bullet>  35-year protection of more than 70,000 acres of bird 
habitat in the Mapimi Biosphere Reserve in Coahuila, Mexico,
    <bullet>  Mexico, restoration of 20,000 acres of grassland in Nuevo 
Leon;
    <bullet>  establishment of two Grassland Bird Conservation Areas in 
the Chicago region; and
    <bullet>  acquisition of approximately 800 acres of high priority 
grassland and riparian habitat on Montana's Rocky Mountain Front.
5.  How much money does the Fish and Wildlife Service spend each year 
        to administer the Neotropical Migratory Bird Conservation 
        Account? Is this a sufficient amount to meet the administrative 
        expenses?
    By statute the amount of administrative funds available to the 
Service for this program is equal to 3% of the total NMBCA 
appropriation or $150,000, whichever is greater. The Service uses all 
of these funds each year.
    Administrative expenses for the program include the salary costs 
for Service personnel necessary for project administration, records 
management, database costs, travel associated with project monitoring 
and outreach, and the support needed for the NMBCA Advisory Group. In 
general, the administrative funds available each year are supplemented 
by other discretionary funding in the Service's migratory bird program.
H.R. 3537:
1.  Since the creation of the Junior Duck Stamp Program, how many 
        stamps have been purchased?
    The program was started in 1994; however, we only have complete 
records beginning in 1996 to April 2010. During that time, the Service 
has sold 237,285 Junior Duck Stamps.
2.  How much money has Congress appropriated for the Junior Duck Stamp 
        Program prior to this fiscal year? How much money did the 
        Administration request in FY'10? How will these appropriated 
        funds be used?
    Prior to FY 2010, the Junior Duck Stamp Program had never received 
a specific appropriation from Congress, although it is authorized to 
receive $350,000 per year. In FY 2010, the Administration requested and 
Congress provided $250,000 specifically for the Junior Duck Stamp 
Program.
    In FY 2010, we are using part of the $250,000 appropriation to 
update the Junior Duck Stamp environmental education curriculum, which 
will incorporate the latest scientific and wildlife management 
principles, as well as address issues such as multi-cultural 
differences, special requirements of home-schooling and possible use by 
after-school and community-based programs. We are also incorporating a 
new wildlife careers component into the program, designed to cultivate 
the next generation of wildlife professionals and stewards.
    In addition, appropriated funds will allow the program to support 
the National Junior Duck Stamp Coordinator and better assist our 
regional partners as they work to ensure the Junior Duck Stamp Program 
is available to all American schoolchildren. With this improved support 
and coordination, we will produce and make more widely available 
outreach tools such as fact sheets, brochures, rack cards, and 
postcards, which will help us to improve participation and address 
other challenges. The FY 2010 appropriation also helps support Junior 
Duck Stamp regional and state coordinators, providing them with the 
resources to visit schools in order to assist and encourage teachers to 
get more involved with the program.
3.  Since the number of students participating in the art contest seems 
        to have remained static for the past five or six years, what 
        additional steps should the agency be taking to encourage 
        greater participation?
    One of Secretary Salazar's top priorities is involving more young 
people in our natural resources programs. To improve the program's 
visibility and get more teachers and children involved, the Service is 
taking the following steps:
    <bullet>  Holding the annual National Junior Duck Stamp Contest at 
different locations around the country to allow more educators and 
students to experience first-hand the result of the program, which is 
the selection of the winning art to grace that year's Junior Duck 
Stamp. The contest has been held at the National Zoological Park in 
Washington, D.C., the San Diego Zoo, and the Smithsonian's National 
Postal Museum. In 2010, the contest will be at the Science Museum of 
Minnesota in St. Paul. Several hundred school children have 
participated in these events.
    <bullet>  Increasing the number and types of venues (such as 
wildlife museums, National Wildlife Refuges, wildlife and outdoor 
recreation festivals) where the Junior Duck Stamp Best of Show art 
entries are exhibited.
    <bullet>  Improving our website and outreach materials to offer 
enhanced support to our regional and state colleagues for their 
outreach efforts. We are also now using social networking to improve 
our outreach and encourage greater participation.
    <bullet>  Initiating a special recognition program as an incentive 
for our volunteers and colleagues and a ``green-ribbon'' awards program 
for educators and their schools.
    The Service is beginning to see the results of our improved efforts 
to increase the visibility of the Junior Duck Stamp Program. We are 
pleased to report the following successes:
    <bullet>  Our Colorado State Coordinator reports increased 
participation from 376 students in FY 2009 to 813 in FY 2010.
    <bullet>  Our Kentucky State Coordinator reports increased 
participation from 198 students in FY 2009 to 1,113 in FY 2010.
    <bullet>  Our Nebraska State Coordinator reports increased 
participation from 653 students in FY 2009 to 901 in FY 2010.
4.  How many schools receive copies of the Curriculum Guide and what 
        outreach efforts has the Fish and Wildlife Service used to 
        inform public and private schools that this program exists?
    Although the Service is unable to estimate how many schools receive 
or are using the current Curriculum Guide, we do know it is used not 
only by public and private school educators but also by home-school 
parents throughout the country. Our national, regional and state 
coordinators are constantly working within their communities to inform 
educators about the program.
    The current Curriculum Guide and all of our other outreach 
materials are now available on our Junior Duck Stamp website, and they 
are continually updated. As we reach out to students and teachers 
through social networking tools and email, new and existing users of 
the Guide will have access to the most updated materials on-line.
5.  What is the current number of Junior Duck Stamp Program 
        Coordinators? Do you have a coordinator for each of the five 
        territories? If not, why not?
    Currently, there are 52 coordinators across the country and 
territories. American Samoa and Puerto Rico do not have coordinators at 
this time, but the Service is in the process of designating individuals 
for these positions. While we do experience some turnover annually as 
people change jobs or relocate, we encourage our regions to identify 
new coordinators and get them integrated into the program as quickly as 
possible.
                                 ______
                                 
    Ms. Bordallo. I thank the gentleman for his statements on 
the three bills. I think you will all be testifying on the 
three bills with the exception of our teacher from Maryland, 
who is going to just be testifying on the one bill.
    I would like at this time to recognize Mr. Scott A. 
Sutherland, Director of the Governmental Affairs Office, Ducks 
Unlimited.

STATEMENT OF SCOTT A. SUTHERLAND, DIRECTOR OF THE GOVERNMENTAL 
                AFFAIRS OFFICE, DUCKS UNLIMITED

    Mr. Sutherland. Thank you, Madam Chairwoman. Your staff and 
you have both remarked as the hearing was getting going that 
time is short, so I am going to respect that as best I can, and 
I am going to try to very briefly summarize my written 
testimony.
    Regarding H.R. 3433, the amendment to the NAWCA bill, we 
are grateful to Congressman Wittman for introducing this 
legislation. We strongly support it. NAWCA is based on a simple 
idea which is implementing the North American Waterfowl 
Management Plan. The biggest and most important thing to know 
about the plan is it recognizes that the waterfowl resource is 
a continental resource. Without Canada, Mexico and the United 
States working together, we cannot sustain and improve 
waterfowl populations in North America. That is the central 
idea.
    NAWCA simply implements that plan from the Federal 
government's perspective. The Federal government puts up the 
seed money. You folks authorized that program. It has worked 
very, very well. Paul Schmidt just talked about some of the 
very impressive numbers NAWCA has delivered in the 20 years it 
has been existent.
    Third point. NAWCA requires match. The law says that it has 
to be a one to one match. As Paul Schmidt mentioned, the match 
has been two to one in terms of what we call matchable dollars 
and in fact three to one when you count in other dollars that 
have come in to programs that are not considered as match.
    No. 4. Mexico can use domestically raised funds as match. 
Canada cannot.
    Point 5. This bill would allow Canadians to contribute to 
the match and have their contributions counted as match.
    That is the whole thing in a nutshell, Madam Chairwoman, 
and we strongly support this bill. It is needed to keep this 
program going, and we hope that you will enact it in a speedy 
way.
    The second piece of legislation is the Neotropical 
Migratory Bird Conservation Act. The program has been existent 
for nine years. It has proved very successful. There is huge 
demand, again as Paul outlined in his testimony. The original 
authorization was relatively small, but Congress wanted to make 
sure that the demand was going to be there, that the partner 
match was going to be there and that it would work. It has.
    We support the reauthorization, and we support raising the 
authorized ceiling to some number significantly above what it 
is right now. The bill as written is very good, and we support 
it.
    Finally, the Junior Duck Stamp Program. Who couldn't like 
this program? The biggest problem with this program is there 
aren't more like it, frankly. We need programs that foster 
interest from young people in getting outdoors, and combining 
art with wildlife is a brilliant idea. It captures an audience 
that may not normally be gravitating toward those kind of 
things, people who are very culturally talented.
    I have to say that I have actually been a judge for this 
contest. I saw how it works up close about a decade ago when I 
served as a judge. It is a wonderful program. We hope you will 
reauthorize it and support it.
    Thank you, ma'am.
    [The prepared statement of Mr. Sutherland follows:]

  Statement of Scott Sutherland, Director of the Governmental Affairs 
  Office, Ducks Unlimited, on H.R. 3433, to Amend the North American 
 Wetlands Conservation Act; H.R. 2213, to Reauthorize the Neotropical 
  Migratory Bird Conservation Act; and H.R. 3537, to Reauthorize the 
     Junior Duck Stamp Conservation and Design Program Act of 2009

    Ducks Unlimited (DU) is pleased to testify before the Natural 
Resources Committee, Subcommittee On Insular Affairs, Oceans And 
Wildlife, regarding three conservation bills: H.R. 3433, to amend the 
North American Wetlands Conservation Act to establish requirements 
regarding payment of the non-Federal share of the costs of wetlands 
conservation projects in Canada; H.R. 2213, to reauthorize the 
Neotropical Migratory Bird Conservation Act; and H.R.3537, to 
reauthorize the Junior Duck Stamp Conservation and Design Program Act 
of 2009.
    I am the Director of the Governmental Affairs Office of Ducks 
Unlimited, a non-profit wetlands conservation organization. In my role 
at DU, I lead a small group of professionals who educate and advocate 
on behalf of federal conservation policy initiatives to benefit the 
waterfowl resource.
H.R. 3433: Amending the North American Wetlands Conservation Act
    I have led DU's efforts to increase funding for federal programs 
that support the North American Waterfowl Management Plan since joining 
DU 19 years ago. I have also worked with the North American Wetlands 
Conservation Act (NAWCA) program since it was started, and assisted the 
work of Congress on four reauthorizations of the Act.
Background:
    One of the key purposes of NAWCA is to support the North American 
Waterfowl Management Plan (NAWMP), which was signed in 1986. The Plan 
is an international agreement between the governments of the U.S., 
Canada and Mexico. It recognizes the continuing loss of habitat and 
resulting declines in waterfowl populations and creates a unified 
continental effort required to restore this valuable resource to long 
term average population levels. NAWMP is a broad framework based on 
biological science that describes the problems facing North America's 
waterfowl. Far more importantly it outlines the scope and goals needed 
to recover and sustain waterfowl populations at a long term average 
level and suggests general strategies and tactics for addressing the 
problems. NAWCA recognizes that waterfowl are a continental resource 
and they depend on a wide geographic range of habitats throughout their 
life cycle. This was an extension of the idea that led to the first 
migratory bird treaty between the U.S. and Canada in 1916.
    Since its enactment in 1989, NAWCA has played an invaluable role in 
wetlands conservation in North America by helping to stimulate local 
partnerships aimed exclusively at habitat conservation for wetland-
dependent species. NAWCA continues to be an extraordinarily popular 
program. We commend Congress for their foresight in creating NAWCA and 
repeatedly taking action to ensure the long-term success of this 
effective program.
    NAWCA has accomplished remarkable success, with projects in all 50 
states, Canada and Mexico. The creation of the program 20 years ago was 
a bipartisan effort and NAWCA has consistently attracted strong 
bipartisan support in Congress. The House members serving on the 
Migratory Bird Conservation Commission are routinely joined by between 
100 and 200 members of the House supporting annual funding for NAWCA. 
Those supporters include many members of this Committee and 
Subcommittee. The level of interest and enthusiasm in Congress for the 
program is a testament to NAWCA's success in fostering public-private 
partnerships in a cost-effective and results-oriented manner.
    NAWCA has also enjoyed consistent support from the Executive 
Branch. President Obama's FY2010 budget proposal envisions full funding 
of the program at $75 million by 2012. NAWCA has been identified as an 
Administration priority to protect America's wetlands. Previous 
Presidents have also strongly supported the program. During his tenure, 
President Bush announced a goal to go beyond the no-net loss of 
wetlands to achieve an overall increase in wetlands each year in the 
United States. NAWCA was identified as a key program to accomplish the 
Bush Administration's goal to restore, improve or protect 3 million 
acres of wetlands over a five-year period. President Obama has now 
called for full funding at the authorized level for the program by FY 
2012. This consistent support by the current and past administrations 
demonstrates how important NAWCA is to the priorities of our nation and 
our neighbors to the north and south.
    Historically, the lower 48 states of the United States have lost 
approximately 53% of their original wetlands. The state of California 
has lost a staggering 91% of its original wetlands and Maryland wetland 
loss is 73%. While NAWCA is helping to slow this trend of wetland loss, 
the United States continues to lose more than 80,000 acres of the 
wetlands most important to fish and wildlife each year and faces 
increased threats from changing land use patterns and the recent 
withdrawal of Clean Water Act protections. These losses have dramatic 
negative impacts on waterfowl and other fish and wildlife.
How NAWCA Works:
    NAWCA facilitates efforts by resource managers and a wide variety 
of partners using strategies to restore and enhance degraded habitat 
along with protecting the quality habitat that remains. The habitat 
work that is completed on both public and private lands improves 
recreational opportunities while providing additional economic benefits 
for landowners and their communities. Wildlife-related recreation 
generates over $100 billion of economic output each year. In many 
cases, this economic activity is vital to the incomes of rural 
Americans and it serves as the base for major industries that produce 
outdoor equipment and a wide range of other products.
    The law requires each federal dollar put into the program to be 
matched by at least $1 in non-federal funds. The partner investment in 
NAWCA so far has been three non-federal dollars for every federal 
dollar invested and the combined total is more than $3 billion so far. 
The original law, written in 1989, required that all non-federal match 
money be raised from United States sources, no matter where the money 
was to be spent. Because of challenges to raise sufficient match 
dollars for projects in Mexico, a 1994 amendment changed the match 
requirements for projects located in Mexico, allowing non-United States 
sources to be used to pay costs of the projects. However, no such 
change was made for projects completed in Canada. The amendment 
proposed in H.R. 3433 will allow funds raised in Canada to be applied 
as a portion of the required match for habitat projects that will 
benefit waterfowl and other wetland dependent species across the 
continent.
Canadian Projects:
    Canadian NAWCA projects have made strides in raising money from 
local sources to supplement the federal and non-federal matching funds. 
The law as currently written does not recognize this money raised from 
Canadian non-profits and provincial agencies as matching funds, and 
they therefore do not count towards the match requirement. NAWCA has 
served to encourage entities in Canada to increase fundraising for 
local wetland conservation projects, and the Committee should foster 
further Canadian investment in local conservation efforts benefiting 
the continent.
    Unfortunately, sometimes Canadian projects can face difficulty 
raising enough money from United States sources to meet non-federal 
match requirements. Typically, the average partner match in the U.S., 
Mexico, and Canada combined has been $3 for every $1 in federal money. 
For Canadian projects, however, the typical partner match has been 1:1. 
American non-profits and state agency partners contribute funds to send 
to Canada, and that money is becoming more and more difficult to find. 
With a difficult economic situation American partners are under 
pressure, and find it challenging to raise sufficient money to match 
the cost of Canadian projects. In order to increase the return on a 
relatively modest federal investment and fund these vital habitat 
projects, it is important that Congress pass H.R. 3433 to allow funds 
from Canadian sources to comprise a portion of the non-Federal share of 
the costs of each project.
    After 20 years of being one of the federal government's most 
effective conservation programs, it is appropriate to ask why the match 
requirements should be changed. Starting in September 2001, fundraising 
for many of the nation's charities has become more difficult, and has 
hampered the abilities to produce match money. Fundraising challenges 
have continued into this current tough economic climate, resulting in 
even fewer matching funds from state governments and NGOs. The proposed 
amendment would open more non-federal revenue streams, and allow for 
more NAWCA projects to benefit habitat on the Canadian breeding grounds 
and the waterfowl and other migratory birds that are produced there.
    Projects in Canada are critically important to the sustainability 
of the North American waterfowl population. When NAWCA was passed in 
1989, Congress stated that one of the purposes of the Act was ``to 
protect, enhance, restore, and manage an appropriate distribution and 
diversity of wetland ecosystems and other habitats for migratory birds 
and other fish and wildlife in North America.'' Because migratory birds 
routinely cross national borders, wetland protection and restoration 
must occur across North America. Federal NAWCA funds were and are used 
in all three countries, Canada, Mexico, and the United States, and H.R. 
3433 will provide new incentives for U.S.-Canadian partnerships to 
raise funds so that federal dollars can be leveraged for the most 
impact.
Success of the Program:
    The U.S. Fish and Wildlife Service reports that through September 
2009 more than 4,000 partners have been involved in over 1,850 NAWCA 
projects. The federal funding portion through NAWCA has leveraged 
partner contributions of over $3 billion in matching and non-matching 
funds. This funding has stimulated the conservation of almost 25 
million acres of wetlands and associated uplands across North America. 
The success of NAWCA is exemplified by the growing list of project 
partners, which is now above 4,000. The list of partners includes all 
50 state fish and wildlife agencies, hundreds of private landowners, a 
diversity of private conservation efforts, corporations and other 
business, tribes, and local governments.
    NAWCA is successfully implementing the habitat objectives of the 
North American Waterfowl Management Plan (NAWMP) and other national and 
international conservation plans for wetland-associated migratory 
birds. Regional Joint Ventures, established to support the NAWMP, play 
a substantial role by fostering partnership to successfully implement 
NAWCA projects. DU is an active member of most of the Joint Ventures. 
It would be impossible to fulfill our collective habitat goals without 
the critical support provided by NAWCA.
    The benefits of NAWCA extend well beyond waterfowl. Wetlands 
provide a home for more than 900 wildlife species at some time during 
the year. As intended by Congress, the criteria for NAWCA projects 
include waterfowl as well as other wetland-associated migratory birds, 
threatened and endangered species, and other wetland-dependent wildlife 
and plants. Under this guidance, NAWCA projects are proven to benefit a 
diverse array of species, including fish.
    NAWCA serves as a vital tool for cooperative efforts to address 
landscape-level habitat challenges in vital areas for waterfowl, 
including the Prairie Pothole Region of the Great Plains, the Lower 
Mississippi River Valley, Chesapeake Bay, Gulf Coast and the Great 
Lakes, to name a few. NAWCA has made a significant impact in coastal 
communities, but the value and importance of NAWCA to inland areas is 
also remarkable. Projects in Canada have focused mainly on the Canadian 
portion of the Prairie Pothole Region and the Western Boreal Forest.
Conclusion:
    What began as a small funding mechanism to accelerate 
implementation of NAWMP in the early 1990's has grown into a highly 
successful program with widespread success and support. NAWCA has 
stimulated hundreds of conservation partnerships that would likely not 
exist otherwise. The result is millions of acres of habitat conserved 
that provide a myriad of benefits for wetlands, wildlife, and the 
public. We support the legislation and urge the Committee to approve 
this bill to allow a portion of the non-federal share of the costs of 
Canadian projects to include contributions from Canadian sources.
H.R. 2213: Reauthorization of the Neotropical Migratory Bird 
        Conservation Act
    Since its inception 72 years ago, Ducks Unlimited has recognized 
that maintaining North America's waterfowl populations requires 
conservation well beyond the borders of the U.S. Responsible 
stewardship of these migratory species often requires conservation of 
habitats from the boreal forests of Canada to the mangrove wetlands of 
South America and numerous points between and beyond. The same is also 
true for a variety of other bird species including neotropical 
migrants--those that breed in the U.S. and Canada and spend the winters 
in Mexico, Central and South America. Therefore, since its inception, 
DU has been an active supporter of the Neotropical Migratory Bird 
Conservation Act.
    Modeled after NAWCA, the Act has been successful in fostering 
public-private partnerships and international cooperation to conserve 
habitats for migratory birds and there is a significant potential to 
expand these on-the-ground efforts in the future. In total, nearly half 
of all North America's bird species are dependant upon the natural 
resources of the Canadian boreal forest, and 94% of the birds that use 
the boreal forest migrate south into the U.S. and Mexico. Approximately 
50% of neotropical migrants breed in the boreal forest north of the 
lower 48 states. To deliver a full spectrum of habitat conservation for 
migratory birds, particularly neotropical species, it is important to 
reauthorize this Act to offer assistance for conservation projects in 
the most important areas in the range of their migration.
    Besides the ducks, geese, and swans, 225 other migratory bird 
species can be found in the prairie pothole region (PPR) of the U.S. 
and Canada during portions of the year. The PPR forms the core of what 
was formerly the largest expanse of grassland in the world: the Great 
Plains of the United States. Pothole complexes have supported 
populations of breeding waterfowl unmatched anywhere in the world. 
These same complexes make the region vitally important to other 
migratory species as well.
    At least 16 waterfowl species that breed in North America, 
including blue-winged teal, pintail and lesser scaup, spend the winter 
in Latin America and the Caribbean. These areas have experienced many 
threats to wetlands including wide-scale deforestation and erosion in 
the surrounding watersheds, inappropriate agricultural practices, 
improper use of agrochemicals, and destruction of wild lands for banana 
and sugarcane plantations. Despite their importance for biodiversity 
and mankind, the majority of wetlands have been modified due to human 
activities, such as agriculture, intensive use of chemicals, urban 
development, and improper use of water. Habitat deterioration continues 
at a high rate, further impacting the security of waterfowl and other 
wetland species.
    DU is strongly in favor of reauthorizing and expanding the Act. 
Protection of grassland, wetland, and other waterfowl habitats through 
private, state, and federal partnerships that effectively deliver 
habitat conservation projects has been proven as a model for successful 
conservation. Reauthorization of this Act will continue to benefit 
numerous migratory bird species that are important to the U.S. and 
North America from a recreational, aesthetic, and economic standpoint.
H.R.3537: The Junior Duck Stamp Conservation and Design Program Act of 
        2009
    For 20 years, this program has provided strong partnerships with 
public and private schools, after-school programs, and many other 
youth-based education programs all over the country. It is one of this 
country's oldest and most successful government-sponsored, youth-
focused conservation education programs, and involves students in all 
fifty states and the District of Columbia.
    The Junior Duck Stamp program teaches students the importance of 
conserving our wetlands and migratory birds and pairs science and the 
arts to teach greater awareness of America's natural resources. This 
program has provided a valuable role in fostering not only an 
appreciation of art in the natural world, but a better understanding of 
the habitat needs of migratory bird species. This program is 
complementary to DU's efforts on behalf of habitat conservation and 
education. DU believes this program has been and will continue to be a 
strong teaching tool to encourage our youth to become stewards of 
America's irreplaceable wild places and treasured outdoor heritage, and 
we strongly support its reauthorization.
                                 ______
                                 
    Ms. Bordallo. I thank you very much for your testimony, Mr. 
Sutherland.
    And now I would like to recognize Mr. Daulton, the 
Legislative Director of the National Audubon Society.

 STATEMENT OF MICHAEL DAULTON, LEGISLATIVE DIRECTOR, NATIONAL 
                        AUDUBON SOCIETY

    Mr. Daulton. Thank you, Chairwoman Bordallo. My name is 
Mike Daulton. I am Legislative Director for National Audubon 
Society. Thank you for the opportunity to testify today 
regarding three very important bills for bird conservation.
    Audubon's 25 state offices and 500 local chapters 
throughout the United States serve more than one million 
members and supporters. Our mission is to conserve and restore 
natural ecosystems focusing on birds, other wildlife and their 
habitats for the benefit of humanity and the earth's biological 
diversity.
    Audubon strongly supports the bipartisan H.R. 2213. 
Sponsored by Congressman Ron Kind and Congressman Jim Gerlach, 
it is recognized as an outstanding opportunity to expand the 
highly successful and cost effective Neotropical Migratory Bird 
Conservation Act and represents a significant step forward for 
bird conservation in the Western Hemisphere.
    We thank Congressman Kind for his longstanding leadership 
on this issue, and we are gratified that this bill continues a 
long tradition of bipartisan support for the conservation of 
neotropical migratory birds that stems back to the 106th 
Congress when Congressman Don Young and Congressman George 
Miller introduced H.R. 39, which became the law that we so 
value today.
    The Neotropical Migratory Bird Conservation Act is critical 
to bird conservation in the United States. There are 340 
species of neotropical migrants which represents more than half 
of all the breeding birds in the country. Unfortunately, many 
of these birds are in decline. Recent data shows 127 of these 
species are in decline and 60 of them are in severe decline.
    It is clear from the list of species of conservation 
concern across the country, including the species of greatest 
conservation need and the state wildlife action plans and the 
national list of birds of conservation concern, that these are 
species that are in dire need of conservation effort.
    Fortunately, the Neotropical Migratory Bird Conservation 
Act has a proven track record of success, and since it was 
enacted the program has supported 296 projects, as Paul 
mentioned, and that has conserved more than three million acres 
of vital bird habitat, an area about twice the size of the 
State of Delaware.
    This program's focus on building partnerships and 
leveraging partner contributions is key to its success. The $30 
million that has been invested in this program beginning in 
Fiscal Year 2002 has leveraged partner funding at a ratio of 
more than four to one, so for every dollar that has been spent 
by the Federal government, $5 has been spent on conservation. 
That has been great news for migratory birds and a good value 
for taxpayers.
    Unfortunately, the program hasn't been able to make use of 
all the matching funds that have been available. $258 million 
in matching funds have been left on the table because the 
Federal side of the match hasn't been available to take 
advantage of that. Since the first grants were awarded in 2002, 
three out of every four projects that have come into the 
program that were otherwise qualified have had to go unfunded 
and unfulfilled.
    So this bipartisan bill, H.R. 2213, is going to remedy that 
need by gradually increasing the grants authorization from the 
current cap of $6.5 million to $20 million in 2015. We believe 
that expanding the program is going to be critical to achieving 
the conservation goals for these species so they can continue 
to play their vital biological, recreational and economic 
roles.
    So while the program has been enormously successful, we 
think that the significant increase will really help us move 
the dial and help to reverse the population declines of so many 
of these neotropical birds that are in dire need of 
conservation.
    Audubon is also pleased to support H.R. 3433 and H.R. 3537, 
which represent improvements to successful bird conservation 
programs. We thank you for your leadership, Congressman 
Wittman. These are programs that the Audubon Society has long 
supported, the North American Wetlands Conservation Act and the 
Junior Duck Stamp Program, and I couldn't agree with Mr. 
Sutherland more about the value of both programs.
    We greatly appreciate your leadership, Chairwoman Bordallo, 
in refining and enhancing these successful bird conservation 
programs. We look forward to working with all Members of the 
Subcommittee to protect America's birds and their habitat for 
future generations.
    Thank you very much for the opportunity today, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Daulton follows:]

 Statement of Michael Daulton, Legislative Director, National Audubon 
    Society, in Support of H.R. 2213, Reauthorizing the Neotropical 
                    Migratory Bird Conservation Act

    Chairwoman Bordallo and Members of the Subcommittee:
    I am Mike Daulton, Legislative Director for the National Audubon 
Society. Thank you for the opportunity to testify in support of H.R. 
2213, a bill to reauthorize the successful Neotropical Migratory Bird 
Conservation Act.
    National Audubon Society's 25 state offices and more than 500 local 
chapters throughout the United States serve more than one million 
members and supporters. Audubon's mission is to conserve and restore 
natural ecosystems, focusing on birds, other wildlife, and their 
habitats for the benefit of humanity and the earth's biological 
diversity. Our national network of community-based nature centers and 
chapters, scientific and educational programs, and advocacy on behalf 
of areas sustaining important bird populations, engage millions of 
people of all ages and backgrounds in positive conservation 
experiences. Audubon also is the North American partner of Birdlife 
International, a global alliance of conservation organizations working 
together for the world's birds and people.
    The National Audubon Society is pleased to commend Congressman Ron 
Kind (D-WI) for his longstanding leadership as a strong voice for 
conservation of America's migratory birds. Audubon strongly supports 
the bipartisan H.R. 2213, sponsored by Congressman Kind and cosponsored 
by Congressman Jim Gerlach (R-PA), which recognizes an outstanding 
opportunity to expand the highly successful and cost effective 
Neotropical Migratory Bird Conservation Act and represents a 
significant step forward for bird conservation in the Western 
Hemisphere.
    The Neotropical Migratory Bird Conservation Act (NMBCA) has done a 
great service for the conservation of Neotropical migratory birds since 
it was enacted in 2000, awarding 296 grants for conservation projects 
benefiting America's migratory birds. These grants have been 
distributed across more than 40 U.S. states and territories, and more 
than 30 countries in Latin America and the Caribbean. They include 
efforts to protect and manage bird populations and habitats, to 
increase research and monitoring, to improve law enforcement, and to 
promote community outreach and education programs. Projects involving 
land conservation have affected more than three million acres of vital 
bird habitat.
    Unfortunately, despite these numerous conservation efforts, many 
Neotropical migratory bird species are experiencing severe population 
declines. For example, the Red Knot, a small Neotropical migratory 
shorebird that visits Delaware Bay during its migration, has 
experienced a decline of more than 80% in the past 25 years, from a 
population of 85,000 birds to a population of only 15,000 today. 
Similarly, the Wood Thrush, a forest-dwelling Neotropical species that 
breeds in eastern North America and winters in the lowlands of Central 
America, has experienced a 50% decline in the past 40 years. Other 
Neotropical species experiencing significant population declines 
include the Black Swift, Cerulean Warbler, Grasshopper Sparrow, Olive-
sided Flycatcher, Golden-winged Warbler, Mountain Plover, and Bobolink.
    The high level of conservation concern for Neotropical migrants 
also is demonstrated by the 2008 national list of Birds of Conservation 
Concern of the United States. Of the 145 species on the 2008 national 
list, 65 are Neotropical migrants, including the Red Knot and the Wood 
Thrush, and dozens of other birds such as Swainson's Hawk, Short-eared 
Owl, and Peregrine Falcon.
    Many of the Neotropical species experiencing significant population 
declines are common birds that are found in backyards and at the bird 
feeders of millions of Americans. The Rufous Hummingbird, a common 
western species that might be spotted on the feeder by any American's 
backyard window, has lost 61% of its population in the past 40 years. 
The Chimney Swift, whose high-pitched twittering is a familiar sound 
during summertime in cities across the eastern United States, has lost 
53% of its population over the same time period. The loss of birds once 
common in our backyards serves as a troubling wake-up call for all of 
us. The findings signal serious problems with habitats in the United 
States and outside our borders, as well as national environmental 
trends.
    To reverse these trends, Audubon urges the committee to approve 
H.R. 2213, H.R. 3433, and H.R. 3537. This Committee and the Congress 
are to be commended for authorizing successful conservation programs, 
such as the Neotropical Migratory Bird Conservation Act, the North 
American Wetlands Conservation Act (NAWCA), and the Junior Duck Stamp 
Conservation Design and Program Act, which have made substantial 
contributions to bird conservation. I am very pleased to be here today 
to support H.R. 2213, H.R. 3433, and H.R. 3537, which would build on 
this success by reauthorizing and improving these outstanding 
conservation programs.
 The Conservation Challenge: Neotropical Migratory Birds in Decline
    The Neotropical Migratory Bird Conservation Act is critical to bird 
conservation in the United States. There are 340 species of Neotropical 
migratory birds, which represents more than half of all the breeding 
birds in the country. These birds are in dire need of conservation 
effort. Neotropical migrants are facing an increasingly complex range 
of threats, from development pressures, invasive species, avian 
diseases, and a changing climate. The best science on bird population 
trends, from the Breeding Bird Survey and Partners in Flight, indicates 
that as many as 127 species of Neotropical migratory birds are in 
decline. Every major list of species of conservation concern, from the 
lists of Species of Greatest Conservation Need in State Wildlife Action 
Plans to the national list of Birds of Conservation Concern, show that 
Neotropical migrants are a conservation priority, not just for the Fish 
and Wildlife Service, but for nearly every state fish and wildlife 
agency, and a wide range of non-governmental conservation 
organizations.
    Best Available Science on Bird Population Trends Indicates 
Significant Declines of Neotropical Migrants
    <bullet>  Breeding Bird Survey: An analysis by National Audubon 
Society in 2007 of data from the Breeding Bird Survey showed that 127 
of the 340 Neotropical migratory bird species are known to be in 
decline. Of these, 60 species are in severe decline, defined as a 
population decrease of 45% or more in the past 40 years.
    <bullet>  Partners in Flight: A recent analysis of Partners in 
Flight data suggests 118 Neotropical bird species are in decline, 
representing nearly half of the Neotropical species for which adequate 
data has been collected.
    Major Lists of Species of Conservation Concern Highlight 
Significant Threats to Neotropical Migrants
    <bullet>  State Wildlife Action Plans: Audubon reviewed all of the 
lists of Species of Greatest Conservation Need in the State Wildlife 
Action Plans. In the 40 states we reviewed with well defined and 
accessible lists, 463 bird species are listed in State Wildlife Action 
Plans as Species of Greatest Conservation Need. Of these, 276, or 60%, 
are Neotropical migrants. In fact, Neotropical migratory bird species 
are listed more than 2,000 times as Species of Greatest Conservation 
Need in the 40 State Wildlife Action Plans we reviewed.
    <bullet>  WatchList: Of the 178 continental bird species on 
WatchList 2007, a list of birds of highest conservation concern 
compiled by Audubon and American Bird Conservancy, over one-third, 71 
species, are Neotropical migrants.
    <bullet>  Birds of Conservation Concern: Of the 145 species listed 
on the 2008 national list of Birds of Conservation Concern of the 
United States, 116 breed in the continental U.S., and 65 are 
Neotropical migrants.
The Neotropical Migratory Bird Conservation Act has a Proven Track 
        Record of Success
    Grants provided through the Neotropical Migratory Bird Conservation 
Act have funded critically important conservation projects that have 
helped to protect Neotropical migrants of conservation concern. NMBCA 
conservation projects have successfully:
    <bullet>  Removed invasive species populations from wetlands and 
coastal habitats in the Bahamas;
    <bullet>  Secured voluntary conservation easements establishing six 
new nature reserves within a 597,000 acre biological corridor in Costa 
Rica;
    <bullet>  Restored bird habitat in degraded forested areas of a 
national park in Jamaica; and
    <bullet>  Worked with local community groups to restore riparian 
habitat and conduct ecotourism planning in Mexico
    These are just four examples of the 296 projects funded through the 
NMBCA. All told, the program has protected more than 3 million acres of 
vital bird habitat.
    In addition to the NMBCA's proven track record of protecting bird 
habitat, the program has filled gaps in understanding of the population 
status and conservation needs of Neotropical migrants through support 
of research, monitoring, and conservation planning. For example, 
funding through the NMBCA has allowed conservationists to identify 20 
Important Bird Areas in the Southern Cone Grasslands in Argentina, 
Brazil, Paraguay and Uruguay. These grasslands provide critically 
important habitat for Swainson's Hawk, American Golden-Plover, Buff-
breasted Sandpiper, Upland Sandpiper, and Bobolink, as well as the 
Peregrine Falcon and Red Knot. For example, the region of San Javier in 
Argentina includes a mosaic of wetlands, grasslands and woodlands along 
the Parana River that attracts the most important concentration of 
Bobolinks in the Southern Cone, where at least one million individuals 
have been estimated recently. Laguna de Rocha, a brackish lagoon in 
Uruguay, is one of the most important sites for Buff-breasted Sandpiper 
at a global scale. The grasslands in the interior of the Pampas region 
in Argentina are critical for overwintering Swainson's Hawks.
    Such projects that identify high-value conservation opportunities 
have laid the groundwork for significant conservation work in the 
future. New investments, including NMBCA grants, are now being 
considered in these critical IBAs that will bring about impressive 
conservation results.
    The NMBCA also has taken a cost-effective approach that contributes 
to its success. By focusing on protecting birds of conservation 
concern, the program allows species to be conserved before they are so 
critically imperiled that they are on life support and require high-
cost protection and recovery efforts under the Endangered Species Act. 
The focus on conservation in Latin America and the Caribbean also 
captures efficiencies. The birds are concentrated in a smaller land 
area than they are in the United States. Most of our Neotropical 
migrants funnel into just a handful of countries: Mexico, Cuba, Belize, 
the Dominican Republic, Haiti, and the Bahamas. Federal dollars also 
can be stretched further where land values reduce the price of 
conservation.
    Most importantly, this track record of success is made possible by 
a focus on building partnerships and leveraging partner contributions 
that dramatically multiply the program's conservation impact. From the 
program's first year of funding in FY 2002 through FY 2009, $30.4 
million was available through Congressional appropriations for grants 
under the NMBCA. This modest investment resulted in more than $134 
million in matching funds and in-kind contributions. Overall, the 
program matched partner contributions to federal funds at a rate of 
4:1. For every $1 invested, $5 was spent on conservation. This 
impressive leveraging of partner contributions is a major reason for 
the program's success, a good value for the taxpayer, and good news for 
migratory birds.
The NMBCA Recognizes the Need for Protection of Key Habitats Used 
        Throughout Migration
    By their very nature, migratory birds are a symbol of the need for 
international efforts in nature conservation. To safeguard the future 
for Neotropical migratory birds, protections must be in place at every 
stop along their migratory routes.
    Hundreds of millions of dollars are spent each year managing the 
National Wildlife Refuge System, restoring ecosystems like the 
Everglades, the Upper Mississippi River, and the Chesapeake Bay, and 
funding cooperative bird conservation efforts through initiatives like 
the North American Bird Conservation Initiative and the U.S. Fish and 
Wildlife Service's Joint Ventures. However, once these birds leave the 
United States, to go to Latin America or the Caribbean to spend their 
winters, they can be exposed to a range of other threats that hold the 
potential to significantly undermine conservation efforts in the United 
States.
    A recent front-page story in the Washington Post (Day of the Gaucho 
Waning in Argentina, September 10, 2009) noted that the traditional 
Argentine Cowboy, the iconic gaucho, could soon be extinct in 
Argentina. Ranchland there is rapidly being converted to fields of 
soybeans, corn, and wheat as commodity prices rise. Because the vast 
grasslands of Argentina increasingly are being used for agriculture, 
cows are increasingly being raised in commercial feedlots. These same 
pressures are threatening Argentina's grassland birds. Conservation 
efforts to protect the Swainson's Hawk in the United States, for 
example, may be undermined without attention to conservation of key 
strongholds for the species in Argentina.
    The NMBCA recognizes that the future survival of many of the 340 
species of U.S. breeding Neotropical migrants depends on a range-wide, 
hemispheric approach to species conservation that protects key habitats 
used by these birds outside of the United States.
The NMBCA Protects Birds that Attract Spending by Birders and Help Our 
        Economy
    Neotropical migratory birds are among the most attractive and 
interesting birds to America's 48 million bird watchers, and drive many 
of the economic benefits that bird watchers provide to local 
communities.
    Each year, thousands of birders flock to see Neotropical migratory 
bird species all across the United States during their migration 
seasons. During the spring migration in April and May, bird watchers 
visit the Gulf Coast, including the coast of Texas, Louisiana, 
Mississippi, Alabama, and Florida, to try to catch a glimpse of the 
migratory songbirds that stop by there, like the Scarlet Tanager and 
the Baltimore Oriole.
    During the fall migration in September, birders visit the Atlantic 
and Pacific coasts to try to spot Neotropical migratory songbirds and 
shorebirds. Away from the coasts, bird watchers visit sites like Hawk 
Mountain in Pennsylvania, Hawk Ridge in Minnesota, and Corpus Christi 
in Texas to see migrating raptors like the Broad-winged and Swainson's 
Hawks.
    These birders, out to spot Neotropical migrants, provide a 
significant boost for local economies during the migration periods. In 
fact, according to the U.S. Fish and Wildlife Service, in 2006, 48 
million birders and other wildlife-watchers spent $46 billion pursuing 
their interest in bird and wildlife watching. More than 53 million 
people fed wild birds around their homes, and 20 million people took 
trips specifically for bird watching. Birders spend money on equipment, 
birding trips and vacations, bird food, park fees, hotels, airfare, and 
more. Total wildlife-related expenditures on bird watching, hunting, 
and fishing amounted to $122 billion, or about one percent of the Gross 
Domestic Product.
H.R. 2213 Will Expand the Highly Successful and Cost Effective NMBCA
    Audubon is pleased to offer strong support for the bipartisan H.R. 
2213, which recognizes a tremendous opportunity to expand a highly 
successful conservation program and transform it into one of the most 
significant forces in bird conservation in the Western Hemisphere. 
While the program has been enormously successful, a significant 
increase in authorized funding would provide the opportunity to ``move 
the needle'' and reverse the population declines of Neotropical 
migrants.
    When the Congress has made significant investments in bird habitat 
conservation, those investments have worked. The federal ``Duck Stamp'' 
program and the North American Waterfowl Conservation Act have 
protected nearly 30 million acres of wetland habitat. Enacted in 1989, 
NAWCA has raised $3 billion for wetlands conservation. The 2009 State 
of the Birds Report indicates that these investments have contributed 
to thriving populations of herons, egrets, hunted waterfowl, and other 
birds.
    The National Audubon Society strongly supports language in H.R. 
2213 that would follow the successful example of NAWCA and the Duck 
Stamp program and raise the authorized level of funding for 
conservation projects under the NMBCA from its current cap of $6.5 
million annually to $20 million by 2015. With the program's 3:1 
matching requirement, a $20 million funding level would guarantee at 
least $80 million of spending on conservation for Neotropical migratory 
birds each year.
    Currently, the NMBCA has been unable to make use of millions in 
matching funds that have been left on the table due to inadequate 
funding levels. Since the first NMBCA grants were awarded in 2002, the 
program has only been able to award 296 grants out of the 1158 
proposals received, meaning three out of every four otherwise qualified 
projects go unfunded.
    Out of the $105.5 million in grants requested since the program 
began, the NMBCA could only afford to award $30.4 million of those 
requests, or 29% of the requested conservation funds.
    Since the NMBCA program began, more than $258 million in matching 
funds and in-kind contributions have been left on the table because 
federal funds were not available to provide the federal match. This 
suggests an enormous opportunity for successful expansion of the 
program. The increased authorization level included in H.R. 2213 
recognizes this opportunity and takes an important step toward 
leveraging these private investments and thereby significantly 
expanding the program's conservation impact.
The Congress Has Demonstrated Longstanding Bipartisan Support for NMBCA
    H.R. 2213 continues the long history of bipartisan support for the 
conservation of Neotropical migratory birds, and for significant 
increases in authorized funding for the Neotropical Migratory Bird 
Conservation Act. The Neotropical Migratory Bird Habitat Enhancement 
Act (H.R. 4517) was introduced in August of 1998 in the 105th Congress 
by Congressman Don Young (R-AK), authorizing $5 million for each Fiscal 
Year 1999-2002. Companion legislation introduced in the Senate later 
that year (S. 1970) by Senator Spencer Abraham (R-MI) and a bipartisan 
group of seven cosponsors called for an authorization of $8 million for 
each Fiscal Year 1999-2002.
    In the 106th Congress, Congressman Young, along with Rep. George 
Miller (D-CA) and Rep. Jim Saxton (R-NJ), introduced H.R. 39, calling 
for an authorization of $8 million for each of Fiscal Years 2000-2004. 
Companion legislation introduced in the Senate by Senator Abraham and a 
bipartisan group of 14 other senators (S. 148) called for an 
authorization of $8 million for each Fiscal Year 2000-2003. An 
amendment was accepted that reduced the authorization to $5 million for 
each Fiscal Year 2001-2005, and on July 20, 2000, the Neotropical 
Migratory Bird Conservation Act was signed into law.
    In 2005, in the 109th Congress, Congressman Ron Kind and 
Congressman Wayne Gilchrest (R-MD) introduced H.R. 518, which ramped up 
authorization levels from $5 million in FY 2006 to $15 million in FY 
2009. Companion legislation introduced in the Senate by Senator Lincoln 
Chafee and a bipartisan group of 5 other senators (S.1410) ramped up 
the authorized funding level from $5 million in FY 2006 to $10 million 
in FY 2010. A compromise was accepted that reduced the authorized 
funding levels to $5.5 million for FY08, $6 million for FY 09, and $6.5 
million for FY10. This compromised version of H.R. 518 was included in 
the Tylersville Fish Hatchery Conveyance Act, H.R. 4957, and signed 
into law on October 17, 2006.
    Earlier this year, Senator Ben Cardin (D-MD) and Senator Mike Crapo 
(R-ID) introduced S. 690, which calls for ramped up authorization 
levels from $8 million in FY 2010 to $20 million in FY 2015. This bill 
was reported favorably without amendment by the Senate Committee on 
Environment and Public Works in June. H.R. 2213, introduced by 
Congressman Ron Kind and Congressman Jim Gerlach in April, contains 
funding levels identical to those included in S. 690.
    From the early bills sponsored by Congressmen Don Young and George 
Miller, to the most recent bill sponsored by Congressmen Ron Kind and 
Jim Gerlach, the NMBCA has maintained bipartisan support for more than 
a decade. Bipartisan bills to significantly increase authorized funding 
levels were introduced in both the House of Representatives and the 
Senate in the 106th, 109th, and 110th Congresses, and now the 111th 
Congress as well.
H.R. 3433: Amending the North American Wetlands Conservation Act
    The North American Wetlands Conservation Act (NAWCA) was enacted in 
1989 for the purpose of supporting the North American Waterfowl 
Management Plan. Loss of habitat in the United States, Mexico, and 
Canada was causing a significant decline in waterfowl populations, and 
all three countries agreed that a continental effort would be required 
in order to restore previously damaged wetlands and uplands and 
population levels.
    For 20 years, NAWCA has made remarkable strides in protection of 
habitat used by migratory birds across the continent. The program has 
put projects on the ground in all 50 states. It is helping slow the 
trend of wetland loss and preventing serious negative impacts on 
migratory birds and other wildlife. We appreciate that it not only 
provides habitat for waterfowl, but also nongame wetlands birds, a wide 
variety of grassland-nesting birds, and other wildlife.
    NAWCA requires each federal grant dollar to be matched by at least 
one dollar in non-federal funds. Most of the match is raised by 
participating NGOs and state governments. Across the program in all 
three countries, the ratio has consistently been closer to 3:1 in non-
federal/federal funds, demonstrating strong community based support for 
the projects. Originally, all non-federal funds were required to be 
raised in the U.S. and sent to Mexico or Canada for individual 
projects. Congress changed this requirement in 1994 for Mexican 
projects, allowing match funds to originate in Mexico. Canadian 
projects, however, must still raise 100% of their match funds in the 
U.S. As support has developed in Canada, Canadian organizations and 
local governments have become proficient at raising some funding for 
projects, none of which currently counts towards the match requirement 
under current law.
    The National Audubon Society supports the amendment to the North 
American Wetlands Conservation Act, included in H.R. 3433, which would 
allow money raised in Canada to be counted towards a portion of their 
match requirement. The benefits of NAWCA to migratory birds is 
substantial and Congress should encourage Canadians to raise a portion 
of the matching funds required, thus increasing both local engagement 
and the number of acres conserved.
H.R. 3537: Reauthorizing the Junior Duck Stamp Conservation and Design 
        Program Act
    National Audubon Society supports H.R. 3537, which would 
reauthorize the Junior Duck Stamp Program. The Junior Duck Stamp 
Program is one of the premier environmental education programs in the 
United States today. Over the past 10 years, more than 175,000 students 
have participated in the Art Contest associated with the program 
including more than 26,000 students in 2004, and many thousands more 
have participated in the related environmental education program. A 
tremendous amount has been accomplished for a relatively small outlay 
of funds. National Audubon Society is pleased to commend Congressman 
Solomon Ortiz and Congressman Henry Brown for sponsoring H.R. 3537 to 
reauthorize this outstanding program for our young students and our 
shared environment.
 Conclusion
    National Audubon Society is very pleased to offer our strong 
support for H.R. 2213, which represents a significant step forward for 
bird conservation in the Western Hemisphere. The Neotropical Migratory 
Bird Conservation Act has been an unqualified success, leveraging 
modest federal investments into a heavily multiplied and impressive 
conservation impact. We are pleased to commend Congressman Ron Kind and 
Congressman Jim Gerlach for their leadership in introducing this 
important legislation. We are also pleased to support H.R. 3433 and 
H.R. 3537, which represent improvements to successful bird conservation 
programs.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions you may have.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Daulton. I represent 
the territory of Guam in the Pacific. We have very few birds. 
We have a problem with the brown tree snakes.
    Mr. Daulton. Absolutely.
    Ms. Bordallo. So if we could just send a few of those birds 
over to our island, I would be very, very pleased.
    Mr. Daulton. We will see what we can do.
    Ms. Bordallo. Thank you.
    And now I would like to recognize Mr. Schroeder. Mr. 
Schroeder, you can begin your testimony.

 STATEMENT OF DARIN SCHROEDER, VICE PRESIDENT OF CONSERVATION 
              ADVOCACY, AMERICAN BIRD CONSERVANCY

    Mr. Schroeder. Chairwoman Bordallo, Ranking Member Wittman, 
I want to thank you for holding this important hearing today. I 
am here as Vice President of Conservation Advocacy for the 
American Bird Conservancy, a national nonprofit organization 
whose mission is to conserve our native wild birds and their 
habitats throughout the Americas.
    As such, we believe that all three bills--H.R. 2213, H.R. 
3433 and H.R. 3537--advance Americas's historic and ongoing 
commitment to the conservation of one of its most cherished 
natural resources, migratory birds, and therefore we urge the 
expedited markup and passage by Congress.
    With ABC's unqualified support for the reauthorization of 
the Federal Junior Duck Stamp Conservation and Design Program 
and the amendment the NAWCA to allow Canadian organizations and 
local governments to contribute up to 50 percent of the 
requiring matching funds, I would like to spend just a bit more 
time on H.R. 2213, Congressman Kind and Gerlach's 
reauthorization of the Neotropical Migratory Bird Conservation 
Act.
    In last year's Subcommittee hearing entitled Going, Going 
Gone: An Assessment of the Global Decline in Bird Populations, 
my colleague, Dr. George Wallace, testified that of the 341 
neotropical migratory bird species found in the U.S., 127 are 
known to be in decline, 60 severely, suffering a population 
loss of more than 45 percent in just the last 40 years.
    This analysis was confirmed earlier this year in the U.S. 
Fish and Wildlife Service's U.S. State of the Birds Report, the 
most comprehensive assessment to date on the status of bird 
populations.
    Scientists and conservationists agree that the major source 
of bird mortality comes from habitat loss through conversion 
for human uses and habitat degradation from ecologically 
unsustainable land uses. Put together, there are simply fewer 
and fewer places for our native birds to breed and live, 
especially the large tracts of unbroken natural habitat.
    So while the situation is clearly dire for many of our 
native migratory species, there is a Federal program in place 
that has an established and proven track record of helping 
reverse this trend, the NMBCA. In a report produced last year 
that was submitted for the record by American Bird Conservancy 
entitled Saving Migratory Birds for Future Generations: The 
Success of the NMBCA, we found that the program has worked well 
in helping reverse habitat loss and advance conservation 
strategies.
    The grant's requirement for public/private partnerships, 
along with the international collaboration they foster, are 
integral to conserving vulnerable bird populations. I will 
quickly relate to you just one example of the work accomplished 
through the NMBCA.
    Last year, American Bird Conservancy and its partners in 
Colombia, Ecuador and Peru collectively received a $204,000 
NMBCA grant and then matched it with $613,000 in privately 
donated funds in order to reduce the habitat loss in the 
Northern Andes, an extremely important winter home for many 
migratory bird species.
    This coalition of NGO's worked together to acquire and 
preserve the few remaining obtainable patches of high elevation 
natural forest. We then partnered with local communities to 
reforest nearly 2,500 acres with over 660,000 native tree 
species. And finally we persuaded coffee growers to use bird 
friendly cultivation practices such as the production of shade 
grown coffee which maintains a canopy of natural trees over 
coffee shrubs.
    This was a win/win solution for both birds and coffee 
farmers. Since coffee is the second most valuable exported 
commodity on earth after oil, producing shade grown coffee 
ended up adding value to their product, resulting in the 
farmers receiving higher prices than typically commanded on the 
world market.
    Since 2002, there has been a growing demand for NMBCA 
grants to help fund migratory bird conservation efforts. 
Unfortunately, as Assistant Director Schmidt has testified, on 
average about 125 qualifying proposals are submitted every 
year, but grants can only be awarded to about 40 due to the 
program's current limited funding.
    In 2008, 37 grants totaling $4,431,000 were awarded, but 63 
otherwise qualified projects worth nearly $10 million in 
private contributions were not funded. From these numbers it is 
clear that there is a demand for funding that is currently not 
being met.
    ABC strongly believes that increasing the resources for 
this program is essential to achieving conservation goals 
critical to our environment and our economy. Just as 
importantly, this Federal program is a good value, as Mr. 
Daulton has said, for the American taxpayer, often leveraging 
$4 in partner contributions for each $1 the government spends.
    Therefore, ABC fully supports Congressman Kind's bill, H.R. 
2213, which will meet the growing conservation needs of 
America's migratory birds by ensuring the authorization level 
of the NMBCA meets the level of demand.
    In closing, Madam Chair, ABC endorses all three bills and 
strongly believes that through the continued support and 
leadership by the Federal government and bird conservation 
through the NMBCA, combined with the active help of its 
citizens, we can restore America's birds and the habitats on 
which they depend.
    I will be pleased to take any questions.
    [The prepared statement of Mr. Schroeder follows:]

Statement of Darin Schroeder, Vice President of Conservation Advocacy, 
                       American Bird Conservancy

    Chairwoman Bordallo, members of the Subcommittee, I want to thank 
you on behalf of my organization, American Bird Conservancy, for 
holding this hearing today on three important bills: the first, 
bipartisan legislation (H.R. 2213) seeking the reauthorization of the 
Neotropical Migratory Bird Conservation Grants Act; second, a bill 
(H.R. 3433) to amend the North American Wetlands Conservation Act; and 
third, legislation (H.R. 3537) to reauthorize the Junior Duck Stamp 
Conservation and Design Program Act.
    I am here today as Vice President for Conservation Advocacy for 
American Bird Conservancy, a national, not-for profit organization 
whose mission is to conserve our native wild birds and their habitats 
throughout the Americas.
    To begin, I would simply say that American Bird Conservancy 
supports all three bills that are before the Subcommittee for 
consideration today and urges their expedited markup and passage by 
Congress.
    The Federal Junior Duck Stamp Conservation and Design Program has 
successfully provided students in kindergarten through high school with 
an important opportunity to learn about migratory birds, their 
migration patterns, and their habitat requirements by focusing on birds 
often found in the students' own backyards. Since the Junior Duck Stamp 
legislation was enacted in 1994, there have been hundreds of thousands 
of students who have been educated on the importance of bird 
conservation, and permitted students to demonstrate what they have 
learned through their creation of truly stunning works of art. This 
program successfully serves to inspire the next generation of bird 
conservation leaders and merits Congress' continued support.
    The North American Wetlands Conservation Act has helped to conserve 
wetlands in North America for more than twenty years by providing grant 
money for projects that would provide habitat conservation for 
wetlands-dependant species. The law requires each federal dollar put 
into this grant program to be matched by at least $1 in non-federal 
funds, and projects may be completed in the U.S., Canada, or Mexico. As 
currently written, Canadian projects must be matched solely by American 
match money, and any funds raised by Canadian organizations and local 
governments are not counted towards the required match. H.R. 3433 would 
allow Canadian organizations and local governments to contribute up to 
50% of the required matching funds. And because these organizations are 
already raising non-matching funds, these monies could be counted 
towards the match if H.R.3433 is passed.
    As an organization that works with migratory birds, which by 
definition cross international borders during their migration patterns, 
we know that protection and restoration of wetland and upland habitat 
must occur across the continent if the goal is to protect the species. 
By previous amendment, Mexican projects are able to raise their 
matching funds from Mexican sources. But because Canadian projects are 
required by law to raise matching funds solely from the United States, 
these projects are suffering from a lack of funding. H.R.3433 would 
rectify this discrepancy, and allow Canadian sources to contribute 
monies to projects in their own communities. This amendment can only 
serve to raise more money for this important program, and enable these 
partnerships to conserve the habitat that is so important to migratory 
bird species.
    With our unqualified support of the first two bills I would like to 
spend just a bit more time on the third, Congressmen Kind and Gerlach's 
reauthorization of the Neotropical Migratory Bird Conservation Act. For 
those on the subcommittee who aren't familiar with my organization, 
American Bird Conservancy acts to address the full spectrum of threats 
to birds, safeguarding the rarest bird species, restoring habitats, and 
finding policy solutions that reduce threats to America's native birds. 
In so doing, American Bird Conservancy has a great deal of experience 
working with our partners in accomplishing the goal of the Neotropical 
Migratory Bird Conservation Act--the long-term conservation of these 
birds and their habitats for future generations.
    In last year's prescient Subcommittee hearing entitled, ``Going, 
Going, Gone? An Assessment of the Global Decline in Bird Populations,'' 
my colleague, Dr. George Wallace, testified that of the 341 neotropical 
migratory species found in the U.S., 127 are known to be in decline--60 
severely, suffering a population loss of more than 45% in just the past 
40 years. This analysis was confirmed earlier this year in the U.S. 
Fish and Wildlife Service's U.S. State of the Birds report, the most 
comprehensive assessment to date on the status of bird populations.
    The reasons for this startling decline of migratory bird species in 
the U.S. are many and varied. Threats such as inappropriately lit 
communications towers, poorly placed wind turbines, unnecessary night 
lighting of tall buildings, or even glass windows in our homes that 
reflect the surrounding environment and consequently cause the 
sickening ``thump'' we have all heard from a bird strike--all play a 
contributing role to the decline of many bird population levels.
    While science continues to document the growing impact on bird 
species from these threats, it is also advancing practical solutions to 
them. Yet scientists and conservationists agree that the major source 
of mortality comes from habitat loss through conversion for human uses, 
and habitat degradation from ecologically unsustainable land uses. 
Resource extraction and a growing human population have resulted in 
more development and land conversion for suburban sprawl. There are 
simply fewer and fewer places for our native birds to breed and live, 
especially large blocks of unbroken natural habitat. Meanwhile 
deforestation, especially in Latin America, is accelerating at an 
alarming rate, driven by the needs of a rapidly expanding human 
population that has tripled in the last fifty years. Estimates of the 
percentage of remaining forests that are lost each year in the 
Neotropics are between 1-2%.
    While the situation is clearly dire for many species of our native, 
migratory species, such as Golden-winged and Cerulean warblers, Buff-
breasted Sandpiper, Long-billed Curlew, Reddish Egret, and Wood and 
Bicknell's Thrushes, there is a federal program in place that has an 
established and proven track-record of helping to reverse this trend: 
the Neotropical Migratory Bird Conservation Grants Act (NMBCA).
    The NMBCA supports partnership programs to conserve birds in the 
United States, Canada, Latin America, and the Caribbean, where 
approximately five billion birds of more than 500 species, including 
some of the most endangered birds in North America, spend their 
winters. Highly leveraged projects include activities that benefit bird 
populations such as habitat restoration, research and monitoring, law 
enforcement, and outreach and education.
    In a report produced last year by American Bird Conservancy 
entitled, Saving Migratory Birds for Future Generations: The Success of 
the Neotropical Migratory Bird Conservation Act, we found the grant 
program has worked well in helping reverse habitat loss and advancing 
conservation strategies for the broad range of neotropical birds that 
populate America and the Western Hemisphere. These public-private 
partnerships along with the international collaboration they foster are 
integral to conserving vulnerable bird populations.
    Here is just one example of the work accomplished through the 
NMBCA: Last year, ABC and its partners Fundacion ProAves (Columbia), 
Fundacion Jocotoco (Ecuador) and Asociacion Ecosistemas Andinos (Peru) 
received a $204,500 NMBCA grant, and then matched it with $613,500 in 
privately-donated funds to reduce habitat loss in the northern Andes, 
an important winter home for many migratory birds. This coalition 
worked together to acquire and preserve the few remaining obtainable 
patches of high elevation natural forest; we then partnered with local 
communities to reforest nearly 2,500 acres with 660,000 native tree 
species; and, finally, we persuaded local ranchers and coffee growers 
to use bird friendly cultivation practices such as the production of 
shade grown coffee which maintains a canopy of natural trees over 
coffee shrubs. This was a win-win solution for both birds and coffee 
farmers since coffee is the second most valuable exported legal 
commodity on earth (after oil) and their efforts to produce shade grown 
coffee adds value to their product, resulting in the farmers receiving 
higher prices than typically commanded on the world market.
    Since 2002, there has been growing demand for grants to fund 
migratory bird conservation efforts. From 2002-2007, grant money has 
gone out to 44 U.S. states and 34 countries, funding 225 projects, 
impacting almost three million acres of critical bird habitat. On 
average, about 120 qualifying proposals are submitted every year, but 
grants are awarded to about 40 due to the program's current limited 
funding. In 2008, 37 grants totaling $4,431,295 were awarded, but 63 
projects, worth nearly $10,000,000, were not funded. From these 
numbers, it is clear that there is a constant demand for funding that 
currently is not being met.
    ABC strongly believes increasing the resources for this program is 
essential to achieving conservation goals critical to our environment 
and economy. Just as importantly, this federal program is a good value 
for taxpayers, leveraging over four dollars in partner contributions 
for each one that the government spends.
    And, while it is not the explicit goal of the grant program, it is 
my strong belief that this grant is a good example of serving another 
important role--that of an effective tool of U.S. foreign policy. In a 
recent speech at the Council of Foreign Relations, U.S. Secretary of 
State, Hillary Clinton said:
        ``President Obama has led us to think outside the usual 
        boundaries. He has launched a new era of engagement based on 
        common interests, shared values, and mutual respect. Going 
        forward, capitalizing on America's unique strengths, we must 
        advance those interests through partnership, and promote 
        universal values through the power of our example and the 
        empowerment of people. In this way, we can forge the global 
        consensus required to defeat the threats, manage the dangers, 
        and seize the opportunities of the 21st century. America will 
        always be a world leader as long as we remain true to our 
        ideals and embrace strategies that match the times. So we will 
        exercise American leadership to build partnerships and solve 
        problems that no nation can solve on its own, and we will 
        pursue policies to mobilize more partners and deliver 
        results.''
    Those words apply precisely to the NMBCA. It is, ``engagement based 
on common interests, shared values, and common respect'' and the grant 
program works because it builds ``partnerships'' and ``promotes 
universal values''. Frankly, there is no surer way to win the ``hearts 
and minds'' and build collaborative relationships among people than by 
assisting with the conservation of species that, literally, inhabit our 
respective backyards at different times of the year. Migratory birds 
are part of our shared history, culture, and legacy to our children--
and conserving them for these future generations is a ``problem no 
nation can solve on its own,'' hence the need and effectiveness of this 
grant program.
    Therefore, ABC fully supports Congressmen Kind and Gerlach's bill, 
H.R. 2213, which will meet the growing conservation needs of America's 
migratory birds by ensuring the authorization levels of the Neotropical 
Migratory Bird Conservation Act meet the level of need.
    In closing, Madame Chair, as you and the other members of this 
Subcommittee well know, birds are not only beautiful and interesting 
creatures eagerly welcomed by millions of Americans into their backyard 
every year; bird watching is also big business. According to a new 
report released by the U.S. Fish and Wildlife Service, birdwatchers 
contributed $36 billion to the U.S. economy in 2006, the most recent 
year for which economic data are available. The report, ``Birding in 
the United States: A Demographic and Economic Analysis,'' shows that 
total participation in bird watching is strong at 48 million and has 
remained steady since 1996. Birds also naturally provide billions of 
dollars worth of pest control each year, benefitting farmers and 
consumers alike.
    American Bird Conservancy believes that through the continued 
support and leadership by federal government in bird conservation 
through the NMBCA, combined with the active help of its citizens, we 
can restore America's birds and the habitats on which they depend.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Schroeder, for your 
testimony before the Subcommittee.
    And now I would like to invite Ms. Cutchin to present her 
statement. She is from the St. John Regional Catholic School in 
Maryland, and you are going to testify I think on one of the 
more popular bills before the U.S. Congress, so if you would 
proceed with your statement?

              STATEMENT OF LISA CUTCHIN, TEACHER, 
               ST. JOHN REGIONAL CATHOLIC SCHOOL

    Ms. Cutchin. Thank you, Madam Chair and Members of the 
Subcommittee. I am thrilled to be here this morning, and I 
videotaped myself and left a message for my students because I 
am not there today to let them know that I was coming to 
Capitol Hill to be part of the process, so I am thrilled to be 
here.
    Thank you very much for this opportunity to tell you about 
something that four years ago I knew nothing about. I did not 
know what a duck stamp was. I attended a teacher workshop at 
Patuxent Research Refuge through the Fish and Wildlife Service.
    And I learned about this wonderful program that would allow 
me to teach art--I teach art to kindergarten through eighth 
grade, about 550 students--and it would allow me to work across 
a variety of curriculums with science connections, with 
literature and research connections, reading and writing, and 
it also and most importantly would allow my students to 
influence and be part of something at a very young age that 
they could see a long lasting impact for.
    And so I went to this program, learned about the Junior 
Duck Stamp, and I brought it back to my classroom, and for the 
past three years I have used this as one of my lessons. We 
don't participate because we expect to win. The artwork for the 
stamps is certainly much greater than what a student who comes 
to art once a week for 42 minutes can achieve.
    But I want to share with you the looks on their faces, and 
you can see that in some of these pictures; the looks on their 
faces when they are working so hard to create this picture 
after their research and learning about conservation and 
migrating birds and then the look and the smiles on their faces 
when they have finished and the pride that they take.
    It is just a phenomenal program, and at a time when no 
child can or ever should be left behind I just think this is 
such a powerful teaching tool for our students, and I urge you 
please continue this.
    Mr. Sutherland said who cannot like the duck stamp. I love 
the Duck Stamp Program as a teacher. Its only fault is that 
there are more teachers who don't know about this program. I 
have students--I now have eighth graders--who participated in 
this program. I have done it with sixth graders and with third 
graders. They still talk to me about seeing the geese fly over 
when they are out in the playground because we are in a rural 
area.
    So it has impacted the lives of my students, and I would 
just like to close with the fact that we were invited to be 
part of the national judging since it was at the Postal Museum 
last year. I took 70 of my students. This is one of the thank 
you notes that they wrote:
    ``Thank you for the Duck Stamp Program. I love,'' and it is 
underlined, love, ``learning about ducks because where I live 
there are non-stop ducks flying over our roof. I love seeing 
ducklings. They are so cute. I love the program because I like 
to see other people's work. Thank you for setting up this 
wonderful program.'' This is Jessica Lowe, one of my students.
    So for my students and for fellow teachers who could not be 
here, please support and continue this wonderful program. Thank 
you.
    [The prepared statement of Ms. Cutchin follows:]

                Statement of Lisa D. Cutchin, Teacher, 
                   St. John Regional Catholic School

    The Jr. Duck Stamp Program, Conservation on Canvas, is an excellent 
tool for teaching students at all grade levels about science, language 
arts, mathematics, and the Visual Arts, and for providing a real world 
scenario which students can positively impact. Just starting out as a 
new teacher, several years ago I attended a workshop offered by the 
Patuxent Research Refuge, located just outside Washington, DC. I was 
looking for lesson plans and materials with curriculum connections 
across multiple disciplines that would be interesting for my students. 
I spent a Saturday in January learning about the Jr. Duck Stamp Program 
and participating in hand's on activities that had been designed by the 
staff at Patuxent Research Refuge. I had no prior knowledge of the Duck 
Stamp Program and probably would still not know about program if not 
for attending the workshop. My hope was that I could incorporate the 
materials in a lesson for the following school year. I was so impressed 
with the materials and excited about the learning opportunity for my 
students, I incorporated the lesson in just a few short weeks after 
attending the program. My third graders created pictures that were 
submitted to the Maryland Coordinator for the Jr. Duck Stamp 
competition in mid-March. I have used the Jr. Duck Stamp lesson with my 
students each year since and continue to share it with other teachers.
    I have been teaching at St. John Regional Catholic School (named a 
National Blue Ribbon School by the U.S. Department of Education, 
September 15, 2009) for the past 5 years and my students have 
participated in the Jr. Duck Stamp Competition for 3 of those years. In 
the spring of 2009, 70 SJRCS third graders participated in the National 
Judging for the Federal Jr. Duck Stamp Program that was held in 
Washington, DC. It created a memory for those students, which will be 
with them for years to come. When those students walked into art class 
as 4th graders recently, the first thing they asked me was, ``When are 
we doing the Jr. Duck Stamp?'' Our school is in rural Frederick, 
Maryland and very close to the city limits. There are farm lands nearby 
and a pond that attracts migrating water fowl, especially Canada Geese. 
The geese fly over our playground and our students are very aware of 
the sights and sounds of these beautiful creatures. I believe our 
classroom studies, connected to the Jr. Duck Stamp, have significantly 
raised awareness of these birds, flyways, and migration and the need 
for land conservation.
    My students learn about the Jr. Duck Stamp through materials 
provided to me by the U.S. Fish and Wildlife Agency. Students begin 
their study by reading books, watching movies and creating a ``Jr. Duck 
Stamp'' journal that includes facts they discover during the research 
phase of the unit. After conducting some preliminary research, students 
are asked to select a waterfowl they would like to learn more about. We 
discuss plagiarism and why it is not ok to copy or take another 
person's work. Students use and hone their powers of observation as 
they work to determine proportion and create an accurate image of their 
selected waterfowl. At a time when no child will be left behind, this 
powerful teaching unit connects the various curriculums and provides 
asks students to planning, make decisions, and use higher order 
thinking skills.
    Armed with information about a waterfowl they have selected, my 
students begin work on their entry for the State of Maryland Jr. Duck 
Stamp competition. Every student who submits an entry is given a 
certificate of participation by the Maryland Jr. Duck Stamp 
Coordinator. Several students/parents have lent me their Jr. Duck Stamp 
pictures to bring with me when I speak with you in person. This is a 
project that families keep and some are even framed to be enjoyed at 
home. I have also included photographs I have taken of some of my 
students' Jr. Duck Stamp pictures and included those also.
    My students participate in art class once a week for 42 minutes. My 
hope is during that time, I can expose them to the visual arts, help 
them make connections between the arts and the real world; and give 
them an opportunity to experiment with a variety of media and 
techniques. We are not an art school. My goal is help grow and develop 
responsible citizens of the United States and the world. The Jr. Duck 
Stamp Conservation on Canvas program plays an important role in helping 
me achieve this goal.
    As a teacher, I believe the Jr. Duck Stamp Program is an excellent 
learning opportunity for students at all grade levels. It provides a 
real world problem (land conservation) that students can actively take 
a part in improving. Participation in the Jr. Duck Stamp Program at an 
early age makes connections for the citizens our students will grow to 
become. (That I have never chosen to smoke, although both my parents 
did, I attribute this fact to the educational programs I participated 
in as a 5th/6th grader in elementary school in the 1960's. I believe 
the Jr. Duck Stamp Program will make connections to the environment and 
land conservation in a similar way for my students.)
    What is difficult for me to put into words is the looks on the 
curious faces of my students as they research and learn about various 
water fowl and their habitat; the looks of determination as they work 
hard to capture the likeness of the birds; and the smiles when their 
entries are finally completed. The Jr. Duck Stamp Lesson Plan is my 
favorite lesson to teach and based on the feedback from my students, 
one of their favorites as well. At the start of the current school 
year, a parent told me that her son was practicing drawing ducks over 
the summer because he knew (from his sister who had created a Jr. Duck 
Stamp picture two years ago) that this was the year he would be 
learning about the Jr. Duck Stamp program and creating a picture for 
the contest! When I talk with my current 8th graders, they have a sense 
of pride in their participation in the Jr. Duck Stamp Competition.
    This past summer I was selected to participate in the National 
Gallery of Art's Teacher Institute for 17th and 18th Century American 
Art. I was one of 50 fortunate teachers across our great nation to have 
this honor. I talked to my fellow educators and was surprised to learn 
that they did not know about the Conservation on Canvas program. As 
teachers, we are asked to have our students participate in many 
contests throughout the school year. It has been my experience that 
most contests are to benefit the sponsor of the contest. The Jr. Duck 
Stamp Conservation on Canvas Program the related competition is a 
significant benefit to the students who participate. I ask you to 
provide support and continue this worthwhile program.
    Thank you.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Ms. Cutchin. I don't 
think there would be any opposition to such a wonderful 
program, and for your very impassioned testimony here today we 
certainly agree with it.
    I know I support it. What about you, Mr. Wittman?
    Mr. Wittman. Yes. Absolutely.
    Ms. Bordallo. Absolutely. You have two votes already. All 
right. Thank you so much.
    And now I have just a couple of questions, and I know Mr. 
Wittman will have a few questions too. To Mr. Schmidt, you and 
other panelists each testified in support of Mr. Wittman's 
legislation to amend the NAWCA to allow the use of non U.S. 
funds to satisfy up to 50 percent of nonFederal matching 
contribution requirements.
    For the record, can you confirm that there is nothing in 
H.R. 3433 that would reduce or waive any portion of the 
nonFederal match requirements for projects in Canada and H.R. 
3433 will only increase flexibility to allow the use of 
Canadian sources of funds to satisfy existing matching 
requirements? Is that correct?
    Mr. Schmidt. That is correct. I can confirm what you have 
said.
    Ms. Bordallo. All right. Let me ask some of the other 
witnesses.
    Mr. Sutherland. Yes. We had meetings with Mr. Wittman and 
other Members of Congress to talk about the issue and the 
opportunities, and that was the intent from the get go, Madam 
Chairwoman.
    Ms. Bordallo. All right. Next?
    Mr. Daulton. Yes. Absolutely. That is my understanding of 
the legislation, and I certainly support the goal to provide 
additional flexibility for additional match in Canada.
    Ms. Bordallo. All right. And next?
    Mr. Schroeder. I agree. American Bird Conservancy's careful 
reading and review of that legislation would definitely lend to 
that conclusion.
    Ms. Bordallo. All right. Thank you. Now we have, Mr. 
Sutherland, were the Congress not to pass H.R. 3433 what might 
the consequences be for NAWCA projects in Canada and how----
    Mr. Sutherland. Thank you for the question. As I said in my 
very brief statement and more extensively in my written 
testimony, the purpose of NAWCA is to implement the North 
American Waterfowl Management Plan, which recognizes the 
continental scope and nature of waterfowl and other migratory 
birds.
    Wisely, I believe, when Congress wrote NAWCA back in 1989 
they required that funds that were going to be expended in the 
program must be expended in all three of the countries, and the 
way that the law is written it requires that money be spent in 
all three countries.
    Therefore, if it is not able to be spent in any one country 
or let us say outside the United States, where in Canada most 
of the birds are actually produced, the program can't spend all 
of the money then in the United States, so it triggers a 
situation.
    If we can't use the money in Canada, it triggers a 
situation where you won't be able to spend all the money in the 
United States either, and the repercussions will be again 
continental in scope much like the benefits are continental in 
scope.
    Ms. Bordallo. All right. OK. I have another question now 
for Mr. Schroeder and Mr. Daulton.
    There appears to be a broad support for the increased 
authorized funding levels contained in Mr. Kind's legislation, 
H.R. 2213, in part because the program has been so successful 
in generating funds to meet the nonFederal matching 
contribution requirements under the Neotropical Migratory Bird 
Conservation Act.
    Are you not concerned, however, that the current global 
economic slowdown will have a similar drag effect on the 
ability of grant applications to meet nonFederal matching 
contribution requirements, not unlike what has happened for 
NAWCA projects in Canada?
    Mr. Daulton. I will give a try to that first.
    Ms. Bordallo. First? All right.
    Mr. Daulton. I think if you look at the history of the 
program, the matching requirement has been exceeded in the 
past. The legislation requires a three to one match and, 
generally speaking, the match has been closer to four to one in 
practice. So that would be the first thing that I would say is 
that so far we are exceeding the legislatively recommended 
matching requirement for this program.
    Second, the history of NAWCA I think shows that at 
increased levels of authorization a higher level of match can 
be sustained; that the neotropical program has been matching 
funds with a Federal authorization around $5 million or now the 
current cap of $6.5 million. The NAWCA funding has been much 
higher, and yet they have been able to sustain a close to three 
to one match.
    So I think the history with NAWCA actually shows us that as 
you gradually ramp up the authorization we should be able to 
maintain a higher level of match.
    Ms. Bordallo. Mr. Schroeder, do you want to add to that?
    Mr. Schroeder. I would agree with Mr. Daulton, and I think 
the history of the NMBCA program has shown that the quality of 
the proposed projects--when I mentioned in my testimony that 
there were a number, a far greater number of qualified projects 
that exceeded the Fish and Wildlife Service's ability to 
provide that seed money that is the NMBCA, I think that shows 
that mainly Latin America countries are able to provide the 
match if there is an opportunity by the United States to have a 
grant that they can match.
    So I don't anticipate that with a higher authorization 
there would be a flood of projects, proposals that wouldn't be 
qualified. I think that simply we could do more, much more 
conservation work with just a little bit greater investment 
from the United States portion.
    Ms. Bordallo. Thank you very much. My time is up here, but 
I want to ask one quick question to Ms. Cutchin.
    If I heard you correctly, you became aware of the Junior 
Duck Stamp Program more through your own interest and 
initiative than through any marketing or promotion effort by 
U.S. Fish and Wildlife Service. Is that accurate?
    Ms. Cutchin. I actually received an email through Fish and 
Wildlife Service as a teacher and their offering of classes for 
teachers, and that was how I learned of the program.
    Ms. Bordallo. Do you think the Federal government should do 
more?
    Ms. Cutchin. Yes, I do.
    Ms. Bordallo. All right. Thank you. Mr. Wittman, do you 
have any questions?
    Mr. Wittman. Thank you, Madam Chairwoman, and thank you so 
much for your leadership on these issues. I would like to thank 
each and every member of the panel for joining us today and 
thank you for your continued efforts to protect and enhance our 
bird populations. That is extraordinarily important.
    Madam Chairwoman, in the interest of time, I would ask 
unanimous consent to have my remarks today entered into the 
record.
    Ms. Bordallo. Without objection, so ordered.
    Mr. Wittman. Thank you.
    [The prepared statement of Mr. Wittman follows:]

   Statement of The Honorable Robert J. Wittman, a Representative in 
                  Congress from the State of Virginia

    My legislation, H.R. 3433 provides for a simple, timely and 
essential change to the North American Wetlands Conservation Act.
    Under current law, Congress appropriates money each year to be 
spent on projects to acquire, enhance, protect and restore wetlands in 
Canada, Mexico and the United States.
    In fact, this remarkable program, which is now celebrating its 20th 
anniversary, has funded over 1,600 projects to conserve more than 20 
million acres of wetlands and associated uplands across North America. 
This conservation has helped ensure improved waterfowl hunting across 
North America.
    Since 1989, this landmark law has required that each Federal dollar 
spent on a conservation project be matched by non-federal money.
    However, due to the irreplaceable nature of the breeding waterfowl 
habitat in Canada, a decision was made not to require matching funds 
from Canadian sources. Therefore, projects in Canada have been matched 
by conservation dollars from the United States.
    According to the U.S. Fish and Wildlife Service, the North American 
Wetlands Council has approved conservation projects in Canada worth 
nearly $70 million during its current five-year funding cycle which 
began in 2007. Under law, this means that $70 million in private 
matching funds must be provided.
    Under my legislation, the North American Wetlands Conservation Act 
would be amended to allow up to 50 percent of the non-federal share of 
projects in Canada to be paid for by Canadian conservation supporters. 
My legislation will allow and encourage our Canadian conservation 
partners to fund a greater number of important wetland preservation 
projects north of the border.
    The authorization of appropriations for the North American Wetlands 
Conservation Act does not expire until September 30, 2012. We simply 
cannot wait to make this change because the non-matching share 
imbalance will continue to grow and must be paid before the 
authorization expires.
    The language of this legislation has been fully vetted and it is my 
understanding has been endorsed by all interested parties including the 
Fish and Wildlife Service, the member of the North American Wetlands 
Conservation Council which includes, Ducks Unlimited, as well as the 
National Audubon Society and the American Bird Conservancy.
                                 ______
                                 
    Mr. Wittman. I will begin with Mr. Sutherland. Would you 
tell us a little bit about why you think changes to NAWCA, as 
proposed in H.R. 3433, are needed?
    Mr. Sutherland. Thank you. Yes. The primary need is really 
an opportunity. The Canadians, starting 20 years ago, really 
weren't raising a lot of money to go toward NAWCA programs. 
Over the 20 years that the program has existed the Canadians, 
with encouragement from the U.S. Government and from NGO's like 
Ducks Unlimited, have started raising increasing amounts of 
money that can be used as match to these programs, to these 
projects.
    As I said earlier, projects in Canada are extremely 
biologically important to the North American waterfowl resource 
and important to the resource of a lot of other birds as well. 
Therefore, we want to maximize as much habitat out on the 
landscape, the Canadian prairie and other Canadian landscapes, 
as we can.
    Letting the Canadian dollar, the Canadian raised dollar, 
help match the NAWCA projects in similar ways to the way the 
Mexican dollar can match NAWCA projects in their country would 
just expand the situation, expand the number of projects, and 
that would be very useful and very helpful to the birds.
    Mr. Wittman. Thank you. Mr. Schmidt, can you tell us a 
little bit, maybe building on Mr. Sutherland's response? Tell 
us a little bit about the significance of Canadian waterfowl 
habitat and why that is important to the U.S. to be looking at 
enhancing that habitat.
    Mr. Schmidt. Yes, indeed, Mr. Wittman. That is second to 
none in terms of its importance to this continent's waterfowl 
population.
    In the absence of the legislation that you have supported 
and sponsored here, I feel like we would see a consequence that 
would result in not the investment that we need in those high 
priority areas, so they are critical.
    Mr. Wittman. Another question. This is on H.R. 2213. Tell 
us a little bit about the major threats that you think our 
neotropical migratory birds are facing. How many of those 
species are currently on the endangered species list or under 
consideration for threatened status?
    Mr. Schmidt. I would say first and foremost is habitat loss 
throughout the breeding/wintering areas of these species.
    As you no doubt recognize, it requires suitable habitat 
throughout their life cycle. That means cooperation among 
countries, frankly, and among peoples and so in the absence of 
that cooperation and recognition I think habitat loss would be 
the key, one key element of declines for these populations, 
although there are many other reasons for concern.
    And then your second question I will have to get back to 
you on the specifics. I can tell you that 341 neotropical 
migrant birds are covered through this Act, and I think we have 
something like 50 or 60 that are on our birds of conservation 
concern, which are sort of the precursor to, say, the listing 
under ESA. I believe it is a handful, but less than 10, are on 
the endangered species list itself.
    I can get back to you with the specifics associated with 
that, but I think the numbers reflect our general concern for 
the suite of species and the need for this kind of legislation.
    Mr. Wittman. Very good. Can you tell us how much money the 
U.S. Fish and Wildlife Service spends each year to administer 
the Neotropical Migratory Bird Conservation account, and do you 
think there is a sufficient amount to meet administrative 
expenses?
    Mr. Schmidt. The law limits the amount we can actually 
spend to administer it to three percent or $100,000, whichever 
is larger. Three percent of the actual appropriations. I think 
last year I think our administrative costs were about $142,000, 
what we could expend to that, which is the three percent limit.
    Of course, in this program I think you can recognize the 
range of projects in the geographic scope requires a pretty 
significant oversight to ensure that the American taxpayers' 
money is being used wisely and so that certainly is a concern 
for us in terms of the overall administrative constraints to 
make sure that we are expending these the way you and the rest 
of the Congress and ourselves want to make sure that they are 
spent.
    Mr. Wittman. Madam Chairwoman, just as a follow up to that, 
so what you would say is that because of the scope and the 
complexity of that the administrative dollars available may 
fall a little bit short of how to really do as much as we can 
with those resources. Am I correct in that understanding of 
your response?
    Mr. Schmidt. We could do a better job of overseeing the 
program with additional resources. We will use what is 
available to us under the law.
    Mr. Wittman. Very good. Thank you, Madam Chairwoman. I 
yield back.
    Ms. Bordallo. You got that on record, right? One final 
question before we wrap up this morning.
    Mr. Schmidt, what steps has the Service taken to increase 
the visibility of the Junior Duck Stamp Program and the 
availability of its curriculum materials? Will the increase to 
$500,000 for program administration allow additional resources 
for promotion of the program?
    Mr. Schmidt. Thank you for the question. We have tried as 
best we can within the financial constraints that we have. 
Until this year the Fish and Wildlife Service has not requested 
and received funding for this program, so it has been 
constrained.
    Specifically, we have moved the Junior Duck Stamp contest 
around the country in the last several years to try to raise 
the profile and the visibility of this program. We have done 
some of the outreach that Ms. Cutchin has mentioned. We have 
had a touring exhibit. We have improved our website and we are 
in the process of improving the curriculum as well, so I think 
all of those things have contributed to a greater outreach.
    We can do more, and with the request for funding and the 
support from the Congress this year that appears to be imminent 
in the Fiscal Year 2010 budget I feel certain that we can 
expand that.
    In fact, we have developed a strategic plan that if this 
money is appropriated we will implement to reach out further 
than we ever have before in terms of gaining support from other 
teachers who can fit that into their work and their 
expectations from their school boards. We want them to take 
advantage of this program.
    Ms. Bordallo. Good. Those were very positive remarks, and 
they are all on the record.
    I thank all of the witnesses for their participation in the 
hearing today. Members of the Subcommittee may have some 
additional questions for you, and we will ask you to respond to 
these in writing. In addition, the hearing record will be open 
for 10 days for anyone that would like to submit additional 
information for the record.
    I want to thank the Ranking Member, Mr. Wittman, for 
sitting with me during the duration. If there is no further 
business before the Subcommittee, the Chairman again thanks the 
Members of the Subcommittee and our witnesses for their 
participation here this morning, and this Subcommittee now 
stands adjourned.
    [Whereupon, at 11:51 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by Jeff Berlew, Angola, 
Indiana, on H.R. 1054 follows:]

September 15, 2009

Attn: Don Young

RE: H.R. 1054

    I had thought of going polar bear hunting for years, but I finally 
got serious in 2006 and looked for a hunt. I found out that the 
earliest dates were spring of 2008. I sent a check for %5,000.00 to the 
outfitter to save my spot with the understanding that it would be fully 
refundable if the Fish & Wildlife service outlawed imports.
    The fall of 2007 all of the dates needed to be locked down. I was 
able to delay final payment until February 2008 because the final 
decision was to be made by then. Well the day came and went and the 
decision was delayed until after the bear season.
    I could have canceled my hunt and rebook for 2010 (next opening) or 
proceed with my hunt. Well I proceeded with my hunt and was successful 
in getting a really nice bear.
    I did all of the paper work and sent it all in to the Fish & 
Wildlife with my check. Everything was approved; I was just waiting the 
30 day period to get my import permit. In the meantime my legally, 
hunted polar bear skin was tanned and boxed for shipment to my 
taxidermist. Then the ruling and they sent my check back to me 10 days 
before the 30 day waiting period was up.
    I went on this hunt to experience the north environment and to hunt 
a polar bear. I never thought that a decision against the inspection of 
these bears would ever apply to bears that were already dead and 
legally harvested. I was sure my government would protect its citizen's 
rights, as long as everything was done legally and according to the 
rules as they were posted. Well, boy was I disappointed in what my 
rights really mean. (Nothing)
    I guess it doesn't pay to follow the rules does it.

Very Disappointed American Taxpayer,

Jeff Berlew
185 Lane 220 Lake Gage
Angola, IN 46703
Phone: (260) 829-6493
                                 ______
                                 
    [A letter submitted for the record by James M. Box, 
Bloomfield, Iowa, on H.R. 1054 follows:]

The Honorable Don Young
House of Representatives
Washington, DC 20515
In Re: H.R. 1054

Dear Congressman Don Young:

    I am writing to recount my personal story of why I would very much 
like H.R. 1054 to be passed by Congress and signed into law by the 
President.
    For me personally it was the trip of a lifetime, I saved the money 
as I could and kept applying for a permit from a native village for 
several years before being notified that I could indeed make plans to 
go. Yes I took the trophy I waited so long for, that which I read about 
in stories since my youth, but it was so much more. Meeting and dealing 
with the people, them explaining that this was their source of income 
for the family for the year and how the monies were put to use in the 
``community''. They shared with me all facets of life including the 
celebrational dinner after we got the bear. Who knew that bear paw soup 
was an absolute delicacy. No part went to waste. I treasure the time 
and memories I have from that legal hunt. I was shocked to learn so 
quickly afterward that my beautiful trophy would languish in a freezer 
in Edmonton. What good does that do anyone? How could a legally hunted 
trophy, one that was legal when I went on my long awaited trip be so 
swiftly judged unfit to be imported to the US?
    Congressman Young, I hope you can successfully pass and sign into 
law H.R. 1054 and that the bear that fits with my memory will be 
imported into this country soon.
    Thank you for being a voice of reason.

Sincerely,

James M. Box
1984 Little Soap Rd.
Bloomfield, Iowa 52537
                                 ______
                                 
    [A letter submitted for the record by Tim Decker, Apple 
Valley, California, follows:]

                           Tim and Jan Decker

                         14989 Riverside Drive

                     Apple Valley, California 92307

                             (760)-242-4464

                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83f7e9e7e6e0e8e6f1c3f5e6f1eaf9ecedadede6f7">[email&#160;protected]</a>

                           September 15, 2009

Committee On Natural Resources
Congress of the United States

Subject:  H.R. 1054, Proposed Amendment to the Marine Mammals 
Protection Act (MMPA)

    I am writing in support of House Resolution 1054, introduced on 
February 12, 2009 by Representative Don Young of the State of Alaska. I 
am one of the approximately forty-five American hunters whose legally-
taken polar bear trophies are in Canada and cannot be imported because 
of the U.S. Fish and Wildlife Service's ruling on May 14, 2008.
    My polar bear hunt took place in late March and early April of 
2008, and was the culmination of a life-long dream that started when I 
saw a polar bear hunt on ABC's American Sportsman when I was about ten 
years old. For more than forty years I dreamed of going to the top of 
the world to hunt one of these magnificent bears, and in 2008, I 
realized part of that dream. I say ``part of that dream'' because I 
cannot import my trophy, despite the fact that it was completely legal 
to import sport-hunted polar bears on March 23, 2008, the day I took my 
bear.
    I started actively following the importability of polar bear 
trophies in 1972 when the President signed the MMPA into law. From the 
early 1970's to the mid-1990's, I was convinced that my dream of being 
able to hunt a polar bear and bring the trophy home would remain just 
that--a dream. When the USFWS began allowing importation of sport-
hunted bears from Canada in the mid-1990's, I began actively planning 
my hunt. I put a deposit down in January of 2002, but had to wait until 
the spring of 2008 to get one of the highly-sought-after permits.
    When I departed for Resolute Bay in Nunavut Territory, polar bears 
from the Lancaster Sound population were completely importable, and 
that was the status on March 23, 2008 when I completed my quest to take 
one of the most magnificent trophies in the world in totally fair 
chase. I immediately began the application process to get my trophy 
into the United States when I returned to California, sending the 
application to the U.S. Fish and Wildlife Service on April 11, 2008.
    When the USFWS notified me in July of 2008 that it was 
administratively stopping the processing of my application, I was 
crushed. I am not a wealthy man. To date, I have spent more than 
$48,000.00 to make this dream a reality, and, to put that figure in 
perspective, it represents 30% of my family's income for all of 2008. 
Years of planning, months of preparation, days and nights spent in 
temperatures reaching as low as -45 degrees Fahrenheit, and frostbite 
on two of my fingers and my nose all appeared to be for naught. Like 
hunters from time immemorial, I want to have the physical trophy as a 
constant reminder of my time in the High Arctic. Not allowing me or the 
other affected hunters to import our trophies will not bring those 
bears back to life.

Sincerely,

Timothy R. Decker

Copy Furnished: The Honorable Jerry Lewis
                                 ______
                                 
    [A statement submitted for the record by Jeff Flocken, 
Washington, D.C., Office Director, on behalf of the 
International Fund for Animal Welfare, on H.R. 1054 follows:]

  Statement submitted for the record by Jeff Flocken, Washington, DC 
Office Director on behalf of The International Fund for Animal Welfare 
(IFAW), on H.R. 1054, A Bill to Amend the Marine Mammal Protection Act 
  of 1972 to Allow Importation of Polar Bear Trophies Taken in Sports 
                            Hunts in Canada

    Polar bears, the largest predators on land, have become the 
worldwide poster child for the impact that global warming is having on 
our planet. These majestic animals are completely dependent on their 
Arctic sea-ice habitat, a habitat that is rapidly shrinking as global 
warming melts the sea ice that polar bears need to breed, den, and 
hunt. The result is drowning bears, starvation, litters of fewer 
offspring, and lower cub survival rates.
    There are estimated to be between 20,000 and 25,000 remaining polar 
bears in the world and that number is decreasing. And while melting sea 
ice, habitat degradation, and pollution have placed polar bears in the 
fragile state they are in, commercial trade and trophy hunting continue 
to result in hundreds of polar bear deaths annually--thereby acting as 
a catalyst to the species' extinction.
    While polar bears are of great socio-cultural importance for the 
Inuit, polar bears did not factor into the diet of pre-modern Inuit in 
any significant fashion, and the take was significantly lower. In 
recent years, however, sport hunting in Canada and Greenland has 
dramatically increased the number of polar bears taken from the wild.
    Since the 1973 ``Agreement on the Conservation of Polar Bears'' was 
enacted, Norway, the United States and Russia have banned the non-
subsistence killing of polar bears. Further, as of April 2008, 
Greenland has instituted a temporary ban on the export of polar bear 
trophies. Today Canada is the only country actively involved in the 
polar bear trophy-hunt.
    Congress, at the behest of special interest groups, created a 
loophole in the Marine Mammal Protection Act in 1994 to allow Americans 
to hunt polar bears in Canada and bring home their trophies despite the 
effective ban then in place. Since 1997, over 960 permits were issued 
to American hunters by the U.S. Fish and Wildlife Service (FWS) for the 
importation of trophy-hunted polar bear heads and hides.
    In September, 2007, the U.S. Geological Survey (USGS) released a 
series of reports commissioned by the Department of the Interior 
concluding that by 2050, less than 45 years from now, we will have lost 
fully two-thirds of the world's polar bear populations. The USGS 
predicted that the remaining polar bears would disappear gradually 
after that, with only a small population hanging on to see the next 
century. Soon after, the International Union for Conservation of Nature 
(IUCN) Polar Bear Specialist Group reached similar conclusions--
specifically, that the polar bear population could drop 30 percent in 
the coming 35-50 years and that polar bears may disappear from most of 
their range within 100 years.
    Following these dire scientific predictions, the FWS listed polar 
bears as a threatened species under the Endangered Species Act (ESA) on 
May 15, 2008. The listing triggered a provision of the Marine Mammal 
Protection Act (MMPA) automatically designating polar bears as 
``depleted'' which resulted in a ban on all imports of sport hunted 
polar bear trophies into the United States.
    Between February 15, 2005, when a coalition of wildlife 
conservation groups filed a petition for the FWS to consider listing of 
the polar bears as a threatened or endangered species under the ESA, 
and May, 2008, when the FWS listed polar bears as threatened, the FWS 
put prospective polar bear hunters on notice of the petition for 
listing and the prohibitive consequences that listing would have on 
their ability to import trophies. FWS accomplished this through direct 
response to inquiries and targeted outreach at events where hunters 
were present--such as the Safari Club International annual hunters' 
conventions in 2007 and 2008, where FWS had an outreach booth to inform 
Safari Club International's members about the proposed listing and its 
implications.
    Despite this public notice, and considerable media attention on the 
plight of the polar bears between the time the petition was filed and 
the listing, numerous hunters chose to proceed with their hunts of this 
imperiled animal. In some cases these hunters may have been encouraged 
by industry salespersons and operators to take bears before the 
listing. As movement towards listing was made, publications written and 
read by trophy hunt retailers, guide companies and potential hunters 
wrote extensively about the risk that the opportunity to hunt polar 
bears might soon be a thing of the past. A desire to beat the deadline 
undoubtedly played a part in the number of polar bears killed by trophy 
hunters in Canada in the 2006-07 hunt year reaching 150. This stands in 
marked contrast to the average number of polar bears, 102, killed by 
trophy hunters each year in the five previous hunt years.
    H.R. 1054 seeks to allow importation of sport hunted polar bear 
trophies from approximately 43 hunters who submitted permits between 
November 2007 and May 2008. These hunters submitted their requests 
after wide-spread media attention to the imperilment of the polar bear 
and targeted information campaigns about the pending listing had 
already taken place. It is likely that most of, if not all of these 
hunters filed these requests knowing that their permits could be 
denied.
    IFAW is also actively involved in litigation defending the polar 
bear listing in the federal courts for the District of Columbia. While 
litigation is pending, pursuing this legislation is inappropriate. If 
the sport-hunting groups prevail in the current ESA listing litigation, 
this bill would be entirely superfluous. If the species were no longer 
listed as threatened under the ESA, the species would no longer be 
depleted under the MMPA and FWS would reinstate the polar bear trophy 
import permit program.
    Passing H.R. 1054 would set a dangerous example to the world by 
rewarding opportunistic, last-minute killing of a species known to be 
threatened with extinction. Moreover, if Congress passes this bill, 
hunters will have every right to assume that they can continue to hunt 
bears in Canada with the expectation that the U.S. government will 
later allow the import of these animals.
    There are still real opportunities for the U.S. government to build 
on their commitment to saving polar bears that we should be focusing on 
instead. Despite their low numbers, polar bears are only listed on 
Convention on International Trade in Endangered Species of Wild Fauna 
and Flora (CITES) as an Appendix II species. The FWS should submit a 
proposal to the CITES Conference of the Parties (COP) calling for polar 
bears to be moved from Appendix II to Appendix I, which would prohibit 
international commercial trade of the species.
    Export and import data from reporting countries shows that between 
300 and 400 polar bears are commercially traded each year. Data from 
the UNEP-WCMC CITES trade database indicates that in 2007, more than 
1552 polar bear specimens of 23 types were exported for ``commercial'' 
purposes, and 162 of 14 types for ``hunting trophy'' purposes. 
Commercial exports in 2007 included 851 skin pieces, 554 skins (one of 
the largest number exported in any year on record), 137 claws and eight 
bodies; in other years commercial exports included trophies, teeth, 
skulls, bones, carvings, gall bladders and live animals. Hunting trophy 
exports in 2007 included 128 trophies (the largest number exported in 
any year on record), 7 skins, four bones, and 23 skulls. With 
extinction looming, a precautionary approach to the conservation of 
this species calls for an immediate end to this trade.
    On July 15, 2009, FWS indicated in the Federal Register that they 
are considering proposing polar bears for an uplisting at the March 
2010 CITES COP to be held in Doha, Qatar. The FWS has until October 
14th to notify the CITES Secretariat of their commitment to submit a 
proposal for consideration at the COP to transfer the polar bear from 
Appendix II to Appendix I. Such an uplisting will ensure that 
international trade will not continue to exacerbate the negative impact 
habitat loss has on the species.
    Congress has already legislated an appropriate interplay between 
the ESA and MMPA. Permitting U.S. sport hunters to continue to import 
polar bear trophies after the listing of a species is contrary to the 
principles of conservation inherent in both the ESA and MMPA. The best 
scientific information regarding current and future threats to the 
polar bear clearly indicates that the species is threatened throughout 
its range. The International Fund for Animal Welfare respectfully 
requests on behalf of its 1.2 million supporters that the members of 
the House Committee on Natural Resources, Subcommittee on Insular 
Affairs, Oceans, and Wildlife, oppose H.R. 1054--a bill that would 
reward the needless killing of an imperiled species. Instead, we hope 
that the Subcommittee will encourage the Administration to find ways to 
further protect and conserve endangered polar bear populations, such as 
proposing an uplisting of polar bears from Appendix II to Appendix I at 
the CITES COP15.
                                 ______
                                 
    [A document submitted for the record by The Humane Society 
of the United States, Outreach by Hunting Group on Polar Bears, 
follows:]

                  Humane Society of the United States

                       Submission for the Record

                Outreach by Hunting Group on Polar Bears

                     January 2006 to April 29, 2008

                          (Documents Attached)

January 2006--The Hunting Report--``The real flashpoint is that 
petition to uplist the polar bear to threatened...''

January 9, 2007--Conservation Force website: The Truth About That Polar 
Bear Petition--``A 169-page petition to list all polar bear under the 
U.S. Endangered Species Act was filed on February 16, 2005 by the 
Center for Biological Diversity...''

January 2007--Conservation Force ``Dear Supporter'' letter ``RE: Polar 
Bear Emergency...The USF&WS is taking the Endangered Species Act where 
it has never been. It is proposing that all the polar bear in the world 
be listed...''

September 21, 2007--Safari Club International. ``SCI Action Alert'' E-
mail--``SCI needs your help to prevent an unnecessary and potentially 
harmful listing of polar bears under the Endangered Species Act.''

October 4, 2007--Safari Club International. ``In the Crosshairs'' E-
mail bulletin--``the U.S. Fish and Wildlife Service announced it will 
give the public additional time to review and comment on nine new 
research papers analyzing polar bear population status and threats by 
extending its currently open public comment period until October 22, 
2007.''

October 19, 2007--Safari Club International. ``In the Crosshairs'' E-
mail bulletin--``On October 22, 2007, SCI and SCIF will submit 
additional comments opposing the proposed listing of the polar bears as 
threatened under the Endangered Species Act...''

October 23, 2007--Safari Club International. ``In the Crosshairs'' E-
mail bulletin--``Yesterday SCI submitted another set of comments 
opposing the U.S. Fish and Wildlife Service's proposed listing of the 
polar bear under the Endangered Species Act...''

October 31, 2007--U.S. Sportsmen's Alliance. ``On Target'' e-mail 
newsletter--``The USSA continues its objections to a proposal to use 
the Endangered Species Act to prohibit the hunting of healthy bear 
populations.''

December 2007 Conservation Force--``The Hunting Report'' Newsletter, 
Volume 27, Number 12. Page 9--``American hunters are asking us whether 
they should even look at polar bears in light of the current effort by 
U.S. Fish and Wildlife Service to list this species as threatened...''

January 2008--Conservation Force--``The Hunting Report'' Extra 
Bulletin.--``The most demanding development was the proposal to list 
the polar bear that was published in the last few days of 2006...''

January 7, 2008--Safari Club International. ``In the Crosshairs'' E-
mail bulletin--``U.S. Fish and Wildlife Service Postpones Decision on 
Polar Bear Listing.''

February 2008--The Hunting Report--``US Fish and Wildlife Service 
Postpones Polar Bear Decision: The U.S. Fish & Wildlife 
Service...should have announced its decision whether to list polar bear 
as a threatened species...but instead announced a delay until the end 
of January...''

February 22, 2008--Safari Club International. ``In the Crosshairs'' E-
mail bulletin--``Polar Bear Update.''

April 17, 2008--Safari Club International. ``In the Crosshairs'' E-mail 
bulletin--``SCI Among Coalition Defending Polar Bear Hunting in Senate 
Hearing.''

April 29, 2009--Safari Club International ``In the Crosshairs'' E-mail 
bulletin--``On April 28, 2008, a U.S. District Court in California 
ordered the U.S. Fish and Wildlife Service to publish a final decision 
on the proposed listing of polar bears under the Endangered Species Act 
by May 15, 2008 and makes that listing decision effective 
immediately...''
                                 ______
                                 
    [Statements submitted for the record by The Honorable Ron 
Kind, a Representative in Congress from the State of Wisconsin, 
on H.R. 1054 and H.R. 2213 follows:]

Statement of The Honorable Ron Kind, a Representative in Congress from 
                  the State of Wisconsin, on H.R. 1054

    Madame Chairwoman I commend the Committee for reviewing this 
legislation. In May 2009, the U.S. Fish and Wildlife Service listed 
polar bears under the Endangered Species Act (ESA). Prior to this 
listing, a number of American citizens participated in authorized hunts 
from approved polar bear populations. With the ESA listing, the polar 
bear is now labeled a ``depleted species'' under the Marine Mammal 
Protection Act (MMPA), and thus banned from importation.
    As policymakers, we should not deny American hunters who engaged in 
a lawful, regulated activity the ability to import their legally taken 
polar bear trophies. This bill would simply amend the MPPA to authorize 
the Secretary to issue import permits to the approximately 41 hunters 
impacted by the Endangered Species Act listing.
    Conservation is important and by allowing these bears into the 
U.S., up to $41,000 would be raised to support conservation and 
research activities for the U.S.-Russia polar bear population. Sport 
hunting and importation brings millions of dollars to local communities 
and international polar bear conservation efforts. These already 
harvested bears provide no conservation value sitting in cold-storage 
warehouses in Canada. The 41 hunters impacted by this regulatory 
change, conducted their hunt in accordance with science-based 
management practices; we should allow them to obtain their legal 
property.
                                 ______
                                 

Statement of The Honorable Ron Kind, a Representative in Congress from 
                  the State of Wisconsin, on H.R. 2213

    Madame Chairwoman, I applaud the Subcommittee on holding this 
important hearing today and would like to express my ardent support of 
H.R. 2213, to authorize the Neotropical Migratory Bird Conservation. 
This important legislation would reauthorize this valuable program and 
maximize the impact of its conservation goals.
    This Act was first passed by congress in 2000 and has a proven 
track record of reversing habitat loss and degradation. It has also 
advanced innovative management and habitat restoration strategies for 
the broad range of Neotropical birds. This non-controversial, widely 
supported legislation would provide the United State Fish and Wildlife 
Service with the necessary funding to effectively fund conservation 
projects benefitting America's migratory birds.
    Nearly five billion Neotropical migratory birds migrate between 
their breeding grounds and their overwintering habitats. The long-term 
survival of these birds is dependent on the continued preservation of 
essential habitat. The Neotropical Migratory Bird Conservation Act 
facilitates the funding for on-the-ground conservation projects, public 
awareness and enhanced coordination among states. This program was last 
reauthorized in 2006 and the demand for this program far exceeds 
available funding. We must continue to support successful programs such 
as this. Providing increased authorized funding is needed to ensure the 
341 species of migratory birds continue to be protected.
    Migratory birds contribute to our environmental and economic well-
being. Many of these species protect crops and forests by feeding on 
insect pests. In addition, birds support a significant component of the 
economy. I know throughout my congressional district, which borders 
more shoreline along the Mississippi River than any other district, 
bird watching has become a large part of our recreational economy. In 
fact, the upper Mississippi river basin is North America's largest 
waterfowl migrating route; each year 40% of all waterfowl species pass 
through the basin during migration. Additionally, Americans spend more 
than $36 billion each year participating in bird-related recreation--
birding is the fastest growing outdoor recreational activity in many 
parts of the country.
    Finally, this legislation would provide very modest, staggered 
increases in funding over five years. While I feel more funding is 
needed for this important program, reauthorization of the program is of 
the utmost importance. Therefore, I urge all my colleagues to support 
this bill.
                                 ______
                                 
    [A letter submitted for the record by Tom Kooistra on H.R. 
1054 follows:]

Mr. Don Young
U.S. House of Representatives
Washington, DC

Dear Mr. Young

    My hunt for polar bear was truly a hunt of a life time. I am not a 
rich person and I needed to save for several years to afford the hunt. 
I could only go once. For the area that I hunted, you are put on a 
waiting list, and my name came up for 2008. We knew that the polar bear 
was being considered for threatened status, but the deadlines for the 
decision kept being postponed. I finally made the decision to go as the 
season had started and everyone felt that the USF&W would now wait till 
after the season was over to list the bear. After I got my bear in Late 
April, I applied for an import permit and was on the 30 day waiting 
period in the Federal Register when the polar bear was listed. If we 
had been given the usual 30 day period before the listing went into 
effect, I probably would have been able to import my bear.
    The question is why I went polar bear hunting. The reasons are 
several. The polar bear is considered to be one of the great trophies 
in the world and I had the chance to try for one. There was the 
opportunity to experience the high arctic with the midnight sun and 
hunt on the ice with sled dogs and the Inuit people. To dress in 
caribou hides. This was something few people get to do. This is a hunt 
I will always remember. This is why I would like to import my bear, to 
have it mounted and show respect for the animal and the hunt, not just 
kill it and waste the hide.

Sincerely,

Tom Kooistra
                                 ______
                                 
    [A letter submitted for the record by Ron Kreider, 
Lancaster, Pennsylvania, on H.R. 1054 follows:]

September 14, 2009

Dear Congressman Young,

    I am one of the U.S. citizens that legally hunted polar bear in 
Canada in March, 2008 and have subsequently been denied to import the 
trophy into the U.S..
    I booked my hunt with the Inuits in Ulukhaktok, NWT, Canada 
approximately 3 years prior to having the privilege of securing the 
Canadian permit to hunt and harvest a polar bear. It was a lifelong 
dream to be able to hunt one of these animals and I was fortunate to be 
able to experience life in the arctic as well as to harvest a bear in 
the process. What I never imagined when I booked the hunt and sent the 
large downpayment for the $32,000 hunt was that the U.S. government 
would eventually deny me the right to bring my perfectly legal game 
animal back into the U.S. If I would have know that this would happen, 
I would have never sent the money to Canada in the first place.
    I shot the polar bear on April 1, 2008 and subsequently filed for a 
CITES import permit to U.S.F & W as soon as I returned home. They 
received my application fee and stamped my application on April 16th. 
It typically takes about 60 days to get the permit however on May 15 
(30 days later) is when they listed the polar bear as threatened which 
immediately stopped the process. In fact, U.S.F.&W. mailed my check 
back to me. I just needed 4 more weeks to allow the process to work and 
I would have had my permit!
    I have already spent $ 5,000.00 with my personal attorney just to 
try to preserve my right to appeal and to eventually get my legally 
hunted bear back to my house.
    Last year when I was hunting Big Horn Sheep, I stopped in Edmonton, 
Alberta to locate my polar bear hide at the taxidermist, and then took 
pictures of it. We are now trying to figure out and to understand the 
cost and processes we must go through to preserve the hide for the next 
couple of years until justice is served.
    This is a very sad story about American politics. Thank you for 
your efforts.

Ron Kreider
Lancaster County, Pennsylvania
                                 ______
                                 
    [A letter submitted for the record by Ethel Doris Leedy, 
Delta Junction, Alaska, on H.R. 1054 follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [A letter submitted for the record by James Richard 
Martell, Glenns Ferry, Idaho, on H.R. 1054 follows:]

September 17, 2009

Congressman Don Young
2111 Rayburn Building
Washington, DC 20515

Dear Congressman Young,

    I am writing to thank you for your efforts to have the Marine 
Protection Act amended to allow the import of my polar bear.
    I was fortunate to be able to go on the hunt of a lifetime for the 
magnificent polar bear in February/March of 2008. It actually would 
take three separate hunts to harvest my bear. This was one of the 
hardest hunts I had ever taken. Temperatures were down to 40 degrees 
below zero and I ended up with frostbite, ending my first trip. 
Returning to the Northwest Territories a few weeks later found 
undesirable weather conditions, which ended hunt number two. After a 
call from my Canadian guide telling me he was seeing polar bear I 
returned for the third time. I was finally successful in harvesting a 
beautiful bear and it had been a wonderful experience but also totally 
harsh and exhausting.
    Returning home I applied for an import permit from the U.S. Fish 
and Wildlife Service on March 25th, 2009. Nearly a month later the 
permit was published in the Federal Register. Three weeks later the 
polar bear was added to the Endangered Species Act but I believe that I 
should be able to bring home my trophy because I did harvest it legally 
and before this act was imposed. My trophy is now in storage in Canada 
and will become useless to me and anyone else. The harvesting of my 
polar bear did not increase overall polar bear mortality as foreign 
hunters and the native community have access to the same number of 
permits.
    Thank you again for your efforts to help us get our polar bear 
trophies home.

Sincerely,

James Richard Martell
725 S. Martell Lane
Glenns Ferry, Idaho 83623
                                 ______
                                 
    [A letter submitted for the record by James Mazur, 
Sheridan, Wyoming, on H.R. 1054 follows:]

September 27, 2009

Congressman Don Young
Washington D.C. 20515

Dear Sir:

    I am one of the hunters who legally harvested a Polar Bear in 
Canada in April of 2008. I understood the issue of legally importing 
the trophy into the United States. I had submitted my request to import 
to the U.S. fish and Wildlife Service and was advertized in the Federal 
Register and was awaiting the 30 day waiting period when the USFWS 
changed the status of the Polar Bear and refunded my application fee 
and refused my application to import. Since then the hide has been 
tanned and is in storage in Calgary, Alberta Canada(at Boland 
Taxidermy). I thought at the time that the action was unfair since I 
had harvested the bear in the first place when it was legal in both 
Canada and the United States. In fact, I was stunned to learn of any 
action to ban the import of the bear until the end of my hunt when I 
was talking to a fellow U.S. hunter who was just starting his hunt. He 
said there was some legal action in process to change the status of the 
Polar Bear and that I had better hurry to get my paperwork done. 
Unfortunately I was too late.
    But as you have already surmised I have paid storage fees 
continuously for a year because I thought that eventually somebody in 
the government would do the right thing.
    It is not my style to complain about the fairness of the decision. 
Both the Canadian government and the Inuit community steadfastly claim 
that under the current rules, the Polar Bear is neither threatened nor 
under stress. Whether that will occur in the future is still to be 
determined. However, if it does occur and it is due to the retreating 
Ice Cap, limiting the polar hunting at this time will only add to the 
stress put on the Polar Bear herd due to the increased population and 
decreasing food supply. Common sense ecology has never been a strong 
point of certain untrained individuals.
    The Polar Bear is one of the toughest trophies out there. I 
personally drove a snowmobile over 200 miles to get to the spot on the 
ice where we transferred to dogsled for the actual hunt. It was a 12 
hour ride in -40F weather. Both the dogsled and the snowmobile rides 
are tremendously bumpy and are a severe test of endurance. There were 
just 2 camps in a 40 mile radius out on the ice. Not much room for 
error if there was an injury or simple rip of clothing. I paid 
approximately $30,00.00 to participate in the hunt. Approximately 
$5000.00 went to the Inuit governors who received the tag from the 
Canadian government. The rest went to three Inuit hunters who organized 
and conducted the hunt (James Pokiak, Tuktoyaktuk, Northwest 
Territories). I consider the very high cost of the hunt was well 
distributed among the Inuits as neither James nor any of his assistants 
were in even close to being rich. They lived more like middle class, as 
I learned when I stayed at their house for a period of 4 days.
    I am not rich. Although I am also not poor, a $30,000.00 hunt does 
represent a massive expenditure of funds. I had saved for quite a while 
to afford this trip. The appeal, to me, was the experience of the 
Arctic as well as the rarity of the trophy. There are many other 
hunters who would have flown out to the remote camp (at $5000.00) each 
way and spend the least amount of time out in the weather. I could 
neither afford to do it ands even if I could, I would not have done it. 
It was the total experience that I wanted. I also did not consider that 
I might have been one of the last hunters out there. The ample 
population of bears and the fact that there are always tags available 
someplace in Canada led me to believe that the opportunity to harvest a 
Polar Bear would be available in the future. The reason that I went 
when I did was that I was 64 years old and I had finally saved 
sufficient funds to afford the trip. As tough as it was, I wonder 
whether I would ever do it later.
    In summary, my Polar Bear hunt was a hunt of a lifetime. It 
required a significant expenditure of funds, and it was done when all 
aspects of the hunt (the tag and the import of the trophy) was merely a 
matter of paperwork. I was crushed by the sudden change of status which 
I considered patently unfair. I heartily applaud your efforts to right 
what I believe to be a wrong and allow the import of my trophy which 
was legally taken. I had assumed it would be legally allowed to be 
imported at the time of my hunt booking as well as the entire time I 
participated in the hunt.
    As for the core issue of the Polar Bear status, I hope you would 
take some action to provide some sound ecological facts about the 
actual effects of the shift in the ice floe on the Polar Bear 
population. If it would save the population to forbid hunting until and 
if the Ice Cap stabilizes, you have my full support. As a hunter I am 
interested in real animal conservation.

Sincerely:

James Mazur
5 Sherri View Dr.
Sheridan, Wyoming 82801
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="60151401080d011a151213200d130e4e030f0d">[email&#160;protected]</a>
                                 ______
                                 
    [A Letter submitted for the record by Jeffrey J. Sevor, 
DMD, on H.R. 1054 follows:]

September 15, 2009

Don Young
Congressman For All Alaska
2111 Rayburn Building
Washington, DC 20515

Dear Mr. Young,

    Thank you for taking up the cause of not being able to bring my 
legally harvested Polar Bear trophy into the United States. Many of us 
are in the same boat and it is refreshing to see someone take an 
interest in this problem. As a traveling hunter, I know full well the 
conservation and economic positive effects that sport hunting can 
provide to species preservation and indigenous communities.
    My personal decision to hunt Polar Bear was based on my ability to 
experience the Arctic climate as well as the ability to interact with 
the Inuit community. My hunt was scheduled in April 2008. At that time 
the rules under the Marine Mammal Protection Act permitted the 
importation of my Polar Bear trophy. All local and U.S. federal laws 
were followed in my successful Arctic experience. A few weeks after my 
return to my home in Florida, I was shocked to see Secretary of the 
Interior Dirk Kempthorne decided to list the Polar bear as a threatened 
species under the Endangered Species Act. This was done in spite of 
Polar Bear numbers being at record high levels. This is an 
unprecedented move in species management.
    As to my personal situation, federal law was violated when a 30 day 
notice period was not observed and the law in fact became retroactive 
by not allowing me the importation of my legally permitted and 
harvested bear. The species management issue aside for now; this is 
completely unfair. What benefit is it to the harvested bear or the 
United States of America to block a legally taken animal from coming 
into the country? Too often the USFWS is at odds with and entertains an 
adversarial relationship with the law abiding U.S. citizen hunter. On 
the other hand this same USFWS still allows the importation of live 
Burmese Pythons into the country. These live specimens are currently 
devastating the ecosystem of my South Florida.
    I ask only for fairness and common sense in these decisions. Thanks 
again to Congressman Young for taking up this issue.

Sincerely,

Jeffrey J. Sevor DMD
                                 ______
                                 
    ]A letter submitted for the record by Ted Stallings on H.R. 
1054 follows:]

September 21, 2009

Congressman Don Young
Congress of the United States
House of Representatives
2111 Rayburn Building
Washington, DC 20515

Dear Congressman Young:

    In response to your letter concerning H.R. 1054, I would like to 
make you aware of the circumstances leading to my desire to hunt a 
polar bear.
    I was born in New Mexico in 1958, grew up on a farm and ranch 
learning to respect the outdoors. I began hunting, fishing and enjoying 
the wildlife as a child with my father. My father also brought me into 
his crop dusting business and taught me to fly at an early age. From my 
youth to present day, our business expanded from farm and ranch 
spraying to the businesses that I currently own and operate, Aero Tech, 
Inc., Aero Tech, LLC and Aero Tech Transport. Our focus is fighting 
fires, fire rehabilitation and controlling noxious weeds and invasive 
insects for state and federal government agencies throughout the USA 
and other countries.
    As I grew older and became more successful in the aviation 
industry, I was able to expand my experiences in the world of hunting. 
At the age of 30, my goal was to take all 31 North American species of 
animals. As you know, the ``North American 31'' requires the harvest of 
a mature representation of all 31 North American game species.
    In 1990, while spraying gypsy moths for the Commonwealth of 
Pennsylvania, I experienced an unfortunate aircraft accident, which 
almost cost me my life. I was severely burned over 84% of my body and 
given less than a 1% chance to live for the first five weeks. After 
many surgeries and answered prayers, they decided I was going to live, 
but I was told I would never walk due to spinal injuries suffered 
during the accident. After eight months of hospitalization, multiple 
surgeries and extensive rehabilitation, I was released. I was told that 
I would never be able to ride a horse again or endure temperatures 
below 60+ or above 80+.
    During rehab, I began to get my life back on track and set my 
goals. Thru the Grace of God, I slowly learned to walk again, started 
flying and riding horses again. Four years after my accident, I won New 
Mexico State Championship Team Penning Championship on horseback. In 
1997, while snow skiing with my son I began to realize that my body 
could indeed handle some colder temperatures. That is when I began 
dreaming of fulfilling my polar bear tag. Having already taken my 
grizzly bear, black bear and brown bear, the only one remaining was the 
polar bear to fulfill my lifelong dream. I began planning my hunt. 
Polar bear hunting generally ends the last of May due to the beginning 
of summer. I visited with several outfitters and explained my 
situation, still not knowing if I could withstand the cold. We decided 
to plan my hunt as close to the end of the season as possible so the 
temperatures would be more bearable.
    In 2006, I booked my first polar bear hunt, with an importable 
license, to Tuktoyaktuk Northwest Territories Canada. I planned the 
hunt for late May because this is the warmest period of the polar bear 
hunting season where temperatures averaged 15+ below zero. However, at 
that time of year, the ice begins to break up and traveling by dog sled 
was slow. We experienced rough ice and could not travel the 60 miles to 
open water where the bears were know to be. After trying several 
avenues and enduring the elements for days, we simply had to give up 
and turn around.
    I learned a lot about myself and about polar bear hunting. I 
realized, with specially made clothing, used by Mount Everest climbers, 
I could tolerate the cold and that if I really wanted a bear, I needed 
to go further north and go earlier in the season when the bears would 
still be moving on the ice. The bears consider 15+ below as warm and do 
not move as much as they do when it is really cold!
    After extensive research, I was fortunate enough to schedule 
another polar bear hunt, with an importable license for 2008, to 
Norwegian Bay, Nunavut, Canada. This hunting area encompasses from the 
North Pole to approximately 800 miles south to the lower tip of 
Norwegian Bay toward Grise Fiord. Grise is the coldest and northern 
most inhabited settlement on earth and is known for its high 
concentration of polar bears. If I survived this, my goal would be 
fulfilled. The temperatures would average 45+ below zero in April. The 
polar bear is common there. In fact, they are so numerous, they are a 
major problem for the locals in the village of Grise.
    In early April I departed on my hunt. After two days of airlines, I 
arrived in Resolute, Nunavut, Canada where I stayed for four days 
attempting to climate myself to the temperatures. I then flew another 7 
hours on Boric Air, a charted twin Otter airplane on skis, to where I 
met my Inuit guides who had been traveling for 3 days by dog sled from 
Grise Fiord just to get to the beginning of the hunting area. The 
airplane never shut down, it dropped me off and departed. I have always 
found the Inuit people to be very sensitive and innovative people. The 
hunt was scheduled for 12 days. We traveled constantly and moved on the 
ice in temperatures averaging 45+ below zero. Just being in 45+ below 
temperatures, 24 hours a day, with nowhere to be but outside was a true 
experience. We spotted numerous bears every day, but I was determined 
not to take a bear unless it was a mature, trophy boar. On the sixth 
day and after over $100,000 invested, I took my trophy polar bear. My 
guides were ecstatic about the size as it squared 11 feet, bigger than 
any bear which they had seen or harvested in years. Upon further 
examination of the bear, they noticed a tattoo inside the lip from 
where the bear was captured and tattooed as a cub. The tattoo number 
was called into the game department where the data was kept and the 
bear was recorded to be 22 years old; one of the oldest bears ever 
harvested. It was a dream of a lifetime and completed my slam of bears.
    When I first planned my hunt, I had heard of the possibility of the 
polar bears being listed as endangered as early as June 28th of 2008. I 
made sure my first polar bear hunt was from an area which was 
importable and that I had an importable tag. When my first hunt was 
unsuccessful, I made sure my second polar bear hunt was importable as 
well. It was my understanding that once the bear was harvested, it 
could take a maximum of 60 days to get the permit processed with the 
U.S. Fish & Wildlife. With my hunt being in April, I was still within 
the maximum 60 day time period allowed to process my permit, even 
though the April cold would cause me to life threatening temperatures. 
I harvested my bear on April 16th and had my permit into the U.S. Fish 
and Wildlife by April 21st. I believed that was plenty of time for the 
maximum 60 day process allotment. Then, to everyone's surprise, the 
California judge ruled early, on May 13th to stop the importation of 
polar bears into the USA.
    Today, I have a bear sitting in a freezer in Canada where it is 45+ 
degrees warmer than where I harvested the bear at 45+ below zero. It 
does not make since that I am allowed to send the bear to any country 
in the world except the USA. It is truly an injustice to the bear, as 
well as to me, to not be able to show it to the people of America and 
share my experiences with the ``creatures and people of the North''. 
The bear was a legally taken trophy bear from an importable area and it 
is already dead. It cannot be any deader than it is today. Please allow 
me mount it life size, display it in a showcase and bring it home to be 
seen and appreciated in my home country.

Ted Stallings

                                 ______
                                 
    [A letter submitted for the record by Larry R. Steiner, 
Safari Club International, on H.R. 1054 follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [An email submitted for the record by Darwin J. Vander Esch 
on H.R. 1054 follows:]

September 10, 2009

Mr. Don Young,

    Thank you for your email and introducing legislation, H.R. 1054.
    Yes, I am one of the many hunters that went to Canada in the spring 
of 2008 to Polar Bear Hunt. I have been hunting and enjoying the 
outdoors since I was 5 years of age. My wife and I own Heavens Gate 
Outfitters, in Riggins, Idaho. We provide a packing and hunting service 
here in Idaho and Alaska. Our trips very from camping, fishing, sight 
seeing,and hunting of elk, deer, blk. bear, mnt. lion, mnt. goat, 
sheep, bobcat, coyote, Alaskan brown bear, to various upland game 
birds. Hunting of wild game is a vary good tool for managing our 
wildlife.
    As everyone should know there must be a checks and balance in 
everything we do and this also applies to managing our wildlife. I love 
to see and enjoy nature at it's best, and that is why I limit the hunts 
that we do, what good does it do for me to go out and kill everything 
there is, I would put myself out of business. We have great Wildlife 
and Fish and Game Departments thru out the U.S. and Canada that 
regulate the taken of our wildlife populations and watch the checks and 
balances, and they should be the ones to decided what needs to be done 
and not some activest group.
    When the Judge in California made the ruling that the bears needed 
to be relisted, there was no allowance or consideration ever given for 
those Polar Bears that were already harvested. Isn't it ironic that a 
group of people that do not like anything wasted would not consider the 
waste of these Polar Bear hides and the disgrace to them, by leaving 
them to go to waste in Canada and not allowing them to be imported so 
they can be mounted and shown for there great beauty of the species, or 
used as a schooling tool.
    There is no hunter out there, that wants to see populations of 
animals wiped out. Hunters spend millions of dollars a year to provide 
habitat and research to better our wildlife populations, to ensure 
there continued life for all to enjoy.
    I have dreamed of hunting thru out the world since I was a little 
boy reading Fur, Fish and Game magazines. The Polar Bear has always 
been a dream hunt of mine. I saved 25,000.00 dollars for this hunt and 
borrowed 20,000.00 to pay for the trip. This hunt provided much needed 
funds for the communitee of Griese Ford, Northwest Territories, Canada 
and the Inuit People that live there. This trip was by no means easy, 
as you had to servive night and day on the ice at 45 to 55 below zero 
F. I hunted from the 21rst of March to the 24th 2008. I had applied for 
my import permit and was 8 days from getting it back from public 
notification when the bears were listed. This can't be a one way 
street, how dishonoring is it to have these Polar bear hides left in 
canada going to waste, and with no consideration for our hard earned 
money that we are allowed to spend on what is legal to do, and have 
paid taxes on, to have a someone in Washington turn a blind eye on us 
and not say (if we list the bears what will be done with the legally 
harvested hides that American Citizens have already taken) It was my 
understanding that these bears harvested would be allowed to be 
imported. It is important that all the Polar Bears Harvested before the 
relisting be given reconsideration and allowed to be imported as not to 
dishonor those great bears in any way by wasting there hides, and there 
can't be anyone out there in thier right mind that doesn't agree with 
that statement.
    All good hunters want to honor the game that they challanged wits 
with, then harvested, and see those animals preserved for generations 
to see and used to educate.
    I do not impose my idioligizes on anyone else, and only ask that I 
be allowed to enjoy the outdoors in a way that is not detrimental to 
nature and allows everyone to enjoy it whether they hunt or not.
    I thank you for your time and help, if you need anything else from 
me please call 208-628-3062 or email anytime <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97fff0f8d7f1e5f8f9e3fef2e5f9f2e3b9f9f2e3">[email&#160;protected]</a>, 
Thanks

Darwin J. Vander Esch
                                 ______
                                 
    [A letter submitted for the record by Tim Walters on H.R. 
1054 follows:]

September 9, 2009

Dear Congressman Young,

    I polar bear hunted in the spring of 2008 out of Resolute, Nunavut. 
My hunt was scheduled to start on May 8 and scheduled to leave home on 
May 6. On or about April 28, I learned that a judge had ordered USFWS 
to make a determination on the polar bear listing by May 15, 2008. I 
quickly did some research and felt that the bear would not be listed so 
I preceded with my hunt plans. The entire cost of the hunt and 
everything related was approximately $50,000.00. I would have been able 
to recover all but about $5,000.00 if I had not gone on the hunt. My 
understanding was that bear were still importable to the US. USFWS was 
helping by allowing hunters to pre-apply for the application for the 
import permit because of the length of time associated with obtaining 
the permit (3-4 months). The reason that I wanted to go on the hunt was 
to experience hunting in the Arctic, and possibly bring home a 
beautiful trophy. My hunt started at 5:00P.M. May 8 and I took a polar 
bear at 1:30 A.M. on May 9. Two guides and I had seen five bear prior 
to the one I took. They ranged from a sow with a cub to a lone juvenile 
bear and two adult bear together. This appears to be quite a broad 
range in age. This is only eight and half hours on the ice and 41 miles 
from Resolute. I asked my guides what they thought of the bear 
population, and they both said there is more bear each year. The hunt 
was all I expected and was more special being able to take a bear with 
archery equipment. The disappointing part was learning that six days 
later the bear was listed as endangered and was non-importable to the 
US. Had the judge who ordered USFWS to make a determination by May 15 
allowed the season to end and then list the bear, I doubt that many 
more bear would have been killed and we may have avoided this problem. 
I feel that this judge is punishing hunters who are caught up in this. 
I have legally obtained personal property (my bear) in Canada that 
cannot be imported into this country. I feel this is wrong and my 
rights as a U.S. citizen have been violated. I have had my bear hide 
tanned in Canada to preserve it. This cost $1,000.00 and could have 
been spent in the U.S. instead. For those who object to the importation 
of bears, the import fee is $1,000.00 that I understand goes to polar 
bear research. I don't understand the objection, other than the 
punishment of legal hunters. These bear are dead, there is no way to 
put them back on the ice and makes no sense that they stay in Canada.
    I will be on vacation and will be back on September 21, please 
contact me on that day if I can be of any assistance. My hopes are that 
you are successful on your attempt.
    Thank you again

Tim Walters

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
